132a
were closed. For this reason, no reference to such
files will be made in this letter.
The following files
disciplinary sanction:

about

File No, Disposition
2002-70.505
2002-70.726

Emergency
Suspension
Disbarment

you

resulted

in

Court Order Date

11/13/2001
7/11/2002

The Following files were opened about you and did
not result in discipline:
File No. Disposition
2000-70.271
2002-70.480

Dismissal
Dismissal

Court Order Date
8/02/2002
6/18/2002

The following files have been opened about you and
action has not been concluded:
File No,

Status
**NONE**

I trust this information will be of assistance to you.
If you have any questions regarding this
correspondence, please call (850) 561-5774.
Sincerely,

133a

/S/
Kathryn Nelson
Administrative Support V
Legal Division
KN/kb

134a
Case l:19-cv-22135-RS Document 79 Entered
on FLSD Docket 07/07/2020 Page 4 of 10
EXHIBIT A2
The Florida Bar
651 East Jefferson Street
Tallahassee, FL 32399-2300
September 22, 2008
Ms. Anne G. Telasco
764 Jay Street, Apt. 2
Rochester, NY 14611
Re: Request for Information concerning
Anne Georges Telasco,
Bar #939420
Dear Ms. Telasco:
This letter is in response to your inquiry regarding
your discipline history with The Florida Bar. You
were admitted to practice in Florida on June 25,
1992, and you are currently disbarred, therefore
ineligible to practice law in Florida, effective July
11, 2002.
1. Disbarred, effective 7/11/2002
2. Suspended, effective 12/14/2001

135a
The Bar purges files that are closed by bar counsel
or grievance committee without imposing
sanctions, one year after the date the files were
closed. For this reason, no reference to such files
will be made in this letter.
The following files
disciplinary sanction:

about

you

resulted

in

File No.
Disposition Court Order Date
2002-70.505(llF)
Emergency
Suspension 11/13/2001
2002-70.726(llF)
Disbarment 07/11/2002
Case l:19-cv-22135-RS Document 79 Entered
on FLSD Docket 07/07/2020 Page 5 of 10
The Following files were opened about you and did
not result in discipline:
File No.

Disposition Court Order Date

2000-70.271(11F) Dismissal
2002-70.480(11F) Dismissal

8/02/2002
6/18/2002

The following files have been opened about you and
action has not been concluded:
File No.

Status
**NONE**

I trust this information will be of assistance to you.
Sincerely,

136a
/ S/
John F. Harkness, Jr., Executive Director
Official Custodian of Records
Sworn to and subscribed before me this 23rd day
of September, 2008, by John F. Harkness, Jr. who
is personally known to me.
/S/
NOTARY PUBLIC, Vicki S. Brand

137a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 72 of 300
EXHIBIT B
THE FLORIDA BAR,
Complainant,

Supreme Court Case
No.: SC02-44

v.

The Florida Bar File
No. 2002-70,726(11F)

ANNE GEORGES TELASCO
Respondent.
AMENDED REPORT OF REFEREE
I.
SUMMARY
OF
PROCEEDINGS:
Pursuant to the undersigned duly appointed as
Referee for the Supreme Court of Florida to conduct
disciplinary proceedings as provided for by Rule 37.6 of the Rules Regulating The Florida Bar, the
following proceedings occurred:
On January 11, 2002 (sic), the Floi’ida Bar filed
its complaint against Respondent as well as its
request for Admissions in these proceedings. On
April 19, 2002, a final hearing was held in this
matter. All of the pleadings, transcripts, notices,
motions, orders and exhibits are forwarded to the
Supreme Court of Florida with this report and the
foregoing constitutes the record of the case.

138a
The following attorneys appeared as counsel for
the parties:
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 73 of 300
For the Florida Bar:
Randolph M. Brombacher
Suite M-100, Rivergate Plaza
444 Brickell Avenue
Miami, Florida 33131
For Respondent:
No Appearance
II.
FINDINGS OF FACT:
After considering all the pleadings and
evidence before me, including but not limited to the
Court’s Order dated March 4, 2002 deeming
matters admitted, of which pertinent portions are
commented upon below, I find the following:
A.

Jurisdictional Statement. Respondent is,
and at all times mentioned during this
investigation was a member of The Florida Bar,
albeit suspended pursuant to Supreme Court Order
dated November 13, 2001, and therefore subject to
the jurisdiction and Disciplinary Rules of the
Supreme Court of Florida.
B.

Narrative Summary of Case.

139a
1.
That Respondent entered into eight (8)
separate Agreements with eight (8) separate clients
- Venicia Soupart, Exanise Marcellus, Lucia
Joseph, Marie Darcelin, Fontaine Baptiste,
Carlkine Jaboin, Yolette Moval, and Francoise Luc.
2.
That the (sic) these said Agreement[s]
provided that Respondent would file separate suits
on behalf of each client against Sheraton ITT.
3.

That the central issue or allegations of
each of these
suits
being employment
discrimination by Sheraton ITT.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 74 of 300
4.
That Respondent represented three (3) of
these aforementioned clients in three (3) separate
trials; each resulted in a defense verdict and/or
outcome.
5.
That a fourth trial for a fourth client
resulted in a Fifty Thousand Dollar judgment
($50,000.00) for the fourth client.
6.
That after the fourth trial, Sheraton ITT
offered to pay Three Hundred Thousand Dollars
($300,000.00) as part of a global/comprehensive
settlement for all eight (8) clients.

140a
7.
That the eight (8) clients each agreed to
such a global/comprehensive settlement.
That the sum of the recovery for such a
8.
global/comprehensive settlement was to be shared
by all eight (8) clients whether or not their
individual case had been tried previously and/or
resulted in a plaintiff or defense verdict.
That the settlement funds were received
9.
and disbursed by Respondent with Respondent
retaining $120,000.00 for her contingency fee.
That additionally, Respondent charged
10.
various “costs” to the eight (8) clients totaling One
Hundred Thousand Dollars ($100,000.00).
11.
That the eight (8) clients were to
ultimately
receive
Ten
Thousand
Dollars
($10,000.00) in settlement funds.
That Respondent maintained a Trust
12.
account identified as Anne Georges Telasco, P.A.
Trust Account No. 7228155394, maintained at
Great Western Bank, now
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 75 of 300
known as Washington Mutual Account No. 834068022-7, at times material herein.

141a
13.
That with regard to Three Hundred
Thousand Dollars ($300,000.00) settlement funds, a
draft in the amount of $50,000.00 from a
settlement with River Orchid Investment d/b/a
Sheraton Gateway Hotel (Sheraton ITT) was
deposited into the Respondent’s above referenced
trust account on or about May, 1999.
14.
That over the course of the next 5
months, five similar deposits, in the amount of
$50,000.00 each, were made to Respondent on
behalf of the eight said clients so that the total
amount deposited to her trust account was
approximately $300,000.00.
15.
That all Three Hundred Thousand
Dollars ($300,000.00) pertaining to the abovereferenced Sheraton settlement have been
withdrawn from said trust account by Respondent
to satisfy personal and business obligations both
related and unrelated to the eight (8) said clients.
16.
That as of February 28, 2001, the
balance in Respondent’s said trust account was
$0.00.
17.
That to date, Respondent has failed to
remit any of the said settlement funds to her
clients, in spite of her current obligation to have, at
a minimum, $80,000.00 in settlement funds held on
their behalf.

142a
18.
That a review of Respondent’s trust
account disclosed not only evidence of Respondent’s
misappropriation, but Respondent’s failure to
maintain trust accounting records and adhere to
required trust accounting procedures.
19.
That Respondent has failed to comply
with a duly executed and served subpoena
requiring the production, on or before
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 76 of 300
October 29, 2001, of original bank statements,
cancelled checks, deposit slips, client ledger cards,
receipt and disbursement journals, bank and client
reconciliation form respondent’s trust account and
any account in which Respondent has placed funds
pertaining to the said Sheraton settlement.
20.
That to date, Respondent has not
produced any of the above referenced subpoenaed
records.
III. RECOMMENDATION AS TO GUILT;
As to each allegation of the complaint, the Referee
made the following recommendations as to guilt or
innocence; I find the Respondent guilty as charged.
IV.
RULE VIOLATIONS FOUND:
Respondent has violated Rule 4-8.4(b) (A lawyer
shall not commit a criminal act that reflects

143a
adversely on the lawyer’s honesty, trustworthiness,
or fitness as a lawyer in other respects) and Rule 48.4(c) (A lawyer shall not engage in conduct
involving
dishonesty,
fraud,
deceit,
or
misrepresentation); of the Rules of Professional
Conduct as well as Rule 5-1.1(a) (Money or other
property entrusted to an attorney for a specific
purpose, including advances for costs and expenses
is held in trust and must be applied only to that
purpose) and 5-1.2(f) (failure to comply with a
subpoena) of the Rules Regulating Trust Accounts.
V.
RECOMMENTDATION AS TO
DICIPLINARY MEASURES TO BE APPLIED:
The Respondent was duly served with The Florida
Bar’s complaint in Case No.SC01-1198. on January
14, 2002, by certified mail, return receipt
requested,
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 77 of 300
pursuant to Rule 3-7.11(b) of the Rules Regulating
The Florida Bar.
No answers or any other
responses have been received from the Respondent
in the above styled case in spite of the bar having
made every effort to properly serve the Respondent
with subsequent pleadings in this case at her
record bar address.
Since that time, the bar has made every effort
to properly serve the Respondent with subsequent

144a
pleadings in this case at her record bar address as
well as other addresses discovered by the bar.
Given the Respondent’s failure to participate in
the proceedings or indicate the slightest interest in
continuing to practice law, I make the following
recommendations as to the disciplinary measures
to be applied:
A.
The Respondent shall be disbarred from
the practice of law pursuant to Rule Regulating
Florida Bar 3-5.1(f).
B.
The costs of these proceedings shall be
assessed against the Respondent.
VI.
PERSONAL HISTORY. PAST
DISCIPLINE RECORD AND AGGRAVATING
AND MITIGATING FACTORS: Prior to
recommending discipline pursuant to Rule 37.6(k)(l), I considered the following:
A.

Personal History of Respondent:
Age: 40
Date Admitted to the Bar: June 25, 1992

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 78 of 300

145a
B.
Florida Standards for Imposing Lawyer
Sanctions implicated in the Respondent’s
professional misconduct:
4.11 Disbarment is appropriate when a
lawyer intentionally or knowingly converts client
property regardless of injury or potential injury.
4.61 Disbarment is appropriate when a
lawyer knowingly or intentionally deceives a client
with the intent to benefit the lawyer or another
regardless of injury or potential injury to the client.
5.11(b)
Disbarment is appropriate
when a lawyer engages in serious criminal
misconduct, a necessary element of which includes
intentional interference with the administration of
justice, false swearing, misrepresentation, fraud,
extortion, misappropriation, or theft.
5.11(f) Disbarment is appropriate when a
lawyer engages in any other intentional conduct
involving
dishonesty,
fraud,
deceit,
or
misrepresentation that seriously adversely reflects
on the lawyer’s fitness to practice.
7.1
Disbarment is appropriate when a
lawyer intentionallj7 engages in conduct that is a
violation of a duty owed as a professional with the
intent to obtain a benefit for the lawyer or another,
and causes serious or potentially serious injury to a
client, the public or the legal system.

146a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 79 of 300
C. Aggravating Factors:
9.21(b) dishonest or selfish motive;
9.21(c) a pattern of misconduct;
9.21(d) multiple offenses; and
9.21(i) substantial experience in
the practice of law.
Respondent’s failure to respond to the Bar’s
inquiry and non-appearance at the final hearing
were also considered as additional aggravating
circumstances.154
D. Mitigating Factors:
9.31(a) absence of prior disciplinary record.
There were no other known mitigating
circumstances presented.
I am aware that The Florida Bar’s
recommendation of disbarment is in keeping with
Florida
law
and
the
rationale
that
154

1999)

The Florida Bar v. Summers. 728 So.2d 739 (Fla.

147a

misappropriation of client funds ranks at the top of
the “hierarchy of offenses” for which attorneys may
be disciplined.155 In addition I am cognizant of the
fact that disbarment is the presumed sanction for
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 80 of 300
attorneys who misappropriate client funds.156
Based on the above rule violations, the
seriousness of the Respondent’s misconduct, her
uncooperative attitude toward these proceedings
indicated by her failure to respond and nonappearance at the final hearing, the Florida
Standards for Imposing Lawyer Discipline (as
enumerated above), the aggravating circumstances,
165 The Florida Bar v. Benchimol. 681 So.2d 663 (Fla.
1996) (In disciplinary proceedings, the Supreme Court held
that
disbarment
was
warranted
by
attorney’s
misappropriation of client trust funds, misappropriation of
law firm funds, commingling of client and firm funds with
personal funds, and pattern of dishonesty and
misrepresentation, notwithstanding lack of prior disciplinary
history); see also The Florida Bar v. Shuminer, 567 So.2d 430,
(Fla. 1990) (Court held that misappropriation of clients’ funds
warrants disbarment); see also The Florida Bar v. Weinstein.
635 So.2d 21 (Fla 1994) and The Florida Bar v. Simring. 612
So.2d 561 (Fla. 1993) where these courts held that
misappropriation of client funds and failure to maintain
proper trust account records warrants disbarment.
iso Florida Standards for Imposing Lawyer Sanctions.
§4.11 and the Florida Bar v. Shanzer, 572 So.2d 1382 (Fla.
1991).

148a
the absence of significant mitigating evidence, and
the case law cited by Bar counsel at the final
hearing, I agree with The Florida Bar’s
recommendation and recommend the Respondent
be disbarred from the practice of law in Florida.
VII. STATEMENT
OF
COSTS
AND
RECOMMENDATION AS TO THE MANNER
IN WHICH COSTS SHOULD BE TAXED: I find
that the following costs were reasonably incurred
by the Florida Bar in these proceedings and should
be assessed against Respondent:
Administrative fee

$750.00

Court Reporter’s attendance
at Exanise Marcellus & Marie
Darcelin’s Deposition taken
on October 11, 2001 .................

406.00

Professional Translating Services
on October 12, 2001 ...............

325.00

Court Reporter’s attendance at
Fontane
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 81 of 300
Baptiste’s deposition
Taken on October 12, 2001

261.60

i

149a
Expert witness fee........................
Professional Translating Services
On December 11, 2001 .................

300.00

520.00

Court reporter’s attendance
at hearing held before Judge Scola
held on March 7, 2002 ...................

60.00
750.67

Staff Investigator’s fee
Staff Auditor’s fee

1,655.28
$5.028.55

It is recommended that the foregoing costs be
It is further
assessed against Respondent,
recommended that execution issue with interest at
a rate of 10% to accrue on all costs not paid within
30 days of entry of the Supreme Court’s final order
unless a waiver is granted by the Board of
Governors of the Florida Bar.
DATED this 29 day of April, 2002.
/S/

ROBERT N. SCOLA, JR., REFEREE
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the original of the
foregoing Report of Referee has been mailed to

150a
honorable Thomas D. Hall, Clerk, Supreme Court
of Florida, Supreme
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 82 of 300
Court Building, 500 South Duval Street,
Tallahassee, Florida 32399-1927 and that true and
correct copies were mailed by regular mail to john
Anthony Boggs, Staff counsel, the Florida Bar, 650
Apalachee Parkway, Tallahassee, Florida 323992300; to Randolph Max Brombacher, Bar Counsel
444 Brickell Avenue, Suite M-100 Rivergate Plaza,
Miami, Florida 33131; and to Anne Georges
Telasco, Respondent, at 7320 Biscayne Boulevard,
Miami, Florida 33138-5151, on this 29 day of April,
2002.

IS/

ROBERT N. SCOLA, JR., REFEREE

151a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 84 of 300
EXHIBIT C
Supreme Court of Florida
THURSDAY, JULY 11, 2002
CASE NO.: SC02-44
Lower Tribunal No.: 2002-70,726(11F)
THE FLORIDA BAR
Complainant(s)
vs.
ANNE GEORGES TELASCO
Respondent(s)
The uncontested report of the referee and
amendment thereto are approved and respondent is
disbarred, effective immediately.
Judgment is entered for The Florida Bar, 650
Apalachee Parkway, Tallahassee, Florida 32399,
for recovery of costs from Anne Georges Telasco in
the amount of $5,028,55, for which sum let
execution issue.
Not final until time expires to file motion for
rehearing and, if filed, determined. The filing of a
motion for rehearing shall not alter the effective
date of this disbarment.
A True Copy

152a
Test:
IS/

Thomas D. Hall
Clerk, Supreme Court
Kb
Served:
David W. Bianchi
Randolph Max Brombacher
Anne G. Telasco
Hon. Robert N. Scola, Jr., Judge
John Anthony Boggs

153a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 86 of 300
EXHIBIT D1
United States District Court - Southern
District of Florida
In recognition of the outstanding service and
dedication
To this Honorable Court and its pro bono program
The Volunteer lawyers’ Project
Anne Telasco
Is hereby conferred this
Certificate of Appreciation
So ordered and recorded before this
Honorable Court,
This 5th day of June, 1998 A.D.
/S/
Edward B Davis
Chief United States District Judge

154a
Case l:19-cv-22135-RS Document 79 Entered
on FLSD Docket 07/07/2020 Page 7 of 10
EXHIBIT D2
Local -On The Boulevard - A Lawyer with a
Heart (Article)
Miami Herald - Talent Billboard
Entertainment News & Views, June 22 - 28,
2001
By Lynn Roberson, Contributing Writer
Perhaps Shakespeare would never have said,
“let’s kill all the lawyers” if he’d met Anne Georges
Telasco, an attorney who lives and works on
Biscayne Boulevard. Because of her focus on race,
age ad gender discrimination in the workplace,
Telasco is one of forty attorneys, world wide,
summoned to Oxford University to take part in
their famous Round Table Forum. She’s declined
this year, “because I can’t leave my clients - they
trust me to find them some peace.”
Telasco represents ladies whose homes flood
with sewage, workers who loose their jobs because
“they aren’t Hispanic,” battered women afraid to
end their marriages and doctors on the verge of
nervous breakdowns. She doesn’t mind taking on
“the big boys”
international corporations,
prestigious law firms - even though she practices
alone, because “I know it’s the right thing to do.”
Her efforts are noticed. Telasco is one of the rare

155a
female solo practitioners to be an experienced
member of the Federal Bar.
She’s gearing up her private practice now to fit
the moo of the Renaissance on Biscayne Boulevard
- new signage, lush landscaping and secure
parking. “When I bought the building in 1995, it
was practically untouched. It had been a doctor’s
office since the 1930’s.” While her classmates from
the University of Miami Law School were buying
bay front homes in CocoPlum, driving Jaguars and
operating lavish office suites on Brickell Avenue,
Telasco, a single mother, moved her son and
daughter into her building’s back apartment and
opened Telasco & Associates in the front office
space. Since then, she’s spearheaded a successful
class action suit, conducted four federal trials,
raised her children, cared for her mother written an
acclaimed collection of poems, published by
Vantage Press and distributed Public roast chicken
to street people who drift by her 7320 address. “I
haven’t had much time for remodeling until now,”
Telasco says. “But something about living and
working on the Boulevard helps me feel in touch.”
Since her childhood in Haiti, Telasco has made
a practice of being in touch. Her poetry is imbued
with images of nature, of children, some with
“eyelashes worn away by tears.” She spoke French
and Creole when she immigrated to Miami and
entered Notre Dame high School. “My classmates
laughed at my English,” she says. “I came home

156a
and cried. Then I learned,” Poetry has given her
perspective and articulated her strength. In the
Sun Walks With Me, she writes, “In spited of my
frailties, I inherited the earth.”
As an attorney, Telasco’s insight serves her
well. “When clients come to see me, they’re hungry,
I feed them. If they’re thirsty, they drink, whether
its coke or cafe au lait. Then I listen. I believe that
the law was established to correct a wrong and
there usually is a way through the law to find a
remedy, to correct the wrong. I assure the client
that I will do as much research, as much work, for
as long as it takes, to find the remedy. Whatever
the battle they’re in, they’re not alone. I tell them,
‘we’re going to be just fine,’ and they like the ‘we.”
For information on Anne G. Telasco, Telasco &
Associates,
P.A.
7320 Biscayne Boulevard,
specializing in family, labor, business and
discrimination law, personal injury and appeals,
call 305-754-4466.

<

157a
Case l:19-cv-22135-RS Document 79 Entered
on FLSD Docket 06/29/2020 Page 9 of 10
EXHIBIT D3
New York International
Independent Film & Video
Festival 2005 in Los
Angeles
Best Directorial Debut of
a Short Film

Anne G. Telasco for
"In God’s Shadow”

158a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 92 of 300
EXHIBIT D4
RESUME OF
ANNE G. TELASCO
764 Jay Street
Rochester, N.Y. 14611
Phone: 347-545-2496
Email: agtelasco@aol.com
EDUCATION
New York Film Academy
New York, New York

Screenwriting & Digital
Filmmaking
Nov. 2004 - April 2004

University of Miami
School of Law
Coral Gables, Florida

Juris Doctor
Sep. 1988 to May 1991

Barry University
Miami, Florida

B.S. in Management
Jan. 1985 to Sept. 1988

Charron Williams College Legal Secretary Diploma
Miami, Florida
Sept. 1983 to June 1984
Notre Dame Academy
Miami, Florida

High School Diploma
Aug. 1978 to June 1982

WORK EXPERIENCE
07/07 - Present
Rochester, NY.

Property Management

159a
01/10-10/10

Film maker.
Wrote, filmed, produced and
edited feature film In
, . God’s Shadow which was
given critical acclaim by the
2010 Film Independent
Screenwriters Lab,
Los Angeles, CA

04/05 - 07/06

Film maker.
Wrote, produced, edited
and directed, 4 short films:
hi God’s Shadow, The Writer,
The Common Thread' and Fate.

04/03 - 10/04
& 5/04 -6/07

Paralegal
The Henriques Group, n/k/a
Henriques Law & Mediation
Group, Miami, Florida.
Provided litigation support
for a wide selection
of cases and practice areas.

01/98 -1999

Adjunct Law Professor
University of Miami School
of Law, Coral Gables, Florida.
Created and taught family
law workshop, the “Enforcement
of Parental Obligations.”

01/93-10/01

Founding Share Holder &
Attorney at the Law Offices
of Telasco & Associates, P.A.,
Practice provided legal services
- Family Law, Civil Rights Act,
The Fair Labor Standard Act,

160a
Uniform Commercial Code,
Business Law, and Employment
Law. Filed Appeals to the Third
District Court of Florida, Federal
Court and the Florida Supreme
Court as well as the United
States Supreme Court.
04/92 ■ 01/93

Attorney
Law Offices of Stephen
Cahen, P.A.,
Miami, Florida: Duties
same as listed in practice
above.

02/88 - 12/92

Law Clerk.
Law Offices of Stephen
Cahen, P.A., Miami, Florida.

07/84 - 10/87

Administrative Secretary
Metropolitan Dade County
Dept, of Human Resources
Office of Health Services,
and Placement Services
Program.

HONORS
2005

Winner of Best Directorial
Debut.
Received for short Film “In
God's Shadow” at the New
York International Film and
Video Festival in Las Vegas
& Los Angeles:
Winner of Best Score
Received for the short Film
“In God’s Shadow,” at the

161a
New York International
Film Festival in New York.
See www.nyfilmvideo.com
2001

Invited to participate in the
Oxford Round Table Forum
in Oxford England. 1 of 40
attorneys worldwide
extended this honor.

06/05/98

Certificate of Appreciation
U.S. District Court for
outstanding service and
participation in the Volunteer
Lawyers’ Project Pro Bono
Program.

01/85-1/86
& 9/87

Dean’s List, Barry
University —
Miami, Florida

01/86 to 12/86

National Dean’s List, The
Tenth Annual Edition of the
National Dean’s List.

01/85 to 12/85

National Dean’s List, The
Ninth Annual Edition of
the National Dean’s List.

PROFESSIONAL ASSOCIATIONS
2005 - Present

Member of the Screen Actors
Guild

2005 - Present

Member of Film Independent

1994 -10/01

Member of the Federal Trial Bar

i

162a

1993 -10/01

Member of the Federal Bar

1993 - 10/01

Member of the Academy
of Florida Trial Lawyers

1993 - 10/01

Member of the American Bar

1992- 10/01

The Florida Bar. Resigned
11/2001. Details can be
found at www.allpeopleslaw.com

163a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 97 of 300
EXHIBIT D5
Dec. 8, 1998
Mr. Telasco:
This is in regards to my letter I received. Now
this don’t seem fair, when you first met me you
almost cryed (sic) after you saw my head, sure right
now I’m healed but what I had to go through to get
it, I don’t want to sound ungrateful, because when
no one else would take my case, you did and for
that I’m eternally grateful but can I ask you to do
this one last thing put this back before them
$4,000.00 four thousand. The reason is I’m getting
out of hear (sic) next year, I still have a bandage on
my head, finding a job right away will be hard
enough and with $2,000.00 (2 thousand) I’ll have a
better chance if you do this. I’ll forever be in your
death (sic). Thank you.
Respectfully yours
/S/
Thomas Wilcox

!

164a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 98 of 300
Law Offices of Anne G. Telasco, P.A.
7320 Biscayne Blvd.
Miami, Florida 33138
February 8, 1998 (sic)
Thomas Wilcox
#021649-Work Camp M-2119-S
Tomaka Institution
3950 Tiger Bay Road
Daytona Beach, Florida 32124
Re: Wilcox v. Abdul-Wasi,
Case No.: 96-0427 CIV HIGHSMITH
SETTLEMENT STATEMENT

Settlement Amount
Anne G. Telasco, P.A., fee (40)
ATTORNEY’S FEES
$1,400.00
Costs
Fax outgoing: 8 pages X $1.00/page
Postage: Stamps fee
Copies: 263 copies x $.25/copy
Administrative costs
Medical Records fee

$3,500.00
$1,400.00

$8.00
$55.00
$65.75
$150.00
$375.22

165a
Filing and service fee
Detective fee
Parking
Mileage

$280.00
$175.00
$58.75
$116.12

\

TOTAL COSTS

$1,284.29

Total owed to ANNE G. TELASCO P.A.
$2,684.29
FUNDS DUE TO CLIENT $815.71
CREDIT TO CLIENT.
$1,184.29
PAYMENT TO MR. WILCOX IS. $2.000.00
I, Thomas Wilcox, #021649, have read the
statement carefully and understand and accept the
settlement.
I have received $2,000.00 from
TELASCO & ASSOCIATES, P.A. as full settlement
of my case Wilcox v. Abdul-Wasi. Case No.: 96-0427
CIV HIGHSMITH.
/S/
Thomas Wilcox

Dated: 2-10-1999

166a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 100 of 300
EXHIBIT E
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO,
Respondent.

The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
AFFIDAVIT OF HODELIN F. RENE
1. I, Hodelin F. Rene, was born in Haiti. I am a
Creole Translator. Creole and French are my first
languages. I provided a variety of services to
different Haitian organizations and individual
Haitians in the Greater Miami Area,
The
organizations included, but are not limited to,

167a
Haitian Pastor’s Coalition of Miami, the Haitian
Medical Association Miami Chapter, to Haitians
with immigration problems or seeking political
asylum.
2. I am over the age of 21 and otherwise
competent to file this Affidavit,.’
3. I am personally familiar with the facts stated in
this Affidavit.
4. The following facts which are within my own
personal knowledge is submitted for use in the
above-styled case and for all other lawful purposes.
5. I was employ as a translator by Anne Georges
Telasco of the firm of Telasco & Associates, in the
City
Miami,
of
Dade
county, Florida
6. I provided translation services to the following
Haitians Clients, of Telasco & Associates, P.A., who
are the complainants in the above captioned case,
Marie M. Darcelin, Lucia Joseph, Venicia Soupart,
Fontane Baptist, Exanise Marcellus, Carline
Jaboin, Yolette Moval, Francoise Luc and Lucia
Joseph in their case against Sheraton Gateway
Hotel.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 101 of 300

168a
6. I translated from English to Creole,
information regarding various issues, relevant to
these clients cases to each of them simultaneously
in a face to face setting, together in a meeting
room.
7. On several occasions, I provided transportation
to several of these Haitian Clients from the Law
Offices to the Court and returned with them after
the court proceedings were completed for the day.
8. I translated from English to Creole the
settlement amount, the payment plan by Sheraton,
the costs incurred by the firm, the monetary
distribution of $10,000.00 to each clients and the
date distribution would be made to them and all
other settlement terms and provisions before they
agreed to the settlement amount. After that, each
client signed the Settlement Agreement.
9. I know the individual clients understood the
settlement agreement which I translated to them
because after I translated the documents to them I
then asked each in turn to explain to me what they
heard me say to them. I did this to determine to
what extent they, the clients, understood what I
communicated from the written agreement. When
any of the clients did not understand (as evidenced
by their interpretation) I repeated the statement
until they indicated an understanding of what I
had interpreted to them.

s

169a
10. I reiterated their oral agreement to share the
settlement proceeds equally and their agreement to
pay all costs to include the fees of Troy Harris, Esq.
11. During court proceedings, I sat with these
clients in designated areas, to explain, in Creole,
what was going on and when they were needed for
testimony in the Court room. On one occasion, I
was approached by a Black Female Lawyer who
introduced herself to me a Marilyn Hollifield from
the law Firm of Holland & Knight who asked me
whether I was an attorney with Telasco &
Associates.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 102 of 300
12. There was at least one occasion wherein I went
to the home of one of the clients to bring them to
the law office, because of a lack of transportation.
13. These translation sessions took place at the law
Offices and at the Court House, in downtown
Miami.
14. My involvement, as described, occurred during
several sessions lasting approximately 1 % to 2
hours over the course of several weeks.
15. I was compensated by Telasco & Associates,
P.A. for my translation Services.

170a
IS/
Hodelin F. Rene
Affiant
State of Georgia
County of Dekalb
BEFORE ME, the undersigned authority,
personally appeared Hodelin F. Rene, who
produced his Department of Human Health
Resources/CDC as identification, and who after
being duly sworn, deposes and says that the
foregoing document has been read and executed,
and information contained therein are true and
correct.
SWORN TO AND SUBSCRIBED before me
this 29 day of October, 2001
/SI
Notary Public
State of Georgia at Large
My Commission Expires: April 16, 2002.

171a
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the Letter of Immediate and Permanent
Resignation from the Florida Bar was fax (305)3774519 to Randolph Max Brombacher, Esq., at 444
Brickell Avenue, Suite M-100, Miami, Florida
33131 This 30th of October 2001.
IS/
Anne G. Telasco, Esq.
7320 Biscayne Blvd
Miami, Florida 33138
Phone: (305)754-4466
Fax: (305)754-9074
FBN: 939420

172a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 105 of 300
EXHIBIT F
AFFIDAVIT
STATE OF FLORIDA)

COUNTY OF DADE ) NO CASE NAME AND
NO CASE NUMBER;
AFFIDAVIT JUMPED
FROM NUMBER 11 TO
NUMBER 38
Before me, the undersigned authority, this day
personally appeared Carlos J. Ruga, who being
duly sworn states:
1. My name is Carlos J. Ruga. I am a
Certified Public Accountant, licensed in the State of
Florida and employed for over sixteen (16) years as
the Miami Branch Staff Auditor by the Florida Bar.
2. At the request of bar counsel a subpoena
duces tecum was issued by the Honorable Robert N.
Scola Jr. referee in Florida Bar v. Anne Georges
Telasco Supreme Court Case No.SC01-1198,
directing respondent to appear before the
undersigned and produce all her trust account
records.
3. This subpoena was predicated upon the
complaint of eight (8) individuals who averred that

173a
respondent represented them in an employment
discrimination suit against Sheraton Gateway
Hotel. In January 1999, the complainants agreed
to a settlement in which starting February 1999,
Sheraton would pay $50,000.00 every month for six
(6) months for a total of $300,000.00.
The
settlement was to be divided equally between all
eight (8) clients in July 1999.
4. On or about Juty 19, 1999, respondent
prepared a settlement statement in which she was
to receive $120,000.00 for attorney’s fees and
deducted costs in the amount of $131,552.30
leaving a balance $48,447.70 to be divided between
the eight (8) clients Respondent credited $31,552.30
to the clients so each could receive $10,000.00.
5. Respondent’s clients refused to accept
the settlement, did not receive any funds
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 106 of 300
from respondent, requested a statement itemizing
the costs charged and when respondent refused to
provide this information they filed a complaint with
the Florida Bar.
6. On or about October 16, 2001, a
subpoena was issued to respondent commanding
her to appear before me on October 29, 2001, at
10:00 a.m. at the Florida Bar offices and produce at
that time original bank statements cancelled
checks, deposit slips, client ledger cards, receipt
and disbursement journals, bank and client

174a
reconciliation from the account identified as Anne
Georges Telasco, P.A., Trust Account No.
7228155394, maintained at Great Western Bank,
now known as Washington Mutual Account No.834068022-7, any trust account in which she had
signatory capacity, and any account in which she
has placed funds pertaining to the settlement of
River Orchid Investment d/b/a Sheraton Gateway
Hotel, for the period of January 1, 1999, to the
present. In addition, a subpoena was also served
upon
the
banking
institutions
requesting
respondent’s records.
7. Respondent failed to appear on October
29, 2001, and has not produced any records as of
this date.
8. On October 29, 2001, Great Western
Bank delivered the bank statements of the account
identified as Telasco and Associates P.A. Trust
Account number 834-068002 for the period of
January 1, 1999 to February 28, 2001.
9. My review of the bank statements
revealed that during the period of February 1999 to
July 1999, respondent deposited in her trust
account the $50,000.00 of the Sheraton settlement
each month for a total of $300,000.00.
10. My review of the bank statement also
revealed that respondent used all the $300,000.00
from the Sheraton matter to pay for personal or
business matters unrelated to the clients. The

175a
balance in the trust account on February 28, 2001,
was $0.00, the clients have not
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 107 of 300
received any funds and respondent should have has
in trust at the very least the $80,000.00 of the
clients portion plus the disputed costs charged to
the clients.
11. We have an outstanding subpoena with
Washington Mutual and we will obtain the rest of
the bank records in order to complete the audit, but
it has been the undersigned’s experience that bank
records such as the ones sought take several weeks
and in many instances, months, before they are
located, reproduced and forwarded.
[NUMBERS 12 TO 37 IS MISSING FROM
AFFIDAVIT]
38. In my professional opinion, based upon
the preliminary investigation of respondent’s bank
records, as reflected in this affidavit, there is clear,
convincing and undeniable evidence the respondent
has misappropriated client funds. It is also my
opinion that respondent represents a clear and
present danger to the public.
FURTHER AFFIANT SAYETH NAUGHT
IS!
CARLOS J. RUGA
Sworn to and subscribed before me this 30th
day of October 2001.

176a
IS/
NOTARY PUBLIC
My commission expires: May 14, 2005
Commission #DD 025518

177a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 109 of 300
EXHIBIT G
Law offices of Telasco & Associates, P.A.
7320 Biscayne Blvd.
Miami, Florida 33138
July 1, 1999
To: MARIE M. DARCELIN
LUCIA JOSEPH
FONTAINE BAPTISTE
VENICIA SOUPART
FRANCOISE LUC
YOLETTE MOVAL
CARLINE JABOIN
EXANISE MARCELLUS
Subject: Disbursement of Settlement Funds
This month is the last month that Sheraton will
be making its Final Settlement Payment. As I
informed you during the mandatory meeting held
in my office, the settlement funds will be disbursed
to all eight (8) Plaintiffs in July 1999 regardless of
who won or lost her case as all of the Plaintiffs
agreed in the beginning of the lawsuit. I will need
you to come to the office during the week of July 19,
1999 to pick up your check. Please call the office

178a
and advise as to the time you will be able to pick up
your check.
As agreed, everyone who paid $100.00 towards
the costs of interpreters for this case will be
reimbursed.
Each plaintiff will also receive
$10,000.00 out of the settlement funds. When you
come in please bring your social security and
drivers license if you drive.
I hope that this letter find[s] all of you in good
health.
Sincerely
IS/
Anne G. Telasco, Esq.

179a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 111 of 300
EXHIBIT HI
Goldfarb, Gold, Gonzalez & Wald, P.A.
100 Southeast 2nd Street
Suite 3900
Miami, Florida 33131
November 24, 1999
Cynthia Ann Lindbloom,
Asst. Staff Counsel
The Florida Bar
Rivergate Plaza - Suite M-100
444 Brickell Avenue
Miami, Florida 33131-2404
Re: Fontaine Baptiste, et al.
vs.
Anne Georges Telasco, Esq.
Dear Ms. Lindbloom:
This will acknowledge my receipt of copies of
your letter to Ms. Telasco dated October 18, 1999
and her response to you with a hand-written date
of October 27, 1999. I sincerely appreciate you
keeping me informed regarding the status of this
matter and request that you continue to do so.

180a
I am deeply troubled regarding many of the
items included in the unexecuted settlement
statement dated July 19, 1999 which Ms. Telasco
provided to you. There are basic mathematical
errors in several of the entries (including witness
fees for trial and service of process) and, more
importantly, based on my experience, many of Ms.
Telasco’s claimed costs are simply not credible. I
have highlighted those particular items on Ms.
Telasco’s settlement statement which are especially
deserving, in my opinion, of closer scrutiny,
including a mysterious credit to the Plaintiffs in the
amount of $31,552.30 as well as the additional
paragraph which she chose to insert in the
settlement statement provided to you.
As you are aware, to date Ms. Telasco has
refused to provide you with the alleged settlement
agreement executed by the Plaintiff, and given the
extremely high index of suspicion raised by her own
settlement statement, I would suggest to you that
it is imperative that The Bar obtain a copy of same,
whether from Ms. Telasco or from defense counsel.
I am formerly requesting on behalf of Mr.
Baptiste that The Florida Bar immediately file a
formal grievance against Ms. Telasco and that you
devote your full attention and resources to this
matter. I would urge you to perform an immediate
and detailed accounting in this matter, including

181a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 112 of 300
requiring Ms. Telasco to provide you with copies of
all invoices and bills relating to the costs claimed
on her settlement statement. I would appreciate it
if you would contact me upon your receipt of this
letter to let me know how The Bar will proceed and
to further discuss this matter.
Thank you in advance for your continued
cooperation and attention to this matter.
Very truly yours,
/S/
Jonathan D. Wald
cc: Mr. F. Baptiste

182a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 114 of 300
EXHIBIT H2
The Florida Bar
Rivergate Plaza, Suite M-100
444 Brickell Avenue
Miami, Florida 33131-2402

December 9, 1999
Anne Georges Telasco, Esquire
7320 Biscayne Blvd.
Miami, Florida 33138-5151
Re: Complaint by Exanise Marcellus against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,399(11F)
Complaint by Marie Darcelin against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,396(11F)
Complaint by Lucia Joseph against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,394(11F)
Complaint by Yolette Moval against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,397(11F)

183a

Complaint by Venicia Soupart against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,395(11F)
Complaint by Francoise Luc against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,398(11F)
Complaint by Fontaine Baptiste against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,271(11F)
Complaint by Carline Jaboin against
Anne Georges Telasco, Esquire
The Florida Bar No.: 2000-70,446(11F)
Dear Ms. Telasco:
Please find enclosed a copy of Mr. Wald’s
correspondence dated November 24, 1999.
Your response to the above within seven (7) days of
the date of this letter with a copy to the
Complainants is requested.
Sincerely,
/S/
CYNTHIA ANN LINDBLOOM
Assistant Staff Counsel
cc: Exanise Marcellus

184a
Marie Darcelin
Francoise Luc
Yolette Moval
Venicia Soupart
Francoise Luc
Fontaine Baptiste
Carline Jaboin

185a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 116 of 300
EXHIBIT I
The Florida Bar
Rivergate Plaza, Suite M-100
444 Brickell Avenue
Miami, Florida 33131-2404
MEMORANDUM
To:

Randolph M. Brombacher
Assistant Staff Counsel

From:

Carlos J. Ruga, Branch Auditor

Re:

Anne G. Telasco,
TFB File No. 2000-70,271(llF)

Date:

July 14, 2000

Pursuant to your directives on or about July 6,
2000, I met with respondent in order to ascertain
that the costs charged to the complainants in the
Sheraton matter, were incurred and paid. During
our meeting respondent provided the following
records and explanations:

PARALEGAL AND LAW CLERK EXPENSES
Respondent charged her clients in this matter a
total of $21,300.00 and as evidence produced copies
of checks, 1099’s and W-2’s for the years 1997, 1998

186a
and 1999, totaling $38,253.44. Most of the charges
were from 1998. In addition, respondent produced
copy of the front page of The Florida Bar Journal
from October 1998, sent to Troy Donahue Harris at
her offices.
Respondent stated that before she took the
Sheraton case, her practice was small and she had
only a part time secretary,
That due to the
extremely large volume of work needed to litigate
this case, she had to hire outside help in order to
keep up with the opposing party.
Since the amount of payments exceed the amount
charged to the clients ($38,253.44 minus $21,300.00
= $16,953.44) I questioned respondent on this
difference. Respondent advised me that some of
the payments made to the paralegal and law clerks
were for research and were charged on the West
Law and Lexis expenses.
WESTLAW & LEXIS EXPENSES - Respondent
charged her clients in this matter a total of
$21,520.00 and as evidence produced a check in the
amount of $6,000.00 payable to West Group and
invoices form Lexis-Nexis totaling $3,675.12.
Respondent stated that the balance of the costs
charged for legal research was paid directly to the
paralegal and law clerks working with her in the
Sheraton case and the payments are reflected in
the 1099’s and W-2’s for the years 1997,

187a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 117 of 300
1998 and 1999, and listed as paralegal and law
clerks.
Respondent further stated the expenses
incurred in legal research were exclusively in the
Sheraton case and never had those costs before or
after the Sheraton case. All the paralegal, legal
assistants and lawyers were dismissed as soon as
the case was finished.
PHOTOCOPIES - Respondent charged her clients
in this matter a total of $20,800.00 and as evidence
produced checks and invoices totaling $4,366.60
from outside copying and also produced a log in
which reflected thousands of copies done in house.
In addition, respondent produced a copy of
Defendant Motion to Tax Costs in Sheraton matter
and in that motion the opposing party stated that
they had spent in a total of $2,472.71 for
photocopies for just one (1) of the eight (8) cases.
This amount multiplied by 8 cases is $19,781.68
spent in copies by the opposing party and the
motion was dated May 27, 1998.
FAX EXPENSES
Respondent charged her
clients in this matter a total of $2,520.00 and
produced copies of checks to Office Depot and cash
totaling $867.02 and stated that those expenses
were made for paper and toner. In addition,

188a
respondent produced a log which reflected
numerous faxes sent in connection with the
Sheraton matter.
POSTAGE AND COURIER
Respondent
charged her clients in this matter a total of
$4,600.00 and produced copies of checks for courier
services totaling $2,598.43 and a log in which
reflected a substantial amounts of postage
expended in connection with the Sheraton matter.
The log reflecting the photocopies, fax and postage
expenses are attached to this memorandum.
Based upon the records reviewed and my
meetings with respondent it appears that the costs
charged to the clients were incurred and paid. The
costs of Paralegal/Law Clerk and West Law and
Lexis generally are not charged to the clients when
the case is on a contingency bases, but in this case
it is not that clear. Respondent had only a parttime secretary in her office, the case the
complainants brought to her was a case of
discrimination. The complainants are eight black
Haitians and they could not find anybody to take
their case. A big hurdle in the case was that the
EEOC investigated the matter and found no cause
to proceed. Respondent took the case and had four
(4) Federal trials, lost three (3) and finally
prevailed on one. The costs had to be staggering
and to compound the problem it appears that
respondent did not keep proper accounting records.
Respondent advised me that the records were

189a
scattered in approximately 50 boxes of documents
related to the case.
If you have any questions regarding the
contents of this memorandum, please contact me at
your convenience.

190a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 119 of 300
EXHIBIT J1
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
Supreme Court Case
No. SC01-1198
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO,
Respondent.

The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
LETTER OF IMMEDIATE AND PERMANENT
RESIGNATION FROM THE FLORIDA BAR
I see the shadow of justice and feel its destructive
blows to my disenchantment.
By Anne Georges Telasco, Esq.

191a
To Judge Scola and the Justices of the Florida
Supreme Court
I have been a lawyer in private practice since
January 1993, over 9 years. As a Haitian and
bilingual attorney, I have served all types of clients.
With my Haitian clients, I have always been able to
communicate with them in [creole], our native
language. I have been to trials and have settled
cases for clients. I have disbursed at least
$2,500,000.00 to clients over the years. I have
never had any problems with any of my clients,
most specifically my Haitian clients because I failed
to communicate with them.
I have filed an answer and affirmative defenses in
response to the Florida Bar’s Complaint, i.e.,
failure to communicate costs to my Haitian clients,
in this matter. The answer is comprehensive. I am
respectfully requesting that the Supreme Court
carefully read the answer and review its
attachments to see the treatment the Florida Bar
afforded me for over 28 months.
The Bar investigated me for over 28 months.
During this 28 months, the Florida Bar never spoke
to the 8 complainants. Instead, they spoke to an
attorney by the name of Jonathan D. Wald from the
Law Firm of Goldfarb, Gold, Gonzalez & Wald, P.A.
Mr. Wald is an attorney who was approached by
the 8 complainants back in 1993 to handle the

192a
racial discrimination case which I accepted and is
the subject of the Florida Bar’s investigation. Mr.
Wald did not accept the cases because he felt it was
too much trouble. I took this case and worked on
this case for over 5 years. Four of the eight cases
went to 4 complete federal jury trials. Each trial
comprised of over 25 witnesses. Each trial lasted 4
to 5 day. The jury returned 2 guilty verdicts and 2
not guilty verdict for defendant. One of the guilty
verdict the jury awarded zero dollar as
compensatory damage and the second the jury
awarded $50,000.00 punitive damage and zero
dollar compensatory damage. The Defendant
appealed the $50,000.00 award. The costs of these
cases were well over $120,000.00. The clients were
aware of the costs and agreed to pay them. The
eight clients also agreed to share all settlement
funds received equally because of the
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 120 of 300
common struggled and concerted effort it required
from all of them to win.
When the fourth trial concluded, several days of
negotiation ensued which resulted in a settlement
of the case for $300,000.00. All eight clients
participated in the settlement negotiations.
Because the Defendant was a dissolved corporation
and did not have $300,000.00 readily available, it
agreed and the clients accepted payments of the

193a
$300,000.00 in 6 installments of $50,000.00 per
month for 6 months. All clients agreed to the terms
of the settlement. Being aware of my costs, and
before the offer was accepted, I agreed to pay not
less then $10,000.00 to each client if they accepted
the settlement. A [creole] translator was present
during settlement negotiations. Once the offer was
accepted and we agreed on the format of the
agreement, a translator read each page of the
settlement agreement to the clients and initialed
each page as he read the documents to them and
asked them if they understood the terms of
settlement before each client signed the Agreement.
Copy of Translator’s affidavit attached. I was able
to locate the Translator in Atlanta within the past
few days. The original affidavit will be forwarded
to the court upon receipt.
After the settlement agreement was executed, I
received several calls from Baptiste, the
complainant who originally brought the case to me
and whom Mr. Wald use to initiated the Florida
Bar’s investigation, requesting that the clients who
lost not be paid contrary to their agreement. Thus,
this would make it necessary to disburse the
$80,000.00 in four ways instead of 8. Mr. Baptiste
also informed me that since he brought me the
case, he is entitled to receive more money then the
other clients. I informed Mr. Baptiste that these
demands were unacceptable.

194a
After the Defendant paid the full $300,000.00 on
July 1999, I sent a letter to the 8 clients to come to
pick up $10,000.00. I also called them. Instead, I
received a call from Mr. Wald who informed me
that he had been retained by Mr. Baptiste and he is
requesting that I send him original receipts,
canceled checks and invoices reflecting my
expenditures in the case since 1993 so that he may
verify my costs. I refused because of Mr. Wald’s
tone and condescending attitude in making the
request. I am not Mr. Wald’s paralegal or lackey. I
earned my law degree and my license as Mr. Wald
earned his.

\

At this point, Mr. Wald reviewed my settlement
statement and advised Mr. Baptiste that my costs
were not real, others were suspect, the credit which
I gave in order to disburse $10,000.00 to them was
mysterious. He proceeded to write a letter for Mr.
Baptise to take to the Florida Bar. The Florida Bar
began their investigation. During the next 3
months, Mr. Baptist manage to get the other 7
clients to sign Mr. Wald’s letter. The Florida Bar
launched their investigation of my representation
of the clients. The Florida Bar and Mr. Wald's deep
concern was that I failed to communicate my costs
to the 8 clients. The clients were not aware of these
costs. They should not pay these costs. I should pay
for these costs myself. "I made too much money."
All documents requested by the Bar was provided
to them. The Florida Bar kept Mr. Wald abreast of
the result of their investigation.

195a

When the Florida Bar send a copy of my letter
responding to the complaint to Mr. Wald, Mr. Wald
wrote his letter to the Florida Bar using his law
firm’s letter head. In this letter, Mr. Wald
reiterated what he had told Mr Baptiste, “...based
on my experience, many of Ms. Telasco’s claimed
costs are simply not credible. I have highlighted
those particular items on Ms. Telasco’s settlement
statement which are especially deserving, in mv
opinion, of closer scrutiny, including a mysterious
credit to the Plaintiffs in the amount of $31,552.30
as well as the additional paragraph which she
chose to insert in the settlement statement provided
to you.” “I am formerly requesting on behalf of
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2021 Page 121 of 300
Mr. Baptiste that the Florida. Bar immediately file a
formal grievance against Ms. Telasco and that you
devote your full attention and resources to this
matter. I would urge you to perform an immediate
and detailed accounting in this matter, including
requiring Ms. Telasco to provide you with copies of
all invoices and bills relating to the costs claimed on
her settlement statement. I would appreciate it if
you would contact me upon your receipt of this letter
to let me know how The Bar will proceed and to
further discuss this matter. ” Within a few days of
Mr. Wald’s Request, the Florida Bar referred the
case to the Grievance Committee with Mr. Joseph

196a
Ganguzza as the investigative member. The Florida
Bar demanded that I provide original receipts,
canceled checks and invoices reflecting my
expenditures in the case since 1993 so that it may
verify my costs and expenses. Mr. Ganguzza,
suggested that to put an end to my problem I
should go to Mr. WaLd to have him disburse the
settlement funds.
I met with Mr. Carlos Ruga, the Bar’s auditor on
April 17, 2000, May 31, 2000 and again on July 6,
2000. My three (3) separate meetings with Mr.
Ruga lasted over five (5) hours. At that time I
provided all of the documents requested by the
Florida Bar to confirm the expenses incurred in the
cases of the above-named complainants. Among the
documents which I provided to Mr. Ruga were
original canceled checks, W2 and 1099 forms for all
legal staff who were hired exclusively to work on
the claimants cases, original canceled checks,
receipts and itemized documents reflecting usage
and payments for faxes, copies (to include a copy of
Defendant’s motion for cost and expenses reflecting
the similarity of my costs verses Defendant’s),
postage and courier fees, Westlaw and Lexis
charges for nationwide federal electronic research
incurred including canceled checks and copies of
bills. Mr. Ruga generated a report as a result of his
investigation. Once this report was completed, the
Bar refused to give me a copy of the report in light
of my several requests. The Bar finally gave me a
copy of the report after I made a third documented

197a
demand for a copy of the report. A copy of Mr.
Ruga’s report was not given to the clients. [This
report reflects that all costs and expenses were
incurred and paid for].
During the week of August 8, 2000, Mr. Ruga called
me to inform me that he had presented his report
to the Grievance Committee at their meeting. I was
not given notice of this meeting. At this meeting,
the Committee verbally proposed through Mr. Ruga
that I pay $3,000.00 to each claimant as
reimbursement of the costs (since the Committee
was not satisfy with the costs documentation I
provide for Lexis and Westlaw in light of my
explanation) and to write a letter admitting to
minor misconduct.
In response, I informed Mr. Ruga that I would
adhere to the monetary reimbursement, not
because I believe these expenses were improper but
rather because I wanted this matter concluded.
However, I refused to acknowledge that I
committed any misconduct, whether or not minor.
On or about August 16, 2000, I received a call from
Mr. Ruga asking me for my decision
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 122 of 300
as to the proposed settlement offer. I informed him
that I would not write such a letter. Further, to

198a
support my unwillingness to accept such improper
blame, I informed him that I had received a letter
from Jonathan D. Wald, Esq., dated August 14,
2000 informing me that I would be sued for
malpractice by at least four (4) of the eight (8)
complainants, as the other four (4) had not made
up their minds.
IT IS CLEAR THAT,
In this non-conventional case, it is an error for Mr.
Wald, Mr. Ganguzza and the Florida Bar to
intervene to define costs after the clients agree to
pay costs they were aware of from any funds
received from the defendant in the case.
It is error for Mr. Wald, Mr. Ganguzza and the
Florida Bar to completely disregard written and
executed contract and agreement thoroughly
explained and understood by clients (when
translator executed and initial each page of said
contract).
It is error for Mr. Wald, Mr. Ganguzza and the
Florida Bar to refuse to accept the Florida Bar
auditor’s report, refused to give a copy of said
report to me, refused to include said report in their
package to secure probable cause before the
grievance committee and failed to inform the
clients of their findings, that is, the costs and
expenses were incurred and paid for.

199a
It is error and malicious for these eight clients to
take me to the Florida Bar to be investigated
believing that the Bar will make me give them
more money (extort money from me) contrary to
their agreement, understanding and knowledge of
the disbursement.
It is error for the Florida Bar to allow Mr. Wald to
use it as its instrumentality in the hope of getting a
disciplinary action against me which would give
him. an upper edge on any case he may bring
against me on behalf of the clients for his own
financial gain.
The contract between the clients and I states, that I
may incur any costs necessary to properly handle
the case. In this non-conventional case, costs borne
by the clients were define by the clients and the
lawyer. Clients did not pay one dime except that 7
of the 8 clients paid $100.00 toward the translators'
fee because I ran out of money in the fourth case
and the translator would not go to court to
translate if I did not make a small deposit towards
her fees. The clients were not spending any money,
the possibility of winning was dim, they all agreed
to all of the costs outlined on the settlement
statement. They had nothing to loose except me.
During the deposition of three of the 8 clients, they
testified that I usually meet with all 8 of them
weekly, biweekly or monthly. It depends on the
need of the case. I also write them and call them
whenever I need them. I always communicate with

200a
them in creole (sic). They never had a problem
understanding me since we speak the same native
language. I also meet with them after each trial to
discuss the costs and expenses.
THE EFFECT ON MY LIFE
Mr. Wald’s action of informing the clients that my
costs and expenses were not real and the Florida
Bar’s relentless pursue of taking away my privilege
to practice law to support my family and I have
affected my mental and emotional well being and
have had a negative impact on my financial status.
These clients believe and have informed my
potential/prospective clients that I stole their
money. This has affected my business for the past
28 months.
I found myself taking Xanax, an anti-depressant,
sleeping and anxiety medication. I started at .05
and had gone
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 123 of 300
up to 2 milligram. With the help of my Haitian
mother, about 9 months ago, I started to eat several
pieces of raw garlic and aloe daily to alleviate my
nerves my fast and irregular heartbeat and
sleeplessness due to the stress. For the past couple
of weeks, I have been getting 1 to 2 hours of sleep.
Some days I am depress and other days I am angry.

201a
This has also affected those people who are most
important to me, my two minor children and my
mother. I have fought a long and hard fight. Now it
is time to retreat if I am to keep my sanity and
keep my home and those who are dear to me safe.
THE FLORIDA BAR’S UNBRIDLED POWER
Mr. Wald, Mr. Ganguzza and the Florida Bar see it
fit to eliminate me from the practice of law since
they have unbridled power. To accept any sort of
compromise for one second from the Bar would be
to validate their gross abuse of power and to in
effect legitimize the mockery they have made of the
investigative system and the Florida Bar's motto
“Advancing
the
Competence
and
Public
Responsibility of Lawyers.” Worse of all it would be
to admit that I have taken advantage of my clients
by stealing from them.
At the outset of this case, I complained to the
Florida Bar about Mr. Ganguzza’s partiality and
bias not towards the complainant but toward Mr.
Wald and his agenda. I further informed them that
Mr. Wald’s action speaks volume in that he is a
silent yet active member of the grievance
committee whose objective is to destroy me. My
plea fell on deaf ears.
The law is designed to protect the least powerful, to
operate evenhandedly without regards to stature,
connections or money. This is not the case. The

202a
Florida Bar launched an almost 28 months
investigation, which is ongoing, of my costs and
expenses which was clarified by its auditor. The
Bar’s unreasonable request that I produce original
receipts and canceled checks for in-house copies,
faxes and postage when they know and
acknowledge that it is not possible to provide these
items except time logs. I have spent thousands of
dollars in costs and attorney’s fees and several
hundreds of hours fighting the Florida Bar for the
past 28 months.
RELINQUISHMENT OF MY LICENSE TO
PRACTICE LAW
To allow the Bar to continue to persecute me,
disturb my peace, the lives of my beloved children
and mother for the sake of my license for one more
day is unacceptable. Furthermore, I am tired. The Florida Bar may have my license to practice
law in this state. By relinquishing this privilege, I
have reclaim my peace of mind.
It is only fitting that I relinquish my right to
practice law with one of my favorite prayers since
justice refuses to accommodate me,
Lord, look toward me and have pity on me
For I am alone and afflicted
Relieve the troubles of my heart
And take me out of my distress

203a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 124 of 300
Put an end to my affliction and my suffering
Behold, my enemies are many
And they hate me violently
Preserve my life and rescue me
For I take refuge in you
Lord my God.
DEPOSITION TESTIMONY
Mr. Ganguzza
When I asked Mr. Ganguzza, does the Bar have
any rule or regulation in a situation where a lawyer
raise concerns about an investigating member
being bias and partial? He answered, “No. This
issue has not been in the grievance committee
consideration or deliberations or by the Bar.” Pages
7 lines 15 - 25. The deposition will reflect that Mr.
Ganguzza never spoke to any of the complainants
except to Mr. Wald. A copy of Mr. Ruga’s report was
not included in the package to the grievance
committee when these reports deal directly with
the issues of costs in this case the only issues
pending. I had to demand that a copy be included
in the package to the grievance committee. The
Florida Bar has refused to accept the report of its
own auditor, A certified Public Accountant who has
been working for the Bar for over 16 years and has
conducted 400 to 500 audits for the Bar. Page 5 line

204a
4-25, page 6 lines 1-25, page 12 lines 1-25. Mr.
Ruga’s Deposition.
Request by eisht clients to have simultaneous
deposition
When I subpoena three of the 8 clients for
deposition, they refuse to attend the deposition
when they arrive at my office, claiming that the
only way they would give me their deposition is if
all 8 of them were present and they would give me
the deposition simultaneously. Of course, Mr.
Brombacher felt that this request was reasonable.
See Statement on the Record page 3 linel4 to 19.
Mr. Wald
Mr. Wald has never participated in a federal trial
much less a racial, federal discrimination trial.
Deposition of Wald. Page 7, lines 1-25 and page 8
line 1 -9.
Page 11, line 17 to 25 and page 12 line 1 -25. Mr.
Wald told the 8 clients that they are my victim and
he will get them money from the state
compensation fund to help them. However, Mr.
Wald does not remember whether the clients signed
a contract with him or not. Mr. Wald prepared the
letter which Baptist took to the Florida Bar from
information provided by Baptist only. Page 14 lines
19 -25, page 15 1-25, page 16 lines 1-25. Mr. Wald
also informed these clients that my costs were not

i

205a
credible, real or legitimate. As a matter of fact, they
were highly suspicious. Page 23, line 1-25, page 24,
lines 1-25. Page 28, line 19-20. Mr. Wald admit his
opinion as to the legitimacy of my costs are
irrelevant since he is not an expert witness. Page
30 lines 16-25, Page 31-32. It is clear that Mr. Wald
trashed me to these 8 clients regardless of the
consequences to my life and law practice without
knowing anything about the cases.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 125 of 300
Mr. Wald has a vague recollection of receiving Mr.
Ganguzza’s report and did not receive a copy of Mr.
Ruga’ report. He did not bother to call the clients
and tell them of the result of this report. Page 25,
line 22-25, page 26-28, page 36 lines 18-25.
Page 19, lines 12-25, page20, line 1-21. I am the
only attorney he remember making such a request

from.
Marie Darcelin
Page 7, lines 7-9, page 23, line 10-14 they never
met me alone. I always call meetings for all of
them.
Page 9 lines 13-14 we speak the same
language I always speak to them in creole (sic).
Page 19 & 20 lines 1-25 they were told of the
$300,000.00 settlement and I further told them my
fee would be 33% of the settlement and they each

206a
expected to receive the at least $20,000.00. the
settlement statement was also presented to them
when they cane to sign the agreement.
The
$10,000.00 was also in the statement. Even if the
took the $10,000.00 they would still come after me
for money because there was more money missing.
Page 22 line 7-11 I would only give them
$10,000.00 I would not give them $10,000.00 more.
I never advance any other offers of settlement by
Sheraton besides the $300,000.00 offer. Page 23,
line 18-22.
I explained all my costs to her. Page 23 line 23-25,
page 24, line 1-4. Page 26 line lien 6-7, she
expected to receive $50,000,00,
All of them came to my office to pick up the check
supposedly at 5:00 p.m. on July 19, 1999 and they
all left at 5:30 p.m. Page 30 line 22-25, page 31 line
1-3. Page 32 line 2-20 I always set appointment for
all 8 clients together.
Page 33 line 3-25, page 34, 35 and 36, I informed
them of my expenses after each trial. I always
communicated with them. I listed all of my cost to
them and went over it with them after every trial,
the attorney, Troy Harris was to be paid out of the
funds received from the case not from my funds.
Page 37 line 20-25, I told them that I would work
for them for 30%. Page 38 line 2-25, Mrs. Darcelin

i

207a
feel she is entitled to $50,000.00. when they agree
to the $300,000.00 settlement, to accept the
$10,000.00 disbursement they never had any
intention of accepting the $10,000.00 disbursement
and they would still go to the Bar.
Page 41 lines 2-24 their problem is that they do not
believe that my expenses are real. They are too
much. Not that I never communicated with them
about the expenses. But I did not tell them exactly
how much they would amount to.
Exanise Marcellus
Page 8 line 1-17 I conversed with them exclusively
in [creole]. I told them that I would take the
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 126 of 300
case however, I did not know whether we would
succeed in the case. We may then again we may
succeed.
Page 22 lines 2-17 all 8 clients waited outside my
office for 3 hours, I open the blinds, they hear us
conversing inside yet we did not open for them
finally they left.
Page 24 lines 1015 I kept them informed about
their case. I always spoke to them. Contact all 8 of
them by letter or phone call to come in. I met with

208a
them once a week, every two week or once a month
page 44 lines 17-25. Page 45 lines 10.
Page 32-36, she was never told of the costs except
cost totaling to about $600.00.
my cost did not
amount to $1,000.00. They were not aware of any
other costs.
She knows nothing about the
translators’ costs. It is my own business.
Page 46 lines 3-25, page 47-50 the letter prepared
by Mr. Wald which all eight clients signed which
launched the investigation by the Bar was not read
by Ms. Marcellus. She signed it because “if the
eight of us complain to the Bar” (page 47 line 21-22)
she would get more money. They gave her the
letter to sign and she signed it because she is
suppose to. She is not aware of the content of the
letter.
Page 51 line 2-25, page 52 lines 1-25. She did not
come to my office after she received my july 1, 1999
letter informing them of the disbursement. The
saw me for the first time at the deposition. The
Florida Bar and I will decide how much money she
is entitled to because she does not know how much
Whatever
money all of them are entitled to.
agreement that was made in my office as far as the
amount of disbursement is not important right
now. What is important is the total of money that
the Florida Bar said they should receive regardless
of the agreement.

209a
Page 57 line 22-23, page 58-59 even if we took the
$10,000.00 we would still pull you into court. We
are entitled to more then $10,000.00. by going to
the Bar they will get more money.
Fontane Baptiste
Page 8 lines 25, page 9 line 1-19 I told them I would
collect 33% of the settlement. Costs was to be
deducted from my 33%.
Page 15, line 1-8. Baptiste felt that those who lost
their case should not receive any money in spite of
the agreement.
Page 25 line 10-16 there were two settlement offer
$300,000.00 and $695,000.00. [ku]
Page 49 linesll-25, page 50-54 Mr.. Baptiste came
to my office on July 19 to pick up the check he and
all the other clients waited for 45 minutes with all
8 clients. They heard some child crying, I looked at
the window of my office and did not open the door
to them. They did not come back to pick up the
money. However they call me but my office who
has been in business for the past 9 years phone was
disconnected, a non-publish number.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 127 of 300
CONCLUSION

I

210a

After their deposition I realized the greed and
hatred fueled by Mr. Wald and the Florida Bar in
these 8 clients has a mind of its own. They will do
and say whatever it takes to collect more money. A
reading of the Deposition will reveal that each of
these clients told a different story. More disturbing
is the fact that their story is completely different
from the letter they signed and submitted to the
Bar on September 1999. The recurring theme of
their statement is that my costs and expenses are
false. Each story is embraced by the Bar and they
demand an explanation from me in a concrete and
tangible form.
I know that the public interest will be adversely
affected by the action of the Florida Bar. It has
affected the purity of the courts and hinder the
administration of justice and the confidence of the
public in the legal profession.
(Please forgive any grammatical errors. I did not
have the time nor the energy to have this letter
edited).
Respectfully submitted,
I declare under penalty of perjury under the
laws of the United States of America that the
foregoing is true and correct.
Executed on 10/30/01 in Miami, Dade County
Florida.
IS/
Anne G. Telasco, Esq.

211a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 129 of 300
EXHIBIT J2
October 30, 2001
Hand-delivery to

Judge Robert N. Scola, Jr.
175 N.W. 1st Avenue
Room 2025
Miami, Florida 33128

Re: The Florida Bar vs. Anne G. Telasco, Esq.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (UF)
Notice of Resignation, Letter of Immediate and
Permanent Resignation from the Florida Bar and
Notice of Filing Deposition was received this
10/30/01 (filled in by hand by Bailiff) by Jermaine
Jones.
/S/
Jermaine Jones, Bailiff

212a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 131 of 300
EXHIBIT K1
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138

IN THE SUPREME COURT OF FLORIDA
Supreme Court Case No.
The Florida Bar File
No.: 2002-70,480(MRS-11F)
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO
Respondent.

PETITION FOR DISCIPLINARY
RESIGNATION
Anne Georges Telasco, Respondent, Pursuant
to Rule 3-7.12 of the Rules of Discipline, petitions
this Court to accept his (sic) disciplinary
resignation and states as follows:
1.
Respondent is and at all times
hereinafter mentioned was a member of The

213a
Florida Bar subject to the jurisdiction of the
Supreme Court and the Rules of Professional
Conduct.
2.

Respondent is 39 years old and was
admitted to the Florida Bar on June 25, 1992.
3.

Respondent is acting freely and
voluntarily in tendering this Petition for
Disciplinary Resignation and is represented by and
has received the advice of counsel.
4. The following constitutes a statement of
Respondent’s past and
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 132 of 300
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
pending disciplinary record and criminal
proceedings in which Respondent has been a
defendant:
a.
The Florida Bar File Nos. 200070,271(11F), 2000-70,394(11F), 2000-70,395(11F),
2000-70,396(11F),
2000-70,397(11F),
200070,398(11F), 2000-70,399(11F), 2000-70,446(llF),
Supreme Court Case Number SC01-1198.
complaints of Marie M. Darcelin, Lucia Joseph,
Fontaine Baptiste, Venicia Soupart, Francoise Luc,

214a
Yolette Moval, Carline Jaboin, Exanise Marcellus
are pending at referee level and involves
allegations of failure to properly disburse funds
and allocated costs in your settlement with River
Orchids
Investment
Corp.
d/b/a
Sheraton
Riverhouse Hotel.
b.

Respondent has no prior discipline and
has not been a defendant in any criminal
proceeding.
5.
Based upon the above stated facts,
Respondent wishes to submit the instant Petition
for Disciplinary Resignation with leave to apply for
readmission to The Florida Bar after a period of
three (3) years from the effective date of said
resignation.
Respondent understands that this
Petition for Disciplinary Resignation will be
considered by the Board of Governors of the Florida
Bar who will determine whether to oppose or not
oppose this three (3) year disciplinary resignation
before the Supreme Court of Florida. Accordingly,
in the event the Board of Governors of the Florida
Bar determines to oppose this three (3) year
disciplinary resignation, Respondent agrees that
this Petition for Disciplinary Resignation shall be
for a period of five (5) years and that same shall be
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 133 of 300

215a
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
considered as such by both the Florida Bar and the
Florida Supreme Court,
Respondent further
understands that he (sic) must apply for
readmission through the “Board of Bar Examiners
pursuant to Rule 3-7.10(a) of the Rules of Discipline
regardless of the duration of his disciplinary
resignation.
6.
Respondent believes that the public
interest will not be adversely affected by the
granting of this petition and same will not
adversely affect the purity of the courts, nor hinder
the administration of justice, nor the confidence of
the public in the legal profession.
7.

Respondent agrees to reimburse The
Florida Bar for the following cost incurred in the
disciplinary cause referenced herein as follows:
Administrative Costs:
Rule 3-7.6(o)(l)(I)
Auditing Costs:
TOTAL
8.

$750.00

Respondent agrees to disburse to each
Marie M. Darcelin, Lucia Joseph, Fontaine
Baptiste, Venicia Soup art, Francoise Luc, Yolette
Moval, Carline Jaboin, Exanise Marcellus the sum
of Ten Thousand Dollars and No Cents ($10,000.00)

216a
as set forth in the Respondent’s “July 19,1999
settlement Statement,” attached hereto as Exhibit
“A” on or Before November 1, 2001.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 134 of 300
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
9.
Respondent also agreed to disburse to
each Marie M. Darcelin, Lucia Joseph, Fontaine
Baptiste, Venicia Soupart, Francoise Luc, Yolette
Moval, Carline Jaboin, Exanise Marcellus the sum
of Three Thousand Dollars and No Cents
($3,000.00) from Respondent’s proceeds as set forth
in Exhibit “A” on or before November 1, 2002 (sic)
so that the total amount Respondent is obligated to
disburse to each of the eight clients as set forth in
both paragraphs 8 & 9 of this Petition is Thirteen
Thousand Dollars and No Cents ($13,000.00).
10.
Respondent acknowledges and agreed
that this Petition for Resignation is not subject to
modification nor revocation.
11.
Respondent further agrees that her
affidavits dated
., attached hereto
as Exhibit “B” and Exhibit “C”, and all affirmations
and statements contained therein, shall be
considered part and parcel of Respondent’s Petition
for Disciplinary Resignation and further, that

• 217a
Respondent agrees to be bound by all affirmations
and statements contained within said affidavit.
Respectfully submitted,
(not signed)
Anne Georges Telasco, Respondent
7320 Biscayne Boulevard
Miami, Florida 33138
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 135 of 300
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the original of the
foregoing Petition for Disciplinary Resignation was
hand-delivered to Randolph M. Brombacher, Bar
Counsel, the Florida Bar, 444 Brickell Avenue,
Suite M-100, Miami, Florida 33131 this
day
of
, 2001
William Ullman
Attorney for Respondent

218a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 137 of 300
EXHIBIT K2
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138

IN THE SUPREME COURT OF FLORIDA
Supreme Court Case No.
The Florida Bar File
No.: 2002-70,480(MRS-11F)
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO
Respondent.
STATE OF FLORIDA
)
COUNTY OF MIAMI-DADE)
BEFORE ME, the undersigned authority,
personally appeared Anne Georges Telasco,
respondent, who first being duly sworn, says:
1. I am a member of the Florida Bar.
2. I make this affidavit freely and with full

219a
understanding of the consequences of doing so.
3. I have filed a Petition for Disciplinary
Resignation with the Supreme Court of Florida and
agree that this affidavit shall be attached to said
Petition for Disciplinary Resignation and
considered a part thereof.
4. I will accept no new clients from the date of
this affidavit and I will
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 138 of 300
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
cease representing any existing clients after sixty
(60) days of signing this affidavit.
5. I will advise all my clients, in writing, of my
resignation from The Florida Bar and will furnish
Bar counsel with The Florida Bar with the
requisite affidavit listing all clients so informed
within sixty (60) days after signing this affidavit. I
understand that I must still comply with Rule 35.1(g) of the Rules of Discipline upon entry of the
Supreme Court Order approving my resignation.
6. I will take steps to close all trust accounts
which I maintain within sixty (60) days of signing
this affidavit. I further agree to provide staff

220a
counsel of The Florida Bar written and verifiable
evidence of the closure of said account(s).
7. I further agree that if I engage in the
practice of law subsequent to sixty (60) days from
today, or do not comply with the terms of this
affidavit, that same may constitute contempt of the
Supreme Court of Florida, and I may be sanctioned
for such contempt by permanent disbarment.
(not signed)
Anne Georges Telasco, Respondent
Florida Bar No.____________
7320 Biscayne Boulevard
Miami, Florida 33138
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 139 of 300
FAX ID: OCT. 26, 2001 / 9:17AM / FLORIDA
BAR / NO. 1138
The foregoing instrument was acknowledged
before me this__day of February, 2001, By Anne
Georges Telasco, Respondent who is personally
known to me or who produced
., and who
did/did not take an oath.

Notary Public
State of Florida at Large

1

;

221a

t

1

CERTIFICATE OF SERVICE

l

I HEREBY CETIFY that the original of the
foregoing affidavit was hand-delivered to Randolph
M. Brombacher, Bar Counsel, The Florida Bar, 444
Brickell Avenue, Suite M-100, Miami, Florida
33131 this
day of October, 2001.

4

:
j

i

!|

(not signed)
Anne Georges Telasco, Respondent
7320 Biscayne Boulevard
Miami, Florida 33138

i

i

►

*

1

v
V
j

!

i

r

\

;

i

r.

222a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 141 of 300
EXHIBIT LI
November 6, 2001
The Florida Supreme Court
c/o Judge Robert N. Scola, Jr.
175 N.W. 1st Avenue, Room 2025
Miami, Florida 33128
Hand Delivery
Re: The Florida Bar vs. Anne G. Telasco, Esq.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
Notice of Filing Settlement Funds and letter with
all pertinent attachents, and Notice of Filing was
received this 6th day of November, 2001 by
Jermaine Jones.
/S/
Jermaine Jones, Bailiff

223a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 143 of 300
EXHIBIT L2
Law Offices of Telasco & Associates, P.A.
7320 Biscayne Blvd.
Miami, Florida 33138
November 6, 2001
The Florida Supreme Court
c/o Judge Robert N. Scola, Jr.
175 N.W, 1st Avenue, Room 2025
Miami, Florida 33128
Hand Delivery
Re: The Florida Bar vs. Anne G. Telasco, Esq.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
Dear Judge Scola:
Enclosed you will find Cashier Check number
634428674 in the amount of $49,147.70, made
payable to The Florida Supreme Court. This check
reflects the disbursement due to the complainant
pursuant to the Settlement Statement dated July

224a
1999, and reimbursement of $100.00 paid by seven
of the eight complainants, to exclude Mr. Baptiste,
toward translator’s expenses.
A copy of the
Settlement Statement is attached as Exhibit “A.”
On July 1, 1999 a letter was sent to the
complainants to pick up their checks followed by
several calls from me. The complainant did not
pick up their check but instead, with the help of
Mr. Wald, initiated their complaint with the Bar.
Letter attached as Exhibit “B.”
On October 26, 1999 I placed the Bar, Mr.
Wald, Mr. Ganguzza and the complainants on
notice that I will withdraw the credit I gave them
in the event the Bar’s investigation continues. This
is evidenced by page 4 of the attached Settlement
Statement dated July 19, 1999 which was mailed
and received by all concern (sic). This
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 144 of 300
Settlement Statement states in part “Telasco &
Associates, P.A. Reserves the Right to Withdraw
the Credit of $31,552.30 it gave to the Plaintiffs in
the event more time and effort is spent to clarify
this nonsense.”
I have invoked Telasco &
Associates, P.A. right to withdraw the credit.
On December 28, 1999 pursuant to the Bar and
Mr. Wald’s request, I forwarded a letter to Mr.

225a
Wald, the Bar and Mr. Ganguzza explaining this
credit
which Mr. Wald referred to as a
“Mysterious Credit.” This letter was mailed and
received by all concern. Letter attached as Exhibit
“C.”

Please note: Exhibit A and B were used as
exhibits by the Bar during these proceedings. All of
the above exhibits are part of the court file.
Respectfully submitted,
/S/
Anne G. Telasco, Esq.
cc: Randolph M. Brombacher, Esq.
Assistant Staff Counsel
The Florida Bar
Rivergate Plaza, Suite M-100
444 Brickell Avenue
Miami, Florida 33131-2404

/

226a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 146 of 300
EXHIBIT L3
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
Supreme Court Case No.: SC01-1198
THE FLORIDA BAR, IN THE SUPREME
COURT OF FLORIDA
(Before a Referee)
Supreme Court Case
No. SC01-1198
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO
Respondent.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
NOTICE OF FILING SETTLEMENT FUNDS

227a
Respondent, ANNE GEORGES TELASCO,
hereby file a Cashier Check in the amount of
$49,147.70, made payable to the Supreme Court of
Florida. This check reflects the disbursement due
to the complainant pursuant to the Settlement
Statement dated July 1999 and reimbursement of
$700.00 paid by seven of the eight complainant, to
excluded (sic) Mr. Baptiste, toward translator’s
expenses. The letter dated November 6, 2001
addressed to Judge Scola and its attachments
which is filed simultaneously with this Notice is
incorporated and made a part of this Notice.
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was faxed to: Randolph M.
Brombacher, Attorney for the Florida Bar, 444
Brickell Avenue, Suite M-100, Miami, Florida
33131 this 6th day of November, 2001.
/S/
Anne G. Telasco, Esq.
7320 Biscayne Blvd.
Miami, Florida 33138
FBN: 939420

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 149 of 300

228a
EXHIBIT L4
OFFICIAL CHECK
Washington Mutual Bank, FA
Check No.: 634428674
Match the amount in words with the amount in
numbers
WASHINGTON
MUTUAL
$49,147.70
^cieick

Nov. 6, 2001 49 THOUSAND 147 DOLLARS
AND 70 CENTS •irkirk
PAY
TO

THE
THE FLORIDA SUPREME COURT
ORDER
OF
DRAWER: WASHINGTON MUTUAL BANK, FA
/S/
AUTHORIZED SIGNATURE
REMITTER TELASCO & ASSOCIATES, P.A.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 151 of 300

229a
EXHIBIT L5
The Florida Bar
Rivergate Plaza, Suite M-100
444 Brickell Avenue
Miami, Florida 33131-2404
April 24, 2002
Mr. Jonathan D. Wald, Esq.
100 S.E. 2nd Street Suite 3900
Miami, Florida 33131
Re: The Florida Bar vs. Anne G. Telasco, Esq.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
Supreme Court Case No.: SC01-1198
Dear Mr. Wald:
I am pleased to inform you that I have
arranged the deposit of $49,147.70 to “The Clerk of
the County and Circuit Court, Eleventh Circuit” for
the above referenced matter.

230a
The funds were deposited on April 24, 2002 in
Administrative
File,
Reference
Number
02000011CA01. (See enclosure).
Parenthetically I should state that there is
always a possibility that there is an issue as to the
source of these funds. However one can directly
infer from the enclosed order that Ms. Telasco
remitted these funds to the court which were due
and owing to your clients as a result of her
representation against Sheraton. I would think
you would need to document the fact that these
funds are not subject to any other claim before the
Court can disburse, otherwise I do not think there
will be any other issue pursuing these funds on
behalf of your clients.
Sincerely,

/SI
RANDOLPH M. BROMBACHER
Bar Counsel
Enclosures
cc: Marie Darcelin, Lucia Joseph, Fontane
Baptiste, Venicia Soupart, Francoise Luc
Yolette Moval, Carline Jarboin,
Exanise Marcellus

231a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 153 of 300
EXHIBIT L6
The Florida Bar
Inquiry/Complaint Form
Please carefully review this inquiry/complaint form
after you have included all information according to
the instructions found on the other side of this
form. Note that there is a requirement for you to
execute the oath at the end of this form. False
statements made in bad faith or with malice may
subject you to civil or criminal liability. Your are
required to certify that you have read the pamphlet
“Complaint Against A Florida Lawyer” before
submitting this form.
PART ONE:
Venicia Soupart
301 NW 150 Street
Miami, FL
Phone: 305-688-0764
Social Security #000-00-4285

Anne G. Telasco
7320 Biscayne Blvd.
Miami, FL 33138
Phone: 305-754-4466

Have you contacted the Florida Bar
ACAP program before filing this
Complaint? Y Yes___ No

232a
PART TWO: Can any person testify about what
was said and done, not done, or agreed upon by you
and the attorney? Y Yes
No
PART THREE: I have read and, to the best of my
ability, followed the instructions on the back of this
form.
(A) The specific thing or things I am complaining
about are: Attorney Anne Telasco Hold our
settlement money.

(B) In support of those things listed above, the
FACTS of my complaint are:_____

PART FOUR: Under penalty of perjury I declare
the foregoing facts are true, correct and complete. I
further certify that I have read and understand the
information contained in the pamphlet “Complaint
Against a Florida Lawyer.” I also understand that
the filing of a Bar complaint will not toll or suspend
any applicable statute of limitations pertaining to
my legal matter.
/S/
Venicia Soupart
3/18/02
Document Stamped Date: Received on March
22, 2002 by The Florida Bar - Miami

233a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 155 of 300
EXHIBIT Ml
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
Supreme Court Case No.: SC01-1198
THE FLORIDA BAR,
Complainant,

The Florida Bar File
Nos.
2000-70,271(11F)
2000-70,394(11F)
2000-70,395(11F)
2000-70,396(11F)
v.
2000-70,397(11F)
2000-70,398(11F)
ANNE GEORGES TELASCO, 2000-70,399(11F)
Respondent.
2000-70,446(11F)
-

Referee Robert N. Scola Jr.
MOTION TO WITHDRAW

At the request Anne Georges Telasco, Bill
Ullman moves to withdraw as counsel for Anne
Georges Telasco.
/S/
Anne Georges Telasco 11/07/01

234a
CERTIFICATE OF SERVICE
I certify that this document was faxed and
mailed on November 8, 2001 to: Randolph M.
Brombacher, Attorney for the Florida Bar, 444
Brickell Avenue, Suite M-100, Miami, Florida
33131,.
/ S/
Bill Ullman
Attorney for Anne Georges Telasco
5120 First Union Financial Center
200 South Biscayne Boulevard
Miami, Florida 33131
PH: (305)358-0284
FAX: (305) 374-3756
E-mail: billullman@yahoo.com

235a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 157 of 300
EXHIBIT M2
Clerk of Courts
11th Judicial Circuit of Florida
Miami-Dade County
Civil/Family/Probate Justice System Docket
Information
FLORIDA BAR (THE) vs. PETITION FOR
INVENTORY ATTORNEY
Case Number (LOCAL): 2002-11-CA-01
Filing Date: 1/2/2002
Case Number (STATE): 13-2002-CA-000011-0000-01
Dockets Retrieved: 32
Judicial Section: 60
Date

Docket Entry

01/09/04

NOTICE: OF FILING RECEIPTS

11/19/03

ISSUED COURT
REGISTRY CHECK

11/19/03

LETTER OF
GOLDFARB, GOLD,
CORRESPONDENCE AUTH KAREN HOOTS,
P/UCHK 051417
FLDRLID

Comments

$49,147.70 #51417
GOLDFARB, GOLD
GONZALEZ, &
WALD, P.A. TRUST
ACCOUNT

I

236a
11/19/03

TEXT

HANDED CK #51417
TO KAREN HOOTS

10/06/03

TEXT

ORDER GRANTING
PET TO DISBURSE
FUNDS
(ANNE TELASCO)

09/17/03

TEXT

NOTICE OF HEARING
BEFORE WRONG
JUDGE (TELASCO)

09/17/03

TEXT

ORDER ON FINAL
REPORT OF
INVENTORY ATTY
(CARLOS MENDEZ)

08/21/03

NOTICE OF
HEARING APPT.

09/09/2003: 10:00AM

08/15/03

NOTICE OF
HEARING APPT.

08/22/2003: 10:00AM

05/21/03

TEXT

NOTICE OF HEARING
6-10-2003 AT 9:00AM
(ANNE TELASCO)

05/21/03

TEXT

RENEWED PETITION
TO DISBURSE FUNDS

05/05/03

TEXT

FINAL REPORT OF
INVENTORY
& REQUEST
(CARLOS MENDEZ)

04/29/03

TEXT

AGREED ORDER TO
RETURN
FILES TO CLERK ETC

237a
(FOULKES)
4/23/03

NOTICE OF
HEARING

MOTIONS
05/06/2003: 09M00A

4/23/03

TEXT

PETITION TO
DISBURSE FUNDS
(ANNE GEORGES TELASCO)

4/14/03

TEXT

REPORT OF
INVENTORY
ATTY LEWIS B
FREEMAN
FOR (FOULKS)

11/18/02

TEXT

INTERIM REPORT OF
INVENTORY
ATTORNEY (CARLOS
MENDEZ)

10/21/02

ENTRED OR
DUPLICATED
IN ERROR

LCOR

10/18/02

TEXT

ORDER APPOINTING
INVENTORY
ATTORNEY

10/16/02

TEXT

ORDER
TRANSFERRING
CUSTODY OF
RESPONDENTS
FILES ETC.

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 158 of 300

238a

10/16/02

TEXT

PETITION FOR ORDER
TRANSFERING
CUSTODY OF ETC

10/01/02

TEXT

ORDER APPOINTING
INVENTORY
ATTORNEY

10/01/02

TEXT

PETITION FOR APPT
OF INVENTORY ATTNY
(MICHAEL A FOULKES)

09/30/02

TEXT

PETITION FOR
APPOINTMENT ON
INVENTORY
(CARLOS MENDEZ)

9/25/02

ORDER

DIRECTING CLERK OF
COURT TO TAKE
CUSTODY OF
RESP FILES

4/24/02

COURT REGISTRY

$49,147.70 #1487
DEPOSIT TELASCO &
ASSOC.

4/24/02

TEXT

ORDER APPOINTING
INVENTORY
ATTORNEY
(ROBERT N. SCOLA JR)

2/24/02

ENTERED OR
DUPLICATED
IN ERROR

01/02/02

CIVIL COVER

TEXT

239a
01/02/02

COMPLAINT

01/02/02

FINAL JUDGMENT J $ 0.00 BK:00001
PG:0001 DN01

01/02/02

ORDER OF
TRANSFER
(REASSIGNMENT)
SECTION

60 FM:09 00160

VIEWED THE WEEK OF NOVEMBER 20, 2008

J

240a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 160 of 300
EXHIBIT M3
THE BASTARDIZED COPY OF TELASCO’S
RESIGNATION THE FLORIDA BAR FILED
WITH THE FLORIDA SUPREME COURT.

241a

IN THE SUPREME COURT OK FLORIDA
(Bdeat a Referee)
THE FLORIDA BAR,
Congrlajoi,
Vi

ANKB GEORGES THASCO,
Responder*.

UEf ?£ 250*

3°*

The Florida Bar Hie Net
MOO-M. 271 (I IF), 2000-70.304 ()|F)
2000-70,395 (I IF). 2000-70. 396(IIF)
2000-70,397 (HF). 2000-70.398(1 IF)
2000-70,399(1 IF). 2000-70,445(111)
SUPREME COURT CASE
No.:SC0I-ll9S

OF IMMEDIATE AND PKRMANEMT RESICNATtnx
FROM THE FLORIDA BAR
I ttt ike ahtdowtfjustice and led It* dotraetive blew? to ety dfaenctenimtot.
ByA/vitGe<r$a Ttlatro, Ktq
To fedge Seola ntd (he taaices ofthe Florida Supreme Cotm
I hive bean liwyw fa private practice since Jtnnny 1993, wh 9 jm AtiHriubed
BBayotl money. 1 hew aeved tO types of efienii. Wab ay tlaftlri elimu, I haw ihwji ben
its to eooajttJeiie with them ki node, oar natrvt Inprtge. I hive been to trials and hive
tailed cttca for eftm*. I hive dcSnned tt km 12,500.001].00 io (forts over the you I km
never had any probtans <m& any oTny eBeta, most apeetfially my Haitian tBeau bccasst 1
u9c4 to ccnnamfewe «th them
I bm filed ntnswwttd affirmative defaso fa rtspems to itenoritb Bar's Cfanphnt fa till
oatter. The aasvw is eon^trebayivc. I am rMpettfeHy reqoesiig tin Iht coon carefully read
•he tamer and review its attachment to set the treatment the Bar afforded rw for over 28
ooalbs.
TheBcB»tn%£ted me for over 2H months. Dari® this 2* moaUa. lie Bn never spoke to (he
swopJamtsu hand, they qx*e to an attorney by the esme ortetlhan D Wild. Mr. Wald
» an money who w approadied by the 8 cenphhtnis back in 1993 to basdle the radii
drserinmitfon cate which 1 Accepted tad h the abject ofthe Bat'* investigation. Mr. WaMdid
not accept the csh beaus* be fet! i tm too mack uonble. I tool tbs ease tod »wAed on this
ease for over 5 yun Fcrurofttie eight nmnwtto4cempteefcdtrtJjiuyirijh Radmil
emuHnedofover 25 witnesses Each aria! bned 4 to J tlay. Thejary returned 2 gnfty
•• Wtdiai tad 2 not guiy wrfia for defendant. On of the guilty verdirt thejury miM mo
dotor tscwnpcnaimy damage tad (be icccetd the joy cwtrded $50,000.00 praririve ditage tad
*-----TVeneanf
Eihlbh “Mr

242a

emm

ai

SSh!?^6

** H required from ,D often to w.

1

twpo7,tiw ^ «»^S5».ooo.oo

f,ndbdbr'lheI*peedIBpay notlessthenXlO^OOaOOio
£f2f,&1t,he ttftteral *«*«»*«« «U-*»lB8«JS?
°^,JVM
■*«»!»*• H* town oftCgLwt,a
trautaor rad e*4 page of lie tmtaea agrettwo to the diems and Wfctel Stl ke
telSUttf

QW orrTlas^«''

*»*et i «t able to locate
affidavit wffl be forwarded to die

Alin the stnkoeat

iiM@S
Afterthe Defendant paid the fuO 000,000.00 on July 1999, |«m. later to (he S ctkcu to
eratetoptefc 19 *10,000.00. I also celled tbem Instead, I recover! 1 eel) from Mr. Wild who
n* that he had been retained by Mr. Baptise and he is requesting (hit 1 send him

^p^rs^SRS=3=tS
to to point, Mr. Wald renewed my settlement tutemeei and advised Mr. Baptise that rmr cost
we not reaUte. we aspect, the cretft ««eh 1 give in order to distent $10,000.00 to
UwDMSnyscnout He proceeded tn write 1 tele? for Mr. Baptise to take 10 the Honda Bar
At tins poet, the Florida Bar began ihetr fevesigttiona. Dcring thereat 3 rwwhs, Mr Baptist
ounageto ga the other 7 cGani to sgo Mr. Wald's later. TheHoride Bar launched Iheir
tnvea^woo of my represmtatmt ofthe eta*. AD donmats reqttesed by tke Bar was
jmtdod to thenv The Florida Bit kepi Mr. Wald tbreitt of the result of their mvtsigauoa
\Vhothe Bat amd a copy of my later responding to the contest, Mt. Wald wrote his Iota to
the nortdi Bar using ht law finn’s tetet head. In this taw, Mr. Wald reamed whit he had
..toMBaptsn, -Wor.^r^rtoo, ntmyqfUt. Tdotco't daimrd con ore rimvfy ,«
erttUbk. 1 tow highlighted there perffaekr Urns y> Mi Tilnto ‘i itnlcmtrt jutmere *bkh
***#tn*«WA

AwfL

243a

3

tffiewnl I
apprtdetc Ufom mu Id eMaa me upon jom ncdpt cf (Air lata to la
f*
^ B” mafroat* •*/!»/"&* dlmm au meetT. * Wakin , ftw dan of
Mi.WiUiXeqves, tfce B*r referred the cast to the Grfwtnw CorremtiM >«i Mi. Genenzi
“ mvesigniw neitfctr. The Dtr demsoded tie I provide original receipts, caroled
rii krvorew rdteobg 119 tjpeaditww b die ct« th« ] 99J »ihtl a nay vtrify niy
eou tad thanes. Mr. Gsi^am snggescd that to pot et aid to my problem I should goto
Mr. Wild to hive him disbro the tmlmmt finis.
Mi. WsM tod the Dar’s talon Aided the dens befiefthat my costs were nos-eswal usd
therefure. they went io be rtfafrnrted. Mr. Weld eves idvistdO* dents slut ke wmli
reprtRBt them by gobg to t Find to eel oocey fw then care (hey «rc my vieumi tod I hive
uto ctdr money.
I met with Mr, tote Rug*, the Dir*! eoditot oa April 17,2000, Miy 31,2000 mi ipm on firfv
i, 2000. My three (3) s^arre mcetfap wish Mr, Rags hsed cm five (3) hour* Ante time l’
ptrvided «fl of the dooumems revested by Ac Florid* B*r in eonfco the exposes bturrod b
the cases of the ebove-oamed oonsphotmi Among il*doeun)ents«t!idilprovidedioMr
Rop were Original canceled checks, WJ red 1099 forms for all Eepl stafTVho
hired
etthihtfy to woA on the dabnams cues, origin) canceled decks, receipti end kareod
downwEi rtfleaing usage ted payments for &«*. copies (to include i copy ef Defoliant’*
nwira for eon tad apestsesrefteabgthesfcnDjrttyofrayeoa* verses Defendant's), postage '
™«®rtw feet, Weelew end I arts charges for Mtkenide federal deetrestie research beoned
netefiag caroled dads end copiesofbPb, Mr.RagsgematedtreporttitrosBiofhii
OveaigitiaB. Oro this report atvronptaed.iMBtr refined to give rat copy of the report h
hgfctofmy avert! demands. The Bar fbifiy give me i copy ofthe report tfta I mtdc* third
fcronented dottsd for < wpyofthe report. A copy ofMi. Rep's nyortnot ghw in the

____ ^tteing the «td ofAngus; 6.2000, Mi. Rug* colled me to Worm me dsn be had
FrlHfrted Ms report to the Grievance tonmittee ft tbetr roeetfc.g. I was mr given notice ofthis
tnedhj. At thb meeting, the Committee vabtDy proposed through Mr. Ruga that 1 pty
n.000.00 to each ehiaant is * reiabursauau ofthe cost* (wee the Comitate* his not satisfy
uith die coci doeinootlitioo) provide far Ledt end Westlrw b light of my expImtiM) ud to
I Idler tdiiullnfl tO CEIQT QSCQDdcd.
_
Jn response I bfonjed Mr. Rngi (hit 1 wjdd efiurt to the monetary rctaburjemen, eot
"beans I before these espaues were improper bm rather beta use 1 wanted this mattet
CMcWed. Uoarevcr, ] refused to acknowledge dm) cosaalned any mssceodect. whako or m»

244a

«to toe propose*! soihaat offer. I nfbrmcd him tbit 1 would not write tuck a letter, Frmha,
10 a^pon my rmwilEngaess io accept sach improper Mum, I mfotmed him 0* I had received i
fetter firm Jonathan D. Wild, Esq, dated Aepifl M, 1000 ofonnhg me tin f wooM he toed for
nttipnaiae by It feist four (4) of Ibe eight (8) complainants, as the ether four (<} hid aot unde
up their mhdl
ITISCLBARTHAT,
la Afe aoa-caavcnttanil as, it is an errm &r Mr. Wald, Mr. Ganguni u>d the Florida Ou to
intervene to define costs sOo the eBeuis agree to pay costs they rare mare eC
h is error for Mr. WiM, Mr. treegnaa end the Fioridi Dar to eonqiletely disregard written and
executed contract aod tgteemest tharou^tly espbtoed tad understood by cStsta when trtasbtor
erecuted and bath I each page of nid contract.
h is enor lor Mr. Wald, Mr, Cauguas ted the Florida Bar to refuse to accept the Bar's auditor's
report, refined to give • copy of pid report to me, icfuscd to adttdc pU report m toes package
to tecum probable erase before (hs grievance committee end failed to hfornt the dents of (heir
findfcga, that h, the costs tad upturn were incurred tod paid for.
h is error and malreaots lot these d^d chats to ate ms to (he Barto be investigated bdjevisg
■hat the Bw wffl make me give them more money (extort matey from toe) contrary tothdr
aptanem, traderettndmg and knowledge of the disbursement.
hkenwfor the Bar to etlowMr. Wald to ue k asks kflnzmeataicy h the hope ofgeChg a
dijdplniry actios agamt me which would give him to upper edge on toy ease he may bring
agsori me on behalf of(he clients.
The contract between the dienti and I sates, tbit I may ben anyeoas necessary to property
kaodle the ease, to this eon-awvratiosil case, costa borne by the cficcts were driiac by It:
dial (nd the lawyer. Chats did act pay ate dime crept that 7 ofthe 8 cfcstspald $100,00
toward ibe translator feebreausc 1 m out of money n Ibe fourth ease aod Ore translator would
eot go to eourt to trtntdate if I did not male a small deposit towards her fees. The efials were
sol spading any money, (he possibility ofwaning wu dim, they all agreed to aD of die cost
omloed on my seakmeot statement. They had nothing to loose except toe.
THE EFFECT ON tfY LIFE
Mr. Wald's ledoa of informing the cBests that my costs asd eqwiscs were not real cud toe
Horidl Bars rdtodea pursue of taking away my privilege to pneaiee law to nrpport my family
* ' tod I have affected my maul and emotional well being and have bid a negative impact oo my
botill Stum These cEems beBevo aod have bfortned my proapeerive clients that 1 stole then

245a

op to 2 nnffijMi Webihebc^>ofnyHaiiteim«hB.tbon9moiSbugo, t Anted is at
«Mnl pixel of nw gnCc and allow to italce my novo, my fist md tacpiln bant** rrd
SfepteCTen dne lo the Orta For firepan eonple ofweeks, 1 have been gating I io2hounof
deep. Some dip 1 am depress md other days 1 its aepy.
TMskMiboiflcdtd than people who are art inqKrrunt t« me, my im senn drfidra nd ray
•writer. I hive fbaght i long trad herd fight. Now it it time to retreat if J tra to keep ray ttuthy
esd keep my home end those who ire dev to me wfe.
THE FLORIDA BAR'S UNBRIDLED POWER
Mi, Wild, Mr. Cantona and the Bar ice h fit to cfaiarle ms fiom the prtOioe ofbw three they
hevttnhMled power, To iceept any sort ofeoraprotrase for nee teermd or five yara from the
BarwooM be lovtSdate&cir grots abate ofpower esd to’fa effect legsrnaie the ntodaiy they
knt mads of the foesf iptive lyHcm end their motto “Advaedag the Conpet ace nd Public
TospaDdbDiy of Uwjtnt” Worse ofill h would be to tdttdt tbit I hive likes advantage of my
{Beets by tteating fiom them.
At the outlet cflMseue, J eompbtoed to (he Btr about Mr. Oeogten't panbEty todlnneot
towsdi the complainant bot tovretd Mr, Wald esd hit agenda. ! further Wanned them (bar Mr.
WWt action (peaks volume Li that he is a tOeat yet active member ofthe grievance eommitec
whoa objearvt wit to desroy me. My pica fcO on deef erne
The law is deega (o protect the kaa powerfh!, to operate evenhandedly without regtrdt to
taiBrr, eormoaknjs or mooey. This beottbe case. The Bar bunched in atmost 2S months
fcvctdgitioa. which h ongoing, of my coni tad eepentet rthicb was deriSed by its auditor.
The Btr'r uueasoutbie reqnes that I produce orignal receipts and canceled checks for b-bemre
topics, faxes ted pottage whcc they know and acknowledge (hat it it eta possible to provide
these keen except time logs 1 have spent Ihotmadt ofdoDart fa emit end attorney's feet I
have spat several bssdredt ofbean fighting the Dtr for the pan 28 nionrht
RELINQUISHMENT OF MY LICENSE TO PRACTICE U W
To allow the Bar to contest to peraense me, dintub ray pace, the fives of my beloved children
ted raotha fitr the tekeofmylkense for one mere day btojccopnble. Flmhamore.laatired.
- The Ffeiidi Bar may have my Gcer.se to puaice hw in (hit dale. By rcfiaqiiishing this
privilege, 1 have redeim my pace of mind.
It body fitting that Irefiaqaiti) my tight to practice law with one ofmy favorite prayers,
Lord, took toward tnc nd blve pity oa me

246a

Put 0 od to my iflBctlon and my jufTtring
Behold, my cceaitt tre bbs)’
They hate ex vtolemly
Prewvc my tit and rescue me
For i utere&jo in you
Lori my God
DEPOSITION TESTIMONY
Mr. Gantang
Whml **ri Mr. GnrgoM, does the Bar Save toy rule 01 rejutatloiioe fituttfoa where •
lawyer raised cancans aboct n nvesigstag member benj btu tod partial? Jle answered, ‘So.
His issue bo not been in At pievtnee eorcaiftet earideniioa or deSberatieai or by At Bo,0
P*gs 7 Ikes 13 - 25. The depossios win reflect that Mr. fiingugt never rpabe ra any of the
eoaylouatt creep! 10 Mr. Wall A copy ofMr. Hog*'* report wit got bcloded n the package
to (be grievance eoumsrtee whai there reports deals directly with the femes of cost* a this case
the only Issues peeing I had 10 demand dm 1 copy be fecteded h Ac package 10 the grievance
committee. The Florida Bar has refused 10 icccpt Ac report of ft* own auditor. A certified PrbSc
Accoomtnt who ha* been working (brio Bar far ever J 6 years end has conduaed <00 to 300
•edits for the Bar. Page 5Sne<-23, page 6 foes 1-25, page 12 lines !-25. Mr. Rnga’a
Dcposttei.
ftryucu br efphr Hlerrtx to hen dmntlMHeoath ieteelilon
fthea I snbpoota three ofthe 8 effects for deposition, iheyttfbte to atrad the deposited wbn
they arrive tiny office, daimfeg thtt thewlyuiytheyKtreMgM rre Achdtpesti®tsifilJ8
ofAemwerepreseta end tbeyvwnddpveme the deposition Bmnltancously. ScoSuteneni car
the Record pige 3 ihet< to 19.
Mr. tfotf

He has never pariepited b a federal trial ranch Isa a radii, federal discrtatoition trial
exposition ofWahl Page 7, fetes i-2J and page 8 Etc l -9.
Page 11, Esc 17 to 25 and page 12 fee 1 -25. Mr. Wald told the t efitsts Alt they ire my victim
end he MU get them moeey from the sate eoapeotritcn food to htfp them However, Mr.
Wild don not remember whether the cfentt signed • contract wkk Aon or not Mr. Wald
prepared the letter which Baptist tool to the Florida Bar Com bronration provided by flijnifl
orJy. Page 1<Ones 19-25,page 15 1-25,page 16Urn 1-25. Mr. WiMalsobfonaedthese
••diems An try cost* were not nctflble, real or kghmtt. Asa matter of fact, they wwc highly
saspidma. Page 23, foe 1-25, page 24, facs 1-23. Page 28, One 19-20 Mr. Wald admit tm

247a

Mt. WtU hts « vegne retoDeoion effteeWng Mr. Gwgtua’s report end did aw receive .copy
ofMr. Rugi'rqiort. He fid am bothaioeillihecfeeinadteO them ortbe result ofdrisresorv
Pije 25, fine 22-2}, ptge 2MS, ptge 36 fees I s-25.
Pigs 19. feet 12-25, ptge20, fee l-2t I tm tie tPtfy irtoraey be rtraaabcr rmkcg cud t
rcquLfl fron,
Mnrie Dercetin
P»p 7, bet 7-9, ptge 23, fee 10-34 they sever oa bc done I ehwyt citl nwiiegt for tE of
them Ptge 9 fees 13-14 we speak the stneUfljctgelihwysspeik to iben to creole Ptge 19
& 20 fees 1-25 (hey were ioU of(he 1300,000.00 soikmeai nd f farther ioU (hem ray fee
wwiM be 33% ofthe sfitenott tod (bey cash txpeaed to receive «las 220,000.00. The
s®tane»iutesm»iitho pretested to (hem when they etnse to spt the agreancai. The
310,000.00 was also is the siteacsn. £vei ifiht took (At 110.000.00 they wenldnl/1 Caere
efltr atfor money tenor then tnr mire saw? mitring. Age 22 turn 7-III would only gftv
am HO.00<X00 I «tstkl not gne tom 110.000.00 men.
J sever advisee ray other offer* oftetttanat by Swum besides (he 3300,000.00 offs. Pub
23, Hw IS-22
JopbtoedallisycosnobeT. Page 23 fee 23-13, page 24, Bne M. Pig# 26 fee fees 6-7 she
expected to receive $50,000.00.
AH of them em to ray office to pick up the ched supposedly M 5:00 pjn.oa July 19,1999 And
theyiflleft«S'JOp.ra. Ptge 30 fee 22-25, page 31 fine 1-3. Ptge32 fee2-201thvrytset
•ppmtmea for tO 8 diems together.
Pagt 33 lint 3J3,pagc 3< 33 end 36,1 tifimed them ofmy expenses qfltr each tnnL lahnsyt
cansanterord with thtm. I listed ollofrry not to torn end wen( over ll *Uh them after every
rtei 77b utlunrty, Troy Harris ms to be paki out ofthefinds rectivt from tit east notfrom
atjfaA.
pogt 37 Unci 20-25, I told them that I mid work/or themfor 30S Page 38 lints 2-25. Mrs
Oaxettnfcel the is entitled to U0,OOO.OQ. H7m they agreed to the 1300, OOO. 00 tetthrmn in
accept the SID.000.00dlsbmemenl they newer had any Intention ofaccepting the SIO.OOO 00
dltba/temeni and they would ttHI go to toe B».
Pagt tl lines 2-21 IheIrfrotImilthoUhrydonctbtHevt toot my expenses are. real. Tlryart
"toomnek Hot toot I never eenamdeetedirith them about the espems 8tn I did ml tell them
exactly hoe much they uo/ld amount ta

248a

***• Rower, I did not know whether we would tareecd is the test. We auy then «g»m we
oty e« netted
hse 22 Sees 2-1 7 ill 8 cSeats wshcd outside my office for 3 iron, I opes the binds. they hear
os convening bode >tt we did not opes far than Fhiliy they left.
page 24 fries 10-151 bpt them informed about their can. I always spoke to them. Grttai) at!
8 <ff them by letter or phone toll to coat A Met tilth them once e week, every nvo week or once
amonthpop 88 lines 17-25. Page <3lints 10,
Piges 32-36, shew*] neim told ofthe enw crop! cost tolling to iboot 5600.00. My cos did
ootetnctmto51.000.00. They were not swire ofoy other costs. She bon* nothing ibotrt the
transistors’ coss. it li my own bnsbess.
Pop 86 lines 3-2$. pop 87-50 the letterprepared by Mr. ITeM wftkh all 8 elltnts signed which
Munched the tmesngotiai by the Bar mb not read by Ms. MarceJItn. She signed It became "if
the tight ofos cernplan to the Florida Bar' gage 47 line 21-22) site would pt more money.
They gmt her the letter to slpi and she signed h because the b suppose to Shebnotewartof
the eoKott efthe later.
PegeSI Hue 2-23, p»ge52liMS 1*23. die did not woe tony office ifler she imhvc toy inly 1,
1999 letter mfbnning them oftbe didtut teuton. She uw toe for the fort time u the o»prmy««
The rksridj Bsr zed I will decide how much money die is added to because the doe* not ksow
how emeh money sH of them ere entitled to. Whatever agrtemeie dial trot metde Or my office to
fir os 6a amount ofdisbursements b not important right nor. tJTiaf b Important b the total
atsomd iffmatey that the Florida Bar said they should receive regardless of6*. agrtemtsd.
Pop 57 line 22-21 pap 58-59- even ifm took 6* StO.OVlOOtn would still pdl you inlo
ereot Kean entitled to more then 510,000.06. By going to the Bat they will get more matey
Fomttneltttuiste
page 8 Bass 23, ptge9 foe 1-191 told them I would eoBeci 33%ofthe*ailenisrL Cost watts
be deducted from my 33%.
Pege IS, Dee 1-8. Biptfate felt (hit those who lost th«r case should nos receive sny mosey fa
ipite of the egreemect.
Ptge 23 Bite 10-16 there were two setifemi offa 5300,000.00 md 5695,000.00.hi
' Pige 49 Tetcsl 1-25, piga 30-54 Mr. Bspiistecstoe to my office o.i July 19 to pick up (he died
be tod iD (he tKhet cOati waited for 43 inmntu wfcb ill 6 dicnii They hard some *04 ctycig.

249a

Cendorien
Ate IbwdqiwilioDiraEzed the greed odhilred feetedbj-Mr.WiWteithsBa ia these f
dtastB unfed of kows. TheywffldoitaBywhitcveritikemwDertihoremoBey A
wodfeg oftheDtpoctioa wnrcvcd tin retfc ofthen cGant lotd » difltrcn gory. More
6wWb* is the &a Out liar nary is completely diSuem from the tetei ikevjJp'd nd
nbuftted to tbe Bn on Sweater ]W, Tbc r«unfeg d»c ortheir n«iemem d Um my cost
ndeqwisesuethlst. tobBoiyfe cnbreecd by the Bend they denandiae^ltiatimDtmi
IK a t cenafie nd
form.
I know tint tie pubEc tawed win bo edvreiy tfleaed by the iction ofibe Florida Bn. li his
tflhded tie jnrity ofthe ctmli end tasdet the tdaiiiuritige ofjustice nd tie eoafid®ee of (he
psblfciethelegilpfotesmO’fewoforjjieinygnnanitiedenore. f did not hive the itastwr the eaerey to hive this lata
edited).

toped tbOy efatiRed,
IdoetoBWtdgfycuhy ofpetjuTyBadet tie hwiof the tfeeed Stem rfAjwtaetauhe
foregoiug is true md correct.
toeEtedon

Ib/Mfof

tab

ABjfett TeUseo. Esq.

250a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 170 of 300
EXHIBIT N1
FLORIDA SUPREME COURT CASE DOCKET
CASE NUMBER: SC01-1198 - CLOSED
THE FLORIDA BAR
vs.
ANNE GEORGES TELASCO
Lower Tribunal Case(s); 2000-70,271(11F),
2000-70,394(1 IF), 2000-70,395(11F),
2000-70,396(1 IF), 2000-70,397(11F),
2000-70,398(1 IF), 2000-70,399(11F),
2000-70,446(11F)
10/05/2008 10:30
Date
Docketed Description

Filed By

Notes

5/30/2001

COMPLAINT CO Florida Bar
BY: CO Randolph
Max Brombacher
69879

(O&I)

5/30/2001

REQUESTADMISSION

(O&I)

6/14/2001

No Fee
Required

CO Florida Bar
BY: CO Randolph
Max Brombacher.
69879

251a
6/18/2001

Order-Referee
Appointment
(Disciplinary)

6/25/2001
dated

LETTER

Hon. Joseph P.
Farina
C.J., 11th Circuit
PE Anne G. Telasco

(copy)

BY: Anne G Telasco
6/21/2001, from
Respondent to Bar.
Counsel
advising him that she received the acknowledgment letter
from the court, but never received the complaint or request
for admissions and advised him that she will be filing a
motion for extension of time to respond to the complaint once
she receives the documents.
Case l:19-cv-22135-RS Document 53 Entered on FLSD
Docket 03/03/2020 Page 171 of 300
7/2/2001 LETTER PE Anne G. Telasco
(copy) dated
BY: Anne G Telasco
6/25/2001,
from Respondent to Bar
Counsel advising him that she has received the complaint and
request for admissions.
7/9/2001 REFEREE
APPOINTED

HON.ROBERT
N. SCOLA, JR.
11™ JUD
CIRCUIT

7/20/2001

OMNIBUS
SCHEDULE
AFTER STATUS
CONFERENCE
(SENT TO
REFEREE)

ORDERCIRCUIT
ORDER

252a

9/17/2001

ORDEROTHER

GRANTING REQUEST
FOR ENLARGEMENT
OF DISCOVERY
DEADLINE (COPY)

9/24/2001

ORDEROTHER
COURT

GRANTING
REQUEST
ENLARGEMENT OF
DISCOVERY
DEADLINE UP TO
AND INCLUDING
10/19/01.

11/02/2001 ORDEROTHER
COURT

GRANTING
REQUEST FOR
ENLARGEMENT OF
DISCOVERY
DEADLINE AND
SUMMARY
JUDGMENT FILE
DATE - (COPY)

11/13/2001 LETTER PE: Anne G. Telasco DATED 11/12/01
PE: Anne G. Telasco WITH
ENCLOSED
DOCUMENTS
11/19/2001 ORDEROTHER
COURT

ON MOTION
TO DISMISS
AND MOTION
TO ABATE
PROCEEDINGS.
THE COURT
HAS
REVIEWED THE
RESPONDENT’S
MOTION TO DISMISS

253a
BASED UPON HER
SUBMITTED
RESIGNATION AND
THE BAR’S MOTION
TO ABATE
PROCEEDINGS BASED
UPON THE
SAME GROUND.
AFTER CONSIDERING
THE WRITTEN
SUBMISSIONS,
THE MOTION TO
DISMISS IS
DEFERRED
PENDING
ACCEPTANCE
OF THE
RESPONDENT’S
RESIGNATION FROM
THE BAR. THE BAR’S
MOTION TO ABATE
PROCEEDINGS IS
GRANTED.
7/18/2002

NOTICEDISMISS
(Voluntary)

8/2/2002

DISP-DISM

CO Florida
Bar BY: CO
Randolph Max
Brombacher
69879
UPON
VOLUNTARY
CONSIDERATION
(FLA BAR)
OF THE FLORIDA
BAR’S NOTICE
OF VOLUNTARY
DISMISSAL, THE

254a
ABOVE-STYLED
CAUSE IS HEREBY
VOLUNTARILY
DISMISSED.
10/6/2002

RECORD
CENTER

ACC #03-556
SRC#65860
10/05/2008 10:33 AM

255a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 173 of 300
EXHIBIT N2
FLORIDA SUPREME COURT CASE DOCKET
Case Number: SC01-2893 - CLOSED
THE FLORIDA BAR
vs.
ANNE GEORGES TELASCO
Lower Tribunal Case(s); 2000-70,271(11F), 2000-70,394Q1F),
2000-70,395(11F). 2000-70,396(1 IF), 2000-70,397(11F), 200070,398(11F), 2000-70,399(11F), 2000-70,446(11F)
10/05/2008 10:30
Date
Docketed Description
12/6/2001

PETITIONRESIGNATION
(DISCIPLINARY)

1/25/2002

No Fee
Required

4/26/2002

ORDER DISMISSAL

Filed By

Notes

RS Anne
G. Telasco
By: RS Bill
Ullman

FAILURE TO
FILE PROPER
PETITION FOR
DISCIPLINARY
RESIGNATION
WITHIN 15 DAYS
MAY RESULT IN

256a
DISMISSAL
6/18/2002

DISP - DISMISSEDFAILURE TO COMPLY

10/8/2002

RECORD
CENTER

ACC #03-556
SRC#75265
10/05/2008 10:33 AM

257a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 175 of 300
EXHIBIT N3
FLORIDA SUPREME COURT CASE DOCKET
Case Number: SC01-2423 - CLOSED
THE FLORIDA BAR
vs.
ANNE GEORGES TELASCO
Lower Tribunal Case(s); 2002-70,505(11F-MES)
10/05/2008 10:30
Date
Docketed Description
11/7/2001

PETITIONSUSPENSION
(EMERGENCY)

11/8/2001

No Fee
Required

11/13/2001

DISPSUSPENSION
(EMERG CLOSE

OUT)

Filed By

Notes

CO Florida
Bar BY:
Randolph
Max
Brombacher
69879

O&I

AUTOMATICALLY
EFFECTIVE 30
DAYS

258a

1/23/2002

NOTICE CO Florida Bar
BY:CO Randolph
Max Brombacher
60879

OF
UNAVAIL­
ABILITY

7/1/2002

RECORD
CENTER

ACC #03-128SRC #71832
10/05/2008 10:34 AM

259a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 178 of 300
EXHIBIT N4
FLORIDA SUPREME COURT CASE DOCKET
CASE NUMBER: SC02-44 - CLOSED
THE FLORIDA BAR
vs.
ANNE GEORGES TELASCO
Lower Tribunal Case(s); 2002-70,726(llF)
Date
Docketed Description Filed By
1/8/2002
COMPLAINT PT Florida
Bar BY: PT
Randolph
Max
Brombacher
69879
1/8/2002

REQUESTPT Florida
ADMISSIONS Bar BY: PT
Randolph
Max
Brombacher

1/10/2002

No Fee
Required

Notes
O&I

O&I

10/05/2008 10:34 AM
1/15/2002

ORDERREFEREE
APPOINTMENT

HON. JOSEPH P.
FARINA C.J.,
11™ JUD

I

I

260a

1/23/2002
Max

(DISCIPLINARY)

CIRCUIT

NOTICE

OF
UNAVAILIBILITY
-(SENT TO

REFEREE)

PT Florida
Bar BY: PT
Randolph
Brombacher
69879

2/5/2002

REFEREE
APPOINTED

HON.ROBERT
TN SCOLA JR.
11™ CIRCUIT

5/3/2002

REFEREES
REPORT

WITH
DISKETTE,
AMENDED
REPORT
AND
MISCELLA­
NEOUS
PLEADINGS

5/3/2002

AFFIDAVIT/
STATEMENT
OF COSTS

5/3/2002

RECORD/
TRANSCRIPT

7 VOLUMES

5/28/2002

LETTER-FLA
BAR (WILL
NOT PETITION
FOR REVIEW)

RESPONDENT
HAS UNTIL
6/10/02,
TO FILE A
PETITION FOR
REVIEW

261a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 178 of 300
7/11/2002

DISPDISBARMENT
(IMMEDIATELY)

10/25/02

RECORD
CENTER

(COSTS $5,028.55)

ACC #03-902
SRC #309436
10/05/2008 10:34 AM

262a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 178 of 300
EXHIBIT 01
The money orders Telasco was able to
recover reflecting that in 2002 around the
time the Bar was creating cases and hiding
the fifth case it created against her, she had
moved to and was living in New York State.

263a

©

ivTtr**Tio*u
V-Mflt CWWf

ic"' Trc^'£•}^lsExplessMo«)'*0^,

fvrauM'SRfcnn

n
f-

eestggfiAtfyi A^akh^.!...

t i

rU>«. •••

- i
CO

.t>

inn

««n» !Ii_.
nti* M*a«V4*'K r**v »«»•;*.* 'K *• N *

«- .

•*

\0l

StWiV'

WHM*flON*l
MWI'W®'

•o
N

r~

i-

:.

,r*

—:-'T" "
?■

c-l

cr>
O

.-. • '".V

iK^v.

• •m

ux»* -

>-i<r.'« R-.-1' r-

n»w> n>A«

.-1 -• « •*

MUlliW-*.

iimnw-nowH
mow* o»w»

“ ’^"■'TSbSBSBt
C3

•r- • BS»rfiUr^

:

■»

( 1

OJ
0<

air-

^ --- -----"Hi t'-K*.'

.4

,■*■

■ ••• v

tibWi -or

-i y -s-.^

VII
MU’!1' '.

264a

■'".'.V.."' -.Tt ,

:'|l|ff|p§i,' .■ CUSTOMER'S RECEIPT
i
K£*f Tn1
tawfos
fix* Skc*m

:
|
!

\.
\1

--------!_lC___liiSifl__ __ it'.:'"- I,'1/'

□ 4 3S5 M 1'41=, 4 4

MOftm-i?

100051

I..' ••

WOO.®

CUSTOMER'S RECEIPT
Kttflws
fltUPI f»
fKiRfcens

j*".' /U.
iv/( i
i“ V” iJ1' '-VU
i,.iM/vC \JA
! ;,';i ,CW' / ...
I; L>.|. j I

2002-05-1?

ioooa

iX'Mv

\
\i

265a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 184 of 300
EXHIBIT 02
OFFICIAL CHECK
Washington Mutual Bank, FA
Check No.: 765691319
Match the amount in words with the amount in
numbers
WASHINGTON
MUTUAL
$7,500.00
****

Oct 27, 2003 SEVEN THOUSAND FIVE
DOLLARS AND 00 CENTS ****
PAY
TO
THE
ORDER
OF

RICHARD MARTIN

DRAWER: WASHINGTON MUTUAL BANK, FA
/S/
AUTHORIZED SIGNATURE
ANNE TELASCO
RENT FOR 6 MONTHS

266a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 185 of 300
1935-2016
Martin, Sr. - Richard Anthony
passed away at home in Harlem, October 24, 2016.
He leaves behind his daughter Sam and his son
Richard Jr., their partners Frank and Kelly, sister
Cecille, nephews Anthony and Robert, ex-wife
Sigrid Gray, longtime companion Kathryn BoycePiper and grandchildren Oscar and Astrid as well
as a plethora of friends, students and partners in
crime.
Richard was born in the parish of St. Andrew,
Kingston, Jamaica on July 15, 1935 to Kathleen
Blackman Martin and Oscar Martin. He was the
second to last of 6 children: Meritha, Marcelline,
Norma, Lionel and Cecille.
At 10, he followed his mother to New York City and
lived with his family in on 143rd Street in Harlem.
He attended Power Memorial HS where his skinny
Jamaican legs made him a track and cross-country
champion.
At 17, he joined the Air Force and served in
Morocco as a radar technician and honed his love
for science fiction scouting for UFOs in the
peaceful, cold war-era North African skies. Upon

267a
his return to the States he was disrespected by an
INS agent and vowed never to become an American
if this was the way they treated their black
citizens. He remained a Permanent Resident until
his death.
Richard was an avid skier and was certified by the
Canadian Ski Instructors Alliance. He introduced
many people of color to the sport long before there
was such a thing as a Jamaican bobsled team. His
crew cut a colorful swath on and off the slopes with
their wild partying and exquisite skiing style. The
ski clubs he created and the trips he sponsored
helped finance his family's passion for the sport. He
always had a hustle and his dutiful family and
friends were always by his side, "doing projects,"
whether it was schlepping cases, laying sheet rock
or hawking his latest invention.
He was a member of Local 644 of the International
Photographers Union, first as a still photographer
then as a cameraman shooting news on film for
WPIX and other stations. He also worked as
Director of Photography: lighting was his favorite
discipline.
He was the executive director of the Community
Film Workshop, an NEA-funded program developed
to introduce women and other minorities to film
and video. When that program was defunded he
started his own production company. He went on to
become an adjunct professor at The New School

268a
and NYU, where his lighting and visual
storytelling classes excited a generation of
filmmakers.
In 1997, he created the Drum Television Network,
another training and production center, first out of
the basement of his brownstone in Hamilton
Heights and later from the facility he created on
125th Street, where he inspired and trained
another generation of shooters, editors and
storytellers, again with a focus on women and
ethnic minorities.
Teacher, mentor, friend and consummate
Harlemite, he will be missed by anyone whose life
he touched but his spirit and energy will live on in
the projects and endeavors of those he inspired.
To Plant Memorial Trees in memory, please visit
our Sympathy Store.
Published in New York Times from Oct. 30 to Oct.
31, 2016.

269a
Case l:19-cv-22135-KS Document 78 Entered
on FLSD Docket 06/29/2020 Page 7 of 20
EXHIBIT 03
New York Film Academy
This diploma confirms to all persons that
Anne Georges Telasco
has successfully completed the
Eight-Week Screenwriting Program
/S/
David Klein
Senior Director
March 2004

270a
Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 9 of 20

EXHIBIT 04

New York Film Academy
This diploma confirms to all persons that
Anne Georges Telasco
has successfully completed
the New York Film Academy’s
Five Week Digital Filmmaking
resulting in the completion of 3 short films.

IS/
Devin Crowley
Director
April 2004

271a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 191 of 300
EXHIBIT PI
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
The Florida Bar Case No.: 2002-70,726(11?)
Supreme Court Case No.: SC02-44
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO,
Respondent.
THE FLORIDA BAR’S MOTION FOR
ORDER DEEMING MATTERS ADMITTED
THE FLORIDA BAR, Complainant, having
propounded Request for Admissions, pursuant to
Florida Rules of Civi8l Procedure, Rule 1.370, Rule
1.370, requiring Respondent to admit or deny facts
set forth in the Request for Admissions be deemed
admitted, and as grounds therefore shows the
following:

272a
That the Complaint and Request for
1.
Admissions was served by regular mail on
Respondent, Anne Georges Telasco, at 7320
Biscayne Boulevard Miami, Florida 33138-5151 on
January 7, 2002 and received on January 14,m
2002.
2.
That the Complaint and Request for
Admissions was served by Certified Mail on the
Respondent at her official record bar address of
7320 Biscayne Boulevard, Miami, Florida 331385151, on January 7, 2002, and
Case l:19-cv-22135-RS
Document 53
Entered on FLSD Docket 03/03/2020 Page 192
of 300
received on January 14, 2002. (A copy of the
Return Receipt is attached hereto as Exhibit “A”).
3.
That as of this date, no answers or
objections have been received by the Florida Bar to
the Request for Admissions.
4.
That in accordance with Rule 1.370(a),
Florida Rules of Civil Procedure, the matters are
admitted unless the party to whom the request is
directed serves upon the person requesting the
admissions a written answer or objections
addressed t the matters written 30 days after
service of the request ... a defendant shall not be
required to serve answers or objections before the

273a
expiration of 45 days after service of process and
initial pleading upon her.
5.
The Rule 3-7.11(b) of the Rules
Regulating The Florida Bar states, “Every member
of the Florida Bar is charged with notifying the
Florida Bar of a change of mailing address or
military status.”
6. That according to Rule 3-7.11(b) of the
Rules Regulating The Florida Bar, the Mailing of
registered or certified papers or notices in these
rules to the last mailing address of an attorney as
shown by the official records in the office of the
executive director of The Florida Bar shall be
sufficient notice and service unless this Court shall
direct otherwise.
WHEREFORE, the Complainant respectfully
requests this Honorable
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 193 of 300
Referee to enter an Order deeming the matters in
the Request for Admissions as being admitted,
pursuant to Rule 1.370(a), Florida Rules of Civil
Procedures.
/SI
RANDOLPH MAX BROMBACHER

274a
Bar Counsel

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that the original of the
foregoing Motion Deeming Matters Admitted was
mailed to the Honorable Robert N. Scola, Jr., at
Thomas E. Lawson “courthouse Center, 175 N.”W.
1st Avenue, Room 2025, Miami, Florida 33130, and
a true and that true and correct copy was mailed to
Anne Georges Telasco, Respondent, at 7320
Biscayne Boulevard, Miami, Florida 33138-5151
and
John Anthony Boggs, Staff counsel, the
Florida Bar, 650 Apallachee Parkway, Tallahassee,
Florida 32399-2300 on this 28 day of February,
2002.

/S/
RANDOLPH MAX BROMBACHER
Bar Counsel

275a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 195 of 300
EXHIBIT P2
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
The Florida Bar Case No.: 2002-70,726(11F)
Supreme Court Case No.: SC02-44
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO
Respondent.
ORDER ON THE FLORIDA BAR’S MOTION
FOR ORDER DEEMING MATTERS
ADMITTED
THIS CAUSE having come before this Referee,
and the Referee having examined the files of these
proceedings and having found no response to the
Complainant’s Request for Admissions, and the
Referee being duly advised in the premises.
IT IS HEREBY ORDERED AND ADJUDGED
that the matters contained in the Complainant’s
Request for Admissions are hereby taken as
admitted.

276a

DONE AND ORDERED in Chambers at
Miami, Dade County, Florida, this 4 day of March,
2002.
/S/

ROBERT N. SCOLA, JR., REFEREE
Copies furnished to:
Randolph Max Brombacher, Bar Counsel
Anne Georges Telasco, Respondent

277a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 197 of 300
EXHIBIT Q1
IN THE CIRCUIT COURT OF THE 11™
JUDICIAL CIRCUIT IN AND FOR DADE
COUNTY, FLORIDA
GENERAL JURISDICTION
DIVISION
CASE N0:02-000011CA01
THE FLORIDA BAR,
Plaintiff,
v.
ANNE GEORGES TELASCO,
Defendant.
RENEWED PETITION TO DISBURSE FUNDS
Petitioners, VENICIA SOUPART, YOLETTE
MOVAL, CARLINE JARBON (sic), LUCIA
JOSEPH,
FONTANE
BAPTISTE,
MARIE
DARCELIN, EXAMISE (sic) MARCELLUS and
FRANCOISE LUC, by and through their
undersigned counsel, hereby file this Renewed
Petition to Disburse Funds, and as grounds
therefore state:

278a
1.
Undersigned counsel appeared before
this Honorable Court on May 6, 2003 petitioning
the Court to disburse the settlement funds held by
the court registry in the above-referenced matter.
The court instructed undersigned counsel to contact
the State Attorney’s Office and attempt to ascertain
the origin of said funds.
2.
Contact was made with David Sherman,
Esquire, in the State Attorney’s Office. He is the
attorney in said office handling the criminal case
against Ms. Telasco. He advised that he had
absolutely no knowledge of the origin of the funds,
nor did he think it was possible to trace the origin
of the funds.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 198 of 300
3.
Attorney Sherman did direct my
attention to the attached correspondence dated
April 24, 2002 from Randolph Brombacher to
myself regarding the reissuance of the check into
the court registry. Judge Scola’s order directed
that the funds received by the Florida Bar from Ms.
Telasco be redeposited into the court’s registry.
Attached as exhibit “1” said correspondence and
Order.
2.(sic) Based upon the foregoing order of Judge
Scola and the advice of the State Attorney’s office,
the undersigned respectfully requests that this

279a
Court enter an Order allowing the clerk of the court
to issue a check made payable to “Goldfarb, Gold,
Gonzalez & Wald, P.A. Trust Account’’ in the same
amount as the check previously issued by Ms.
Telasco as referred to above. Immediately up-on
clearance of said check, the undersigned counsel
proposes to disburse the funds to each of the eight
(8) above-named Petitioners in equal amounts, and
to file copies of each respective trust account check
along with a receipt signed by each Petitioner, with
the Clerk of the Court and the Florida Bar.
WHEREFORE,
Petitioners,
VENICIA
SOUPART,
YOLETTE
MOVAL,
CARLINE
JARBON (sic), LUCIA JOSEPH, FONTANE
BAPTISTE, MARIE DARCELIN, EXAMISE (sic)
MARCELLUS and FRANCOISE LUC, respectfully
request this Honorable Court to enter an Order in
accordance with the above set forth Renewed
Petition.
I HEREBY CERTIFY that a true and correct
copy of the foregoing Renewed Petition to Disburse
Funds was mailed this 20 day of May, 2003, to:
RANDOLPH M.
BROMBACHER, ESQUIRE,
Attorney for the Florida Bar, Rivergate Plaza, Suite
M-100, 444 Brickell Avenue, Miami, FL 331312404; DAVID SHERMAN, ESQUIRE, State
Attorneys
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 199 of 300

280a

Office, 1350 NW 12th Avenue, Miami, FL 33125.
Law Offices of Goldfarb, Gold, Gonzalez & Wald,
P.A.
100 Southeast Second Street
Suite 3900
Miami, Florida 33131
By:

/Si
Jonathan D. Wald, Esq.

281a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 201 of 300
EXHIBIT Q2
IN THE SUPREME COURT OF FLORIDA
(Before a Referee)
Supreme Court Case No.SC01-1198
THE FLORIDA BAR,
Complainant,
v.
ANNE GEORGES TELASCO,
Respondent.
The Florida Bar File Nos.: 2000-70, 271 (11F),
2000-70, 394 (11F), 2000-70, 395 (11F),
2000-70, 396 (11F), 2000-70, 397 (11F),
2000-70, 398 (11F), 2000-70, 399 (11F),
2000-70, 446 (11F)
ORDER ON MOTION TO REISSUE
WASHINGTON MUTUAL BANK’S OFFICIAL
CHECK SO THAT IT MAY BE MADE
PAYABLE TO THE CLERK OF THE COUNTY
AND CIRCUIT COURT. ELEVENTH CIRCUIT
THIS CAUSE coming before this Referee and
this Referee being fully advised in the premise

282a
finds that the Motion To Reissue Washington
mutual Bank’s Official Check so that it may be
made payable to The Clerk of the County and
Circuit Court, Eleventh Circuit is granted:
An employee or designee of the Florida
1.
Bar shall return the original check - Washington
Mutual Bank’s “Official Check” dated November 6,
2001, Check Number 634428674, made payable to
“The Florida Supreme Court” in the amount of for
FORTY-NINE THOUSAND ONE HUNDRED
FORTY SEVEN DOLLARS AND SEVENTY
CENTS ($49,147,70) - to Washington Mutual Bank
concomitantly with a copy of this Order.
At that time Washington Mutual Bank
shall a) void the original check, Check Number
634428674 and b) reissue a second check made
payable to The Clerk of the County and Circuit
Court for the exact same amount - FORTY-NINE
THOUSAND ONE HUNDRED FORTY SEVEN
2.

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 202 of 300
DOLLARS AND SEVENTY CENTS ($49,147.70).
DONE AND ORDERED in Chambers at
Miami, Dade County, Florida, this 19th day of
April, 2002.

283a
/S/
ROBERT N. SCOLA, JR.
Referee
cc: Randolph Max Brombacher, Bar Counsel
Anne Georges Telasco, Respondent
Thomas D. Hall, Clerk, Supreme Court

I

284a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 204 of 300
EXHIBIT Q3
From:
To:
Subject:
Date:

The Florida Bar
anne anne@allpeopleslaw.com
State to State Newsletter - fall 2018
Tue, Oct 16, 2018 6:02 am

The Florida Bar
www.Floridabar.org

THE FLORIDA BAR ffiOUT-OF-STATE DIVISION

Dear Out of State Members,
The latest issue of State-to-State, the official
newsletter of the Out of State Division of The
Florida Bar is now available.
Take a look inside to learn more about:
* From TFB President Michelle Suskauer: New
benefit helps Bar members run production,
profitable practices.
* Call for nomination: Florida Bar Out-of-State Pro
Bono Service Award

285a
* Recent Florida cases may narrow defensed
available to lawyers in malpractice actions.
Please click on the link below:
OOSD newsletter Fall 2018-FINAL.ndf

286a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 205 of 300
THE FLORIDA BAR
OUT OF STATE DIVISION
(850) 561-5624
http://www.flabaroutofstaters.org/index.htm

The Florida Bar
651 East Jefferson St., Tallahassee, Florida 323992300
Phone (850)561-5600, Fax (850) 561-9413
www.floridabar.org

287a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 207 of 300
EXHIBIT Q4
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
February 2, 2009
Anne George [s] Telasco
764 Jay Street, Apt. 2
Rochester, NY 14611
RE: Telasco v. FL Bar
Dear Mr. [s] Telasco:
The above-entitled petition for a writ of
certiorari was postmarked January 26, 2009 and
received February 2, 2009.
The papers are
returned for the following reason(s):
The petition is out-of-time. The date of the
lower court judgment or order denying a timely
petition for rehearing was July 11, 2002.
Therefore, the petition w due on or before October
9, 2002. Rules 13.1, 29.2 and 30.1. when the time
to file a petition for a writ of certiorari in a civil
case (habeas action included) has expired, the court
no longer has the power to review the petition.
Sincerely,
William K. Suter, Clerck
/S/
By.
Erik Fossum, (202) 479-3392, Enclosure

288a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 208 of 300
No. 08M66
Title:
Docketed:
Lower Ct:
Case Nos:

Anne Georges Telasco, Petitioner
v.
The Florida Bar
February 20,2009
Supreme Court of Florida
(SC02-44)

****Date*******Proceedings
orders ******************

and

Feb 17, 2009
Motion of petitioner to direct the
Clerk
to file a petition for a writ of certiorari out of time
filed
Feb 25, 2009
DISTRIBUTED for Conference of
March
20, 2009.
Mar 23, 2009

Motion Denied

**** Name*******
******Address ************** Phone****

Attorneys for Petitioner:
Party name: Anne Georges Telasco

289a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 209 of 300
SUPREME COURT OF THE UNITED STATES
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001
March 23, 2009
Anne Georges Telasco
764 Jay Street, Apt. 2
Rochester, NY 14611
RE:

Anne Georges Telasco v. The Florida Bar
No.: 08M66

Dear Ms. Telasco:
Since the motion to direct the Clerk to file a
petition for a writ of certiorari out of time in the
above-entitled case was denied March 23, 2009,
your $300.00 Cashier’s Check is herewith returned.
Sincerely,
William K. Suter, Clerck
/S/
By.
Jeffrey Atkins
(202) 479-3263
Enclosures

290a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 211 of 300
EXHIBIT Q5
NO. 08M66
In the
SUPREME COURT OF THE UNITED STATES
ANNE GEORGES TELASCO,
Petitioner,
v.
THE FLORIDA BAR,
Respondent.
On Petition for a Writ of Certiorari to
The Florida Supreme Court
PETITION FOR WRIT OF CERTIORARI
ANNE GEORGES TELASCO, PRO SE
Pro Se, Petitioner
764 Jay Street, Apt. 2
Rochester, New York 14611
Telephone: (585) 672-4614
JOHN F. HARKNESS, JR., ESQ*
Executive Director
The Florida Bar

291a
651 East Jefferson Street
Tallahassee, Florida 32399
Telephone: (850) 561-5600
* Counsel of Record

;

292a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 212 of 300
QUESTIONS PRESENTED
I. Whether Petitioner’s action for corrective relief
from The Florida Bar’s unconstitutional orders of
suspension and disbarment should be treated like
a habeas action which is not subject to time bars
where Petitioner only seeks relief from the
collateral consequences which flow directly from
said unconstitutional orders, Petitioner’s injuries
can only be redressed by a favorable judgment for
corrective relief from this court, and Petitioner’s
actual ongoing injuries from the unconstitutional
orders meet the case-or-controversy requirement
under Article III, §2 of the United States
Constitution?
II. When Petitioner has no adequate remedy from
The Florida Bar’s unconstitutional suspension and
disbarment orders except through a judgment from
this court by this petition, is this court’s acceptance
of Petitioner’s action for corrective relief in accord
with the mandate of the United States Constitution
and this court’s fundamental tradition that no
citizen should be left remediless and defenseless
against substantial civil disabilities and collateral

Page i

293a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 213 of 300
Page ii
consequences which flow from unconstitutional
judgments?
III. Whether The Florida Bar’s actions of not giving
Petitioner notice or opportunity to defend prior to
disbarment and its deliberate misrepresentation
and concealment of material facts to secure the
suspension and disbarment orders against
Petitioner deprive Petitioner of procedural due
process and violate the equal protection clause of
the fourteenth amendment of the United States
Constitution?
IV. Whether The Florida Bar’s actions of
intercepting all material documents Petitioner filed
with the court in case number SC01-1198,
manipulating the dating and filing of documents,
creating five frivolous, sham cases against
Petitioner, publishing and placing in the public
records the sham cases and unconstitutional orders
to Petitioner’s detriment violate Petitioner’s rights
under the fifth and fourteenth amendment of the
United States Constitution?
V. Whether the Florida Bar violated Petitioner’s
rights under the fifth and fourteenth

294a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 213 of 300
Page iii
amendment of the United States Constitution and
acted out of the bounds of legal authority when it
ignored all well established substantive and
procedural constitutional
safeguards
as it
arbitrarily and without cause investigated
Petitioner for over 28 months, permanently
disbarred Petitioner from the legal profession by
misrepresenting and concealing material facts and
not giving Petitioner notice of the sham cases it
brought against?
VI. Whether The Referee, Justice Robert N. Scola,
Jr.’s actions of deliberately misrepresenting and
concealing material facts in his report, aiding The
Bar intercept, backdate and manipulate the filing
of material documents Petitioner filed with the
court in case number SC01-1198, entering orders
and submitting reports that are grounded in
partisan interests and contravene well established
rules of procedure to Petitioner’s detriment,
violated his duty as the minister of justice and
severely compromise the integrity of the judiciary
and our legal system?
VII.
Whether The Florida Bar, by and
through its attorneys and the Referee, Justice
Robert N.

295a

Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 215 of 300
Page iv
Scola Jr., were deviant in their responsibilities of
promoting and preserving the integrity of the legal
profession, protecting rights and pursuing justice
when they allowed Jonathan D. Wald, The Bar’s
favored member, to use The Bar, the courts and the
judicial system to disparage, humiliate and cause
serious injuries to Petitioner?

296a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 216 of 300
Page v
PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1(b), the following list
identifies all of the parties.
The Petitioner appearing pro se is Anne
Georges Telasco.
The Respondent is the Florida Bar.
There are no corporate parties.

297a
29. The Bar through its Executive Director, John
F. Harkness, Jr., continues to misrepresent facts.
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 252 of 300
Page 26
A) In preparation of this petition, Petitioner
requested a certified copy of her disciplinary
history and complete records from the Florida Bar.
Pet. App. 429. In response thereto, she received
her disciplinary history (Pet. App. 430-431) and a
copy of the “alleged complaint” of the eight clients
that supposedly triggered case SC02-44 (Pet. App.
432-447) without a cover letter or certification.
B)
On September 9, 2008, Petitioner
renewed her request. Pet. App.
449-450. On
September 22, 2008, Mr. Harkness sent a second
copy of her disciplinary history to her reiterating
that The Bar purged Petitioner’s file after one
year and the documents provided are the only
documents remaining (Pet. App. 464-466) contrary
to rule Rule 3-7.1(b). Pet. App. 509.

1

298a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 268 of 300
EXHIBIT R1
NEW YORK STATE SUPREME COURT
APPELLATE DIVISION, FOURTH
DEPARTMENT
M. DOLORES DENMAN COURTHOUSE
50 EAST AVENUE, SUITE 200
ROCHESTER, NEW YORK 14604
(585) 530-3100 Fax (585) 530-3247
March 18, 2019
Anne Georges Telasco
764 Jay Street
Rochester, NY 14611
Re: Application for Admission
Dear Ms. Telasco:
Your application for admission to the New York
State Bar requires additional information as
indicated below. Please submit to this office:
Gennivieve Henriques completed both a
[X]
Good Moral Character Affidavit and Law-Related
Employment Affidavit on your behalf. Per the
instructions on the Good Moral Character affidavit
“affidavits should not be completed by persons who

299a
also complete employment affidavits on applicant’s
behalf.” You either need to submit and additional
Good Moral Character Affidavit or you need a LawRelated employment Affidavit completed by
someone other than Gennivieve Henriques.
A Certificate of Good Standing and
[X]
Grievance Letter from the Florida State Bar
regarding your status at the time of retirement.
[X}

Pro Bono Compliance Affidavit.

[X]

Affidavit updating your application.

[X]
State
Board of Law
Certification Letter (when received).
Thank you.

IS/

Lisa Sweet
Admissions Office
www.courts.state.nv.us/ad4

Exminer’s

300a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 270 of 300
EXHIBIT R2
Anne Georges Telasco
764 Jay Street
Rochester, NY 14611
Phone: 585-201-2492
April 12, 2019
Appellate Division, Fourth Department
Attorney Admissions
Ms. Lisa Sweet
M. Dolores Denman Courthouse
50 East Avenue, Suite 200
Rochester, NY 14604
Re:

Anne Georges Telasco
BOLE ID: B10030535
NCBE Number: N10017053
Date of Birth: 7/27/1962

Dear Ms. Sweet:
Please find attached,
1) Two Form Affidavit as to my Solo
Practice from attorneys Michelle A. Smith and
Marc A. Douthit;

301a
2) The Grievance Letter from the Florida
Bar. They have not issued A certificate of Good
Standing;
3) A sworn response to The Bar Grievance
letter with supporting documents attached thereto;
and Affidavit updating my application.
Since I cannot use the pro bono hours that I
completed with Attorney G.O.L. Henriques because
she completed one of the Good Moral Character
forms on my behalf, I am unable to provide a
completed pro bono certificate at this time, I am
in the process of attempting to find an organization
that I can use to complete a new set of pro bono
hours.
Your assistance is greatly appreciated.
Sincerely,
/S/
Anne G. Telasco

302a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 270 of 300
EXHIBIT R3
NEW YORK STATE SUPREME COURT
APPELLATE DIVISION, FOURTH
DEPARTMENT
M. DOLORES DENMAN COURTHOUSE
50 EAST AVENUE, SUITE 200
ROCHESTER, NEW YORK 14604
(585) 530-3100 Fax (585) 530-3247
April 16, 2019
Anne Georges Telasco
764 Jay Street
Rochester, NY 14611
Re: Application for Admission
Dear Ms. Telasco:
Your application for admission to the New York
State Bar requires additional information as
indicated below. Please submit to this office:
Gennivieve Henriques completed both a
[X]
Good Moral Character Affidavit and Law-Related
Employment Affidavit on your behalf. Per the
instructions on the Good Moral Character affidavit
“affidavits should not be completed by persons who

303a
also complete employment affidavits on applicant’s
behalf.” You either need to submit an additional
Good Moral Character Affidavit or you need a LawRelated employment Affidavit completed by
someone other than Gennivieve Henriques.
[X]
Rider to your application to include your
period of solo practice.
[X}

Pro Bono Compliance Affidavit.

[X]

Affidavit updating your application.

[X]
State
Board
Certification Letter (when
received).

of

Law

Thank you.

IS/
Lisa Sweet
Admissions Office
www .courts. state. nv. us/ad4

Exminer’s

304a
Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 14 of 20
EXHIBIT T1
Property Record Report
7320 Biscayne Blvd Miami FL, USA
Building Size Year Built
Last Sold
3,373 sq ft
1953
Apr 2016
Price History
Date
Change
Apr. 22, 2016
NA

Description
Sold

Price

$2,400,000.00

305a
Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 16 of 20
https://www.zillow.com/homedetails/7320-BiscayneBlvd-Miami-FL-33138/43827901_zpid/
7320 Biscayne Blvd., Miami, FL 33138
-beds -baths 3,373 sqft
Price / Tax History of 7320 Biscayne Blvd
Date
Source

Event Price

04/22/16 Sold
06/29/12 Sold
10/23/10 Listing removed

S/sqft

$2,400,000+2,230% $711
$103,000-84.7%
$30
$675,000-50.9%
$200 Mahogany Real...
10/05/10 Listing for sale
$675,000-50.9%
. $200 Mahogany Real...
07/24/10 Listing removed $1,375,00
$407
Mahogany Real...
09/10/08 Price change
$1,375,000-19.1%
$40706/26/08 Listed for sale
$1,700.00-41.4%
$504
Agent
03/06/08 Listing removed $2,900,000
$859 09/27/07 Listing for sale
$2,900,000+3,525%
$859
Agent
04/14/95 Sold
$80,000
$23

306a
Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 18 and 20 of
20

EXHIBIT T2
Detail by Entity Name
Florida Limited Liability Company
7320 BISCAYNE LLC
Filing Information
Document Number
FEI/EIN Number
Date Filed
Effective Date
State

LI 1000029456
45-0632284
03/10/2011
03/09/2021
FL

Status

INACTIVE

Last Event

ADMIN DISSOLUTION
FOR ANNUAL REPORT

Event Date Filed
Event Effective Date

09/28/2018
NONE

Principal Address
1521 Alton Road #595
MIAMI BEACH,FL 33139

307a
Changed:03/29/2016
Mailing Address
1521 Alton Road #595
MIAMI BEACH, FL 33139
Changed:03/29/2016
Registered Agent Name & Address
NARVAEZ,DAMIAN M
1521 Alton Road #595
MIAMI BEACH.FL 33139
Address Changed: 03/29/2016
Authorized Person(s)Detail
Name& Address
Title MGRM
NARVAEZ,DAMIAN M
1521 Alton Road #595
MIAMI BEACH,FL 33139
Annual Reports
Report Year
2015
2016
2017

Filed Date
01/29/2015
03/29/2016
04/05/2017

4

308a

!

Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 19 of 20
Detail by Entity Name
Florida Limited Liability Company
TRIFECTA 7320 BISCAYNE, LLC
Filing Information
Document Number
FEI/EIN Number
Date Filed
State
Status

L16000064726
81-2222826
04/01/2016
FL
ACTIVE

Principal Address
260 Crandon Blvd
Suite 32 #428
Key Biscayne, FL 33149
Changed:03/29/2016
Mailing Address
260 Crandon Blvd
Suite 32 #428
Key Biscayne, FL 33149
Changed: 10/12/2016

309a
Registered Agent Name & Address
Grant, Michael L, Esq
Warren & Grant
4440 PGA Boulevard
Suite 200
Palm Beach Gardens, FL 33410
Name Changed: 02/02/2018
Address Changed: 02/02/2018
Authorized Personfs^Detail
Name& Address
Title Manager
TRIFECTA PARTNERS, INC.
260 Crandon Blvd
Suite 32 #428
Key Biscayne, FL 33149
Annual Reports
Report Year
2017
2018
2019

Filed Date
01/23/2017
02/02/2018
02/10/2019

I

310a
Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 11 of 20
EXHIBIT U
ANNE G. TELASCO
GREAT LAKES ID: 10-2424626
Account Details
Consolidation Loans
U.S. DEPARTMENT OF EDUCATION (760581)
Balance $281,941.04
Payment Reference Number: 102424626000004
Not currently Due
Although no payment is due at this time, you may
continue to make payments on this account.
Balance & Status
In forbearance until 09/30/2020
Principal:
Accrued Interest:
$16,541.46
Total Balane as of Jun 26, 2020:
$281,941.04

$265,399.58

Case l:19-cv-22135-RS Document 78 Entered
on FLSD Docket 06/29/2020 Page 12 of 20

311a
Disbursements
Disb Date
Status Fees Check Amount
07/31/2000
Fees
$0.00

Disbursed
Check Amount
$81,001.21

Printed from mygreatlakes.org on
7:43AM Central Time

6/26/2020,

312a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 285 of 300
EXHIBIT V
Police say Lauderhill man called 911 before
deadly confrontation
By: Juan Ortega and Sofia Santana, Sun Sentinel
April 6, 2011 / Lauderhill
A 21-year-old man with a history of mental
illness called 911 and summoned police to his front
lawn moments before one or more of the officers
shot and killed him, police said Wednesday.
Cedric Telasco called 911 about 1:50 a.m.
March 29 and gave the operator a description of
himself, warning that there was a "black guy,
really good looking" standing in a doorway with a
knife. Police should "just come and do what you
have to do," he said, according to the audiotape of
the 911 call.
When three Lauderhill officers reached the
home in the 7100 block of Northwest 49th Court,
they found Telasco outside with a knife, police said.
Police have not said exactly what led one or
more of the officers to shoot Telasco, and the

313a

officers’ names have not been released. According to
police, Telasco had a history of mental illness.
As they wait for answers, Telasco's family
prepared for his funeral, remembering a
charismatic young man with many friends and the
dream of making a living out of his love of cars.
Jahra
McLawrence,
the
attorney
representing the family, declined to discuss
Telasco’s history. McLawrence provided a
statement from the family, describing the second
oldest of four siblings as passionate about auto
work and planning a future as a mechanical
engineer.
According to the Telasco family:
He had lived in Broward County the past 10
years, graduating from Nova High School in 2007.
He was pursuing an associate’s degree at Broward
College, while holding several jobs.
He loved working on cars, especially his own.
But he also made sure the cars of his parents,
Gerald Telasco and Nadege Lanoue, were wellmaintained.
He was a great brother to his three siblings:
Valerie, 25, Christian, 14, and Gregory, 11. He was
caring and protective, and loved telling jokes.

314a
He enjoyed assembling model cars and
playing video games. From a young age, he excelled
at hockey, soccer, track and field, fencing,
swimming and karate.
The viewing will be from 6 p.m. to 9 p.m.
Friday at Living Word Fellowship Church, 5770 W.
Oakland Park Blvd., Lauderhill. The funeral will
begin at 11 a.m. Saturday at St. Clement Catholic
Church, 2975 N. Andrews Ave., Fort Lauderdale.
jcortega@tribune.com or 954-356-4701

315a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 287-88 of 300
EXHIBIT W1
FORM 1040 U.S. Individual Income Tax
Return 2006
Anne G Telasco
7320 Biscayne Blvd
Miami, FL 33138
Exemptions - Telasco claimed 3 Dependents
1. Anngelica Eshesimua
2. Hardhi E. Harris
3. Yva J. Freel

Daughter
Son
Mother

TELASCO’S INCOME FOR THE YEAR IS $9,200
FOR 4 PEOPLE.

316a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 290-91 of 300
EXHIBIT W2
FORM 1040 U.S. Individual Income Tax
Return 2008
Anne G Telasco
Rochester, NY 14611
Exemptions - Telasco claimed 2 Dependents
1. Anngelica Eshesimua
2. Yva J. Freel

Daughter
Mother

TELASCO’S INCOME FOR THE YEAR IS $29,590
FOR 3 PEOPLE

317a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 293-94 of 300
EXHIBIT W3
FORM 1040 U.S. Individual Income Tax
Return 2016
Anne G Telasco
Rochester, NY 14611
Exemptions - Telasco claimed 1 Dependents
1. Anngelica Eshesimua

Daughter

TELASCO’S INCOME FOR THE YEAR IS $18,978
FOR 2 PEOPLE

318a
Case l:19-cv-22135-RS Document 53 Entered
on FLSD Docket 03/03/2020 Page 296-97 of 300
EXHIBIT W4
FORM 1040 U.S. Individual Income Tax
Return 2018
Anne G Telasco
Rochester, NY 14611
Exemptions - Telasco claimed 1 Dependents
1. Anngelica Eshesimua

Daughter

TELASCO’S INCOME FOR THE YEAR IS $15,371
FOR 2 PEOPLE

319a
Case l:19-cv-22135-RS Document 53 Entered
on FLSDDocket 03/03/2020 Page 299 of 300
EXHIBIT W5
FORM 1040 U.S. Individual Income Tax
Return 2019
Anne G Telasco
Rochester, NY 14611
Exemptions - Telasco claimed 1 Dependents
1. Anngelica Eshesimua

Daughter

TELASCCVS INCOME FOR THE YEAR IS $15,523
FOR 2 PEOPLE

320a
APPENDIX D
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 1 of 15
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
MIAMI DIVISION
CASE No.: 19-CV-22135-RS
ANNE GEORGES TELASCO
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.
THE FLORIDA BAR’S MOTION TO DISMISS
SECOND AMENDED COMPLAINT AND
INCORPORATED MEMORANDUM OF LAW
THE FLORIDA BAR (‘The Bar” or
“Defendant”), moves to dismiss with prejudice the
Second Amended Verified Complaint (“Complaint”)
filed by ANNE GEORGES TELASCO (“Ms.
Telasco” or “Plaintiff’), on the following grounds:

!

321a

• ' The Florida Bar is afforded absolute immunity
from liability in the performance of its disciplinary
responsibilities.
• Plaintiffs claims for damages are barred by the
Eleventh Amendment to the United States
Constitution and the applicable statute of
limitations.
• The Second Amended Complaint fails to state a
claim upon which relief can be granted.
• To the extent Plaintiff seeks review or reversal
of her disciplinary proceedings, Plaintiffs claims
are barred by the Rooker-Feldman doctrine.
The more particular grounds for this motion
and supporting authority are set forth in the
following memorandum of law.
BACKGROUND
Defendant, The Florida Bar, acting as an arm
and agent of the Florida Supreme Court, regulates
the practice of law in Florida. Included within The
Florida Bar’s duties is the authority to enforce the
rules of professional conduct, to discipline persons
practicing within the State of
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 2 of 15
Florida that violate such rules, and to respond to
inquiries regarding a member’s’ disciplinary history
or status to practice law. Plaintiff, Ms. Telasco, a
former member of The Florida Bar, is subject to

322a
The Bar’s rules of professional conduct and The
Bar’s disciplinary authority.
Plaintiff passed The Florida Bar Examination
in 1992 and opened her own law firm in 1993.
Compl., UK 23-24. On or about November 24, 1999,
a Bar complaint was made against Plaintiff
concerning settlement payments made to eight
clients Plaintiff represented in discrimination
lawsuits against Sheraton ITT. Id. at UK 76-79. The
Bar began an investigation of the complaint,
including a financial audit. Id. at KK 79-80.
After a 28-month investigation, Plaintiff
completed her own “permanent resignation
package” and hand-delivered it to Bar Counsel and
Judge Robert N. Scola, Jr., the referee assigned to
preside over The Bar case(s) opened as a result of
the investigation. Id. at KK 104-107. However,
Plaintiff failed to seek permission from the Florida
Supreme Court to resign as a member of The
Florida Bar. Id. at K 150 (“The Bar ... claimfed]
“that Telasco failed to file a proper petition for
resignation.”); see also, Rule 3-5. l(j) (2001), Rules
Regulating The Florida Bar. As a result, Plaintiffs
disciplinary proceedings continued to conclusion,
including the submission of an Amended Referee’s
Report by Judge Scola. Compl., KK 178-199. On
July 11, 2002, the Florida Supreme Court issued an
order that approved the report of referee and
disbarred Plaintiff. Id. at 203; Ex. C.

323a
In 2008, after becoming a resident of New York,
Plaintiff sought admission to The New York Bar.
Id. at 134, 141. In order to meet the requirements
for admission in New York, Plaintiff “made a
request for a grievance letter and a letter of good
standing from The Florida Bar.” Id. at 1| 142. The
Florida Bar “did not issue a letter of good
standing,” instead Plaintiff received a “grievance
letter.” Id. at HH 142-143. Plaintiff ultimately did
not submit her 2008 application to
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 3 of 15
The New York Bar. Id. at U 226. By 2009, Plaintiff
had discovered five Florida Bar disciplinary cases.
Id. at H 219. She attempted to challenge the order
of disbarment and filed a Petition for Writ of
Certiorari with the United States Supreme Court.
Id. The Petition was denied as untimely - having
been filed seven years after Plaintiffs disbarment.
Id.
In 2018, Plaintiff re-applied for admission to
The New York State Bar. Id. at 230. Plaintiff
received a letter from The Florida Bar dated March
23, 2018, which was “an exact match” to the 2008
letter she received from The Florida Bar. Id. at H
231. The March 23, 2018 letter (“Bar Letter”) was
addressed solely to Plaintiff at her service address
in this case located on Jay Street in Rochester, New
York. See Compl. at Ex. A. The letter identifies

324a
Plaintiffs disciplinary history, including her
emergency suspension in 2001 and her disbarment
in 2002. Id.
Plaintiff filed this lawsuit against The Florida
Bar on May 24, 2019. The Second Amended
Complaint (“Complaint”) alleges (1) defamation per
se; (2) common law general defamation; and (3)
defamation by implication. Plaintiffs 65-page, 318paragraph Complaint with 235 pages of exhibits
describes the disciplinary proceedings which led to
Plaintiffs disbarment. Plaintiff seeks damages
arising 18 years ago—purportedly stemming from
her 2002 disbarment—due to her inability to pay
her student loans since 2002 (f 306), stress
induced facial nerve neuroma in 2004 (% 307), and
home foreclosure in 2012 (f 305), among other
damages allegations.
ARGUMENT
I. PLAINTIFF’S CLAIMS ARE BARRED BY
ABSOLUTE IMMUNITY.
The application of absolute immunity is
appropriate to consider on a motion to dismiss
because the harm in requiring defendants to defend
a case through trial when the case should have
been dismissed at the earliest stages of litigation
are irreparable. Jenne v. Maranto, 825 So. 2d 409,
415 (Fla. 4th DCA 2002) (Erroneous denial of
immunity causes irremediable harm incapable

325a

Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 4 of 15
of being corrected on a final appeal). See, e.g.,
Douglas v. City of Dunedin, 202 So. 2d 787 (Fla. 2d
DCA 1967) (Affirmative defenses appearing on face
of complaint which clearly defeat claims for relief
are to be considered for purposes of motion to
dismiss).
The Florida Bar is an official arm of the Florida
Supreme Court, acting at all times under the
supervision and control of the Court. DadeCommonwealth Title Ins. Co. v. North Dade Bar
Ass’n, 152 So. 2d 723, 726 (Fla. 1963); Ch. 1,
Introduction, R. Regulating the Fla. Bar; R.
Regulating Fla. Bar 2-3.1 and 3-3.1. Florida state
and federal courts have consistently held that, in
the performance of its disciplinary functions, The
Florida Bar and its agents act as an official arm of
the Florida Supreme Court and enjoy absolute
immunity for such functions. E.g., Carroll v. Gross,
984 F.2d 392, 393 (11th Cir. 1993); Solomon v.
Supreme Court of Florida, No. 03-7002, 2003 WL
1873939 at *1 (D.C. Cir. April 2, 2003); Tindall v.
The Florida Bar, 1997 WL 689636 at *4, 11 Fla. L.
Weekly Fed. D312 (M.D. Fla. Oct. 14, 1997), affd,
163 F.3d 1358 (11th Cir. 1998); Ippolito v. State of
Florida, 824 F. Supp. 1562, 1572 (M.D. Fla. 1993);
Solomon v. Supreme Court of Florida, 816 A.2d
788, 789 (D.C. App. 2002); Kee v. Bailey, 634 So. 2d

326a
654 (Fla. 3d DCA 1994); Mueller v. The Florida
Bar, 390 So. 2d 449, 452-53 (Fla. 4th DCA 1980).
Likewise, federal circuit courts across the
nation have consistently applied absolute immunity
to professional regulatory boards and their
members, including bar related entities, with
respect to the conduct of their disciplinary
functions. See, e.g., Slavin v. Curry, 574 F.2d 1256,
1266 (5th Cir. 1978), overruled on other grounds,
604 F.2d 976 (5th Cir. 1979); Stein v. Disciplinary
Bd., 520 F.3d 1183, 1193-94 (10th Cir. 2008); Werle
v. Rhode Island Bar Assoc., 755 F.2d 195, 198-200
(1st Cir. 1985); Clulow v. Oklahoma, 700 F.2d 1291,
1298-99 (10th Cir. 1983), overruled on other
grounds, 731 F.2d 640 (10th Cir. 1984); Ginger v.
Circuit Court, 372 F.2d 621, 624-25 (6th Cir. 1967);
McFarland v. Folsom, 854 F. Supp. 862, 875 (M.D.
Ala. 1994); Ivancie v.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 5 of 15
State Bd. of Dental Exam’rs, 678 F. Supp. 1496,
1498 (D. Colo. 1988); Rosenfeld v. Clark, 586 F.
Supp. 1332, 1340 (D. Vt. 1984), aff’d, 760 F.2d 253
(2d Cir. 1985).
The overwhelming weight of the above-cited
authority demonstrates that The Florida Bar (and
its agents) are immune from suits premised upon
acts undertaken in an official capacity pertaining to

327a
disciplinary proceedings. As the Supreme Court has
noted, “the doctrine of judicial immunity is thought
to be in the best interests of ‘the proper
administration of justice ... [for it allows] a judicial
officer, in exercising the authority vested in him
[to] be free to act upon his own convictions, without
apprehension of personal consequences to himself.”’
Stump v. Sparkman, 435 U.S. 349, 363, 98 S. Ct.
1099 (1978) (quoting Bradley, 80 U.S. (13 Wall.) at
347). Irrespective of a judge’s status in the
hierarchy of the judicial system, the need for
independence and for freedom from the threat of a
suit for damages is an indispensable ingredient in
the proper administration of justice. Cf. Butz, 438
U.S. at 511, 98 S. Ct. 2894 (“Judges have absolute
immunity not because of their particular location
within the Government but because of the special
nature of their responsibilities.”).
Here, Ms. Telasco makes no factual allegations
to indicate that the absolute judicial immunity to
which The Bar is entitled was somehow overcome.
Judicial immunity can be overcome in only two sets
of circumstances. See Figueroa v. Blackburn, 208
F.3d 435, 443 (3d Cir. 2000). First, judicial
immunity provides no protections from liability
from nonjudicial acts, i.e. actions not taken within
judicial capacity. Id. Second, judicial immunity
provides no protections for actions, though judicial
in nature, taken in complete absence of all
jurisdiction. Id. Neither set of circumstances is
present here.

328a

The Bar Letter provided to Ms. Telasco is
wholly consistent with its official duties as an arm
of the Florida Supreme Court. Neither did The Bar
act in the complete absence of jurisdiction.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 6 of 15
The Supreme Court has instructed that in
determining the scope of a judge’s jurisdiction, that
jurisdiction
must be construed broadly where the issue is the
immunity of the judge. A judge will not be deprived
of immunity because the action he took is in error,
was done maliciously, or was in excess of his
authority; rather, he will be subject to liability only
when he has acted in the ‘clear absence of all
jurisdiction.
Stump, 435 U.S. at 356-57 (quoting Bradley, 80
U.S. (13 Wall.) at 351). Generally, therefore, where
there is some “jurisdiction, there is sufficient
jurisdiction for immunity purposes.” Barnes v.
Winched, 105 F.3d 1111, 1122 (6th Cir.1997).
Ms. Telasco alleges, among other things, that
The Bar intentionally fabricated disciplinary cases
and fraudulently misrepresented facts to the circuit
court and the Florida Supreme Court. Compl. e.g.,
HI 13, 50, 67, 144, 219. Even if true, which The

329a
Florida Bar disputes, The Florida Bar is still
entitled to judicial immunity. “Taken to its logical
extreme, the argument is that whenever a judge
makes an error of law or procedure in a matter
properly before him or her, that judge is not
entitled to judicial immunity or, stated somewhat
differently, a judge does not have jurisdiction to
make a mistake. That, of course, is preposterous.”
See Figueroa v. Blackburn, 208 F.3d 435 (3d Cir.
2000); see also, Tucker v. Ouiwater, 118 F.3d 930,
936 (2d Cir. 1997) (declaring that a judge’s failure
to follow local procedural rules in arraigning a
defendant is an act in excess of jurisdiction, but
such “mistakes are precisely the kind of‘procedural
errors,’ albeit ‘grave,’ that do not deprive a judge of
subject matter jurisdiction-or judicial immunity”)
(quoting Stump, 435 U.S. at 359, 98 S. Ct. 1099),
cert, denied, 522 U.S. 997, 118 S. Ct. 562, 139
L.Ed.2d 402 (1997).
Further, The Florida Bar is specifically entitled
to absolute immunity for defamation. In the
performance of its official functions, including
responding to inquiries regarding a former
member’s disciplinary history or status, The
Florida Bar is part of the judiciary and enjoys
absolute
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 7 of 15

330a
immunity from liability for claims for defamation.
Zavadil v. The Florida Bar, 197 So. 3d 596 (Fla. 4th
DCA 2016) (holding that “maintaining an accurate
public listing of attorneys, including whether or not
they are in good standing and able to practice, is an
integral part of The Bar’s duties, as is responding
to inquiries regarding an attorney’s status.”
(emphasis added)). Furthermore, even if Plaintiffs
claims are true, the absolute privilege protects
public servants from liability for defamation no
matter how false, malicious or badly motivated the
complained-of communication. E.g., McNayr v.
Kelly, 184 So. 2d 428 (Fla. 1966).
Mueller v. The Florida Bar is instructive. In
Mueller, an attorney disbarred by the Florida
Supreme Court filed an action against The Florida
Bar that included claims for defamation against
The Bar and one of The Bar’s employees for
releasing a press release containing allegedly
untrue information to the news media. This Court
pointed out that with regard to defamation, “the
rule in Florida is that words spoken or written by
public servants in judicial, legislative and executive
activities are protected by absolute privilege from
liability for defamation.” Mueller, 390 So. 2d at 451.
The Court noted that the rule extends only to the
words or acts that are within the scope or authority
of the public servant’s office. Id. The Court also
noted that precedent and public policy dictate that
a broad definition be given to the term “scope of
office.” Id. In affirming the dismissal of the

331a
complaint with prejudice, the Court found that it
was clearly within the scope of the authority of The
Bar employee, who was a staff counsel, to advise
appellant’s clients and his prospective clients,
including the public at large, of his disbarment. Id.
at 452. This Court went on to hold that The Bar
and its employee had absolute immunity from the
disbarred attorney’s lawsuit. Id. The Court found
that the privilege effectively barred further inquiry
into the accuracy of the information released or the
motives for releasing it. Id.; see also Spano, 968 So.
2d at 674-675 (affirming dismissal with prejudice of
a complaint for defamation against Florida Bar
employees
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 8 of 15
because “the alleged statements were absolutely
privileged because they were made by The Bar
employees in connection with their official duties”).
Here, Plaintiff complains regarding The Bar
Letter she requested setting forth her disciplinary
history and status with The Florida Bar. Compl.
230-231. The Florida Bar responded to her inquiry
as an integral part of its duties. As such, The
Florida Bar is absolutely immune from this suit.
I.

PLAINTIFFS CLAIMS FOR DAMAGES
ARE
BARRED
BY
ELEVENTH
AMENDMENT
IMMUNITY
AND

332a
APPLICABLE
LIMITATIONS.

STATUTE

OF

The Eleventh Amendment to the United States
Constitution bars suits against a state in federal
court, whether for damages or injunctive relief, in
the absence of a waiver by the state of its Eleventh
Amendment immunity. ^ Pennhurst State School
and Hosp. v. Halderman, 465 U.S. 89, 104 S. Ct.
900 (1984); Edelman v. Jordon, 415 U.S. 651, 94 S.
Ct. 1347 (1974). The “state” for Eleventh
Amendment
purposes
includes
state
instrumentalities such as The Florida Bar. Vierling
v. Celebrity Cruises, Inc., 339 F.3d 1309, 1314 (11th
Cir. 2003) (citing Shands Teaching Hosp. & Clinics,
Inc. v. Beech St. Corp., 208 F.3d 1308, 1311 (11th
Cir. 2000)); Kaimowitz v. The Florida Bar, 996 F.2d
392, 393 (11th Cir. 1993); Carroll, 984 F.2d at 393;
Geer v. Harkness, 1344 Fed. Appx. 312, 314 n.2
(11th Cir. 2005). In conducting its disciplinary
responsibilities, The Bar is acting in its official
capacity in the exercise of a delegated
constitutional function of the Court. Ippolito v.
State of Florida, 824 F. Supp. 1562, 1574 (M.D.
1993). See also Fla. Const. Art. V §
1 The Eleventh Amendment to the United States
Constitution provides:
The Judicial power of the United States shall not
be construed to extend to any suit in law or equity,
commenced or prosecuted against one of the United

333a
States by Citizens of another State, or by Citizens
or Subjects of any Foreign State.
U.S. Const, amend. XI.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 9 of 15
15. As such, actions for damages against The Bar
arising out of such disciplinary functions cannot be
entertained by Federal courts. Kaimowitz v. The
Florida Bar, 996 F.2d 1151 (11th Cir. 1993).
Finally, Plaintiff seeks monetary recovery for
purported
damages
arising
from
her
unemployability after her disbarment in 2002
(unpaid student loan payments), 2004 (stress
induced ear and facial tumor), 2005 (inability to
advance in the entertainment industry), 2008 (loss
of potential clients and associates who reviewed
dockets), and 2012 (home foreclosure). Compl. at TI1|
305-307, 314. The statute of limitations for
defamation in Florida is two years. Fla. Stat.
§95.11(4)(g). Even if Plaintiffs allegations were
true, documented, non-speculative, and not barred
by Eleventh Amendment immunity, Plaintiffs
claims for damages stemming from her 2002
disbarment are time-barred.
II.

THE
SECOND
AMENDED
COMPLAINT FAILS TO STATE A

334a
CLAIM UPON WHICH
CAN BE GRANTED.

RELIEF

To state a claim for defamation under Florida
law, a Plaintiff must plausibly allege five elements
(1) publication; (2) falsity; (3) knowledge or reckless
disregard as to the falsity, or at least negligence on
a matter concerning a private person; (4) actual
o

damages ; and (5) that the statement be
defamatory. Jews for Jesus v. Rapp., 997 So. 2d
1098, 1106 (Fla. 2008). Plaintiff has not plausibly
alleged any of the five requisite elements, most
notably the requirement that there be a publication
of a false or defamatory statement.

p

Plaintiff cannot connect any of her claims for
defamation with a valid basis for damages. Her
damages, as alleged in the Second Amended
Complaint, are the result of disciplinary findings
and Orders by the Florida Supreme Court, not the
March 2018 Bar Letter addressed to her with a
recitation of her disciplinary history. Because of the
Eleventh Amendment immunity afforded The
Florida Bar, Plaintiff cannot recover on a claim for
damages. See § II, supra.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 10 of 15

335a
A. Plaintiff Has Not Plausibly Alleged the
Element of Publication.
Plaintiffs initial complaint was filed some 17+
years after her disbarment and claims damages
allegedly arising from a March 23, 2018,
publication of defamatory statements to The New
York Bar. In support of its allegations, Plaintiffs
Second Amended Complaint repeatedly alleges that
The Florida Bar “published” information “to The
New York Bar” on March 23, 2018. Amd. Compl. UK
238, 242, 244-246, 248. But this repetitive
allegation
is
conclusory
and
definitively
contradicted by the exhibits to the Complaint,
which show The Florida Bar did not “publish”
anj'thing to The New York Bar.
Plaintiff alleges publication through her own
submission to The New York Bar. Id. at Ex. R2.
However, Florida has not recognized a compelled
self-defamation exception to the publication
requirement.
See
Valencia
v.
Citibank
International, 728 So. 2d 330 Fla. 3d DCA 1999)
(holding that Florida law does not provide for the
elimination of the requirement of publication to a
third person under the doctrine of compelled self­
defamation, “nor are we prepared to create such an
exception.”). Hence, Plaintiff fails to allege the
“publication” of any information to a third-party as
required for a plausible claim of defamation. See,
e.g., Doe v. Am. Online, Inc., 783 So. 2d 1010, 1016
(Fla. 2001) (noting that publication in a defamation

336a
claim requires the dissemination of false
information to a person other than the defamed
person).
Here, The Florida Bar did not communicate any
information regarding Telasco to The New York
Bar, or anyone else, other than Telasco herself who
is the allegedly defamed individual. As such,
Plaintiff cannot plausibly allege the existence of
“publication” necessary to maintain her claims.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 11 of 15
B. Plaintiff Has Not Plausibly Alleged the
Existence of a False or Defamatory
Statement.
Plaintiff admits the existence of her
disciplinary cases. Compl. at 74-232. Just because
Plaintiff believes that the underlying disciplinary
cases were “fabricated” or “fraudulent” does not
change the fact that the disciplinary cases exist.
The Bar Letter truthfully set forth the facts
contained in Plaintiffs disciplinary history as
acknowledged in the allegations of the Complaint.
Id. The Bar Letter merely recited the facts
contained in Plaintiffs disciplinary history,
including her emergency suspension in 2001 and
her disbarment in 2002.

337a
Further, while Plaintiffs Complaint makes it
perfectly clear that she believes she “resigned” and
should not have been “disbarred,” she attaches no
evidence to plausibly establish that she was
allowed to resign in 2001 in accordance with thenq
existing Rule 3-5.1(j)° of the Rules Regulating The
Florida Bar, which provided in pertinent part:
A respondent may be allowed to resign membership
in The Florida Bar in lieu of defending against
allegations of disciplinary violations. If accepted by
the Supreme Court of Florida, a disciplinary
resignation terminates the respondent’s status as a
member of the bar (emphasis added).
Plaintiff did not and cannot allege that she ever
sought permission from the Florida Supreme Court
to resign from The Florida Bar in 2001, because she
did not. She simply filed a “letter of immediate and
permanent resignation” in one of the disciplinary
cases, which was regarded as a nullity and of no
legal consequence.
Because she did not seek or obtain permission from
the Florida Supreme Court to resign as a member
of The Florida Bar, as required by then-existing
Rule 3-5.10), she was ultimately

q

To the extent necessary, the Court may take
judicial notice of the Rule 3-5. l(j) in accordance

338a
with F.R.E. 201(b) and (c) as the substance of the
Rule in existence at the time of Plaintiffs
disciplinary proceedings in 2001 and 2002 can be
accurately and readily determined from sources
whose accuracy cannot reasonably be questioned.
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 12 of 15
disbarred at the conclusion of her disciplinary
proceedings. The fact that she was disbarred is not
false or defamatory, and cannot supply the basis for
a claim of defamation.^
C. The Florida Bar is Immune from Liability
for Defamation, Pursuant to Section
768.28(9), Florida Statutes.
Plaintiffs defamation claims fail pursuant
Section 768.29(9), Florida Statutes. Section
768.29(9)(a), Florida Statutes, states in pertinent
part:
No officer, employee, or agent of the state or of any
of its subdivisions shall be held personally liable in
tort or named as a party defendant in any action
for any injury or damage suffered as a result of any
act, event, or omission of action in the scope of her
or his employment or function, unless such officer,
employee, or agent acted in bad faith or with
malicious purpose or in a manner exhibiting

339a
wanton and willful disregard of human rights
safety, or property.
The Second Amended Complaint fails to allege
any conduct or motive that would place The Florida
Bar within the exception stated in the above quoted
provision. In this regard, Plaintiffs conclusory
allegations are insufficient to withstand a motion to
dismiss. See P.C. B. Partnership v. City of Largo,
549 So. 2d 738 (Fla. 2d DCA 1989); McClelland v.
Cool, 547 So. 2d 975 (Fla. 2d DCA 1989).
^ In any event, a statement that is substantially
true is not actionable as defamation, if the “gist” or
the “sting” of the statement is correct. Jews for
Jesus, 997 So. 2d at 1108-09. Under the substantial
truth doctrine, a statement does not have to be
perfectly accurate to be true for purposes of a
defamation claim. See Smith u. Cuban American
Nat. Foundation, 731 So. 2d 702, 706 (Fla. 3d DCA
1999) (citing Masson v. New Yorker Magazine, 501
U.S. 496, 517 (1991); Haynes v. Alfred A. Knopf,
Inc., 8 F.3d 1222, 1227 (7th Cir. 1993); Nelson v.
Associated Press, Inc., 667 F. Supp. 1)1468, 1477
(S.D. Fla. 1987); Woodard v. Sunbeam Television
Corp., 616 So. 2d 501, 503 (Fla. 3d DCA 1993);
McCormick v. Miami Herald PubTg Co., 139 So. 2d
197, 200 (Fla. 2d DCA 1962). Any discrepancies
Plaintiff may have with the terms of The Florida
Bar’s letter reciting her disciplinary history are not
actionable because of the substantial truth
doctrine.

340a

Case l:19-cv-22135-RS
Document 66
Entered on FLSD Docket 03/26/2020 Page 13
of 15
III. PLAINTIFF’S

CLAIMS

ARE

OTHERWISE BARRED BY THE
ROOKER- FELDMAN DOCTRINE.
To the extent Plaintiff seeks this Court’s review
or reversal of the disbarment order that she
sincerely believes was fabricated, Plaintiffs claims
are barred by the Rooker-Feldman doctrine.
The Rooker-Feldman doctrine precludes federal
courts from reviewing final state court decisions in
judicial proceedings. “It is well-settled that a
federal district court lacks jurisdiction to review,
reverse, or invalidate a final state court decision.”
Dale v. Moore, 121 F.3d 624, 627 (11th Cir. 1997)
(citing District of Columbia Court of Appeals v.
Feldman, 460 U.S. 462 (1983); Rooker v. Fidelity
Trust Co., 263 U.S. 413, 416 (1923)). “The doctrine
applies not only to claims actually raised in the
state court, but also to claims that were not raised
in the state court but are ‘inextricably intertwined’
with the state court’s judgment.” Powell v. Powell,
80 F.3d 464, 467 (11th Cir. 1996).
Rooker-Feldman is derived in part from 28
U.S.C. § 1257, wherein Congress prescribed that:

341a
Final judgments or decrees rendered by the highest
court of a State in which a decision could be had,
may be reviewed by the Supreme Court by writ of
certiorari where the validity of a treaty or statute
of the United States is drawn in question or where
the validity of a statute of any State is drawn in
question on the ground of its being repugnant to
the Constitution, treaties, or laws of the United
States, or where any title, right, privilege, or
immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any
commission held or authority exercised under, the
United States.
28 U.S.C. § 1257(a). In short, the United States
Supreme Court is the only court with potential
appellate jurisdiction over final decisions in state
court proceedings for all issues actually raised and
all issues not raised but inextricably intertwined
therewith.
Here, Plaintiff purports to seek damages for the
last 19 years of harms caused by the Order
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 14 of 15
of Disbarment. Compl.
302-316. Plaintiff alleges
that her sole reason for re-applying to The New
York Bar was not to practice law. Id. at 233. Her
hope was that the '‘New York Bar would review all
of the evidence that she has produced ... and view

342a
[her disbarment as] a fabrication by The Florida
Bar.” Id. Unfortunately, Plaintiffs attempt to have
her disbarment order reviewed by the United
States Supreme Court, the only court with
jurisdiction to review orders of the Florida Supreme
Court, was initiated too late. Plaintiff cannot now
challenge her disbarment or the documents
associated with her disciplinary action in this court
due to the Rooker-Feldman doctrine.
IV.

CONCLUSION

For the foregoing reasons, and because further
amendment would be futile, The Florida Bar
respectfully requests that this Court grant its
Motion to Dismiss the Second Amended Complaint
with prejudice. See Sibley v. Lando, 437 F.3d 1067,
1073 (11th Cir. 2005) (finding that “the district
court did not abuse its discretion in declining to
permit [plaintiff] to amend his complaint because
that amendment, as well as the other requested
actions, would be futile”); Nelson v. U.S., 392
Fed.Appx. 681, 684 (11th Cir. 2010); Case v. Riley,
270 Fed.Appx. 908, 911 (11th Cir. 2008); Salas v.
Pierce, 297 Fed.Appx. 874, 879 (11th Cir. 2008);
Nettles v. G. Harry Stopp, Jr., P.A., 2009 WL
54889, *3 (N.D. Fla. Jan. 06, 2009); Rogers v.
Barron, 2008 WL 4274489, *5 (N.D. Fla. Sep. 11,
2008).
Case l:19-cv-22135-RS Document 66 Entered
on FLSD Docket 03/26/2020 Page 15 of 15

343a

sfKarusha Y. Sharpe
Karusha Y. Sharpe
Florida Bar No. 0540161
Barry Richard
Florida Bar No. 105599
Greenberg Traurig, P.A.
101 East College Avenue
Tallahassee, FL 32301
Telephone: (850) 222-6891
sharpek@gtlaw.com
s: hoffmanm@gtlaw.com
richardb@gtlaw.com
s: trammellc@gtlaw.com
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was filed via the CM/ECF
system which will serve Plaintiff via email, as
consented to, this 26th day of March, 2020.
S!KARUSHA Y. SHARPE
ACTIVE 49342689vl

344a
APPENDIX E
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 1 of 25
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
ANNE GEORGES TELASCO
Rochester, New York
Plaintiff,
Civil Action
No.:19-CV-22135-RS
v.
THE FLORIDA BAR,
Suite M100, Rivergate Plaza
444 Brickell Avenue
Miami, Florida 33131-2404
Defendant.

PLAINTIFFS MEMORANDUM OF LAW IN
OPPOSITION TO DEFEDANT’S MOTION TO
DISMISS SECOND AMENDED VERIFIED
COMPLAINT WITH PREJUDICE

345a

Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 2 of 25
I. INTRODUCTION
Telasco
respectfully
submits
this
Memorandum of Law in opposition to The Florida
Bar’s Motion to Dismiss Second Amended Verified
Complaint with Prejudice (D.E. 66) under Federal
Rules of Civil Procedure 12(b)(1) and Rule 12(b)(6).
Telasco’s Complaint (D.E. 53) alleges three
causes of action.
Count I for Common Law
Defamation Per Se,
Count II for General
Defamation, and Count III for Defamation by
Implication. See Second Amd. Verified Compl. H
237-317.
II. LEGAL STANDARDS
A) Legal Standard for a 12(b)(1) Motion to
Dismiss
Rule 12(b)(1) of the Federal Rules of Civil
Procedure provides that in considering a motion to
dismiss for lack of subject matter jurisdiction, this
court must apply 28 USC §1332 (a)(1) which
grants original jurisdiction of all civil actions where

346a

i

the matter in controversy exceeds the sum of
$75,000.00 between citizens of different states.
Telasco adequately pled that her causes of action
exceeds $75,000.00 and complete diversity exist
between herself, a citizen of New York, and The
Florida Bar, a citizen of Florida. See Second Amd.
Verified Compl. f 1-3.
The Bar is also a state agency and the
jurisdiction of this court over it and Telasco’s tort
action for defamation are authorized by Florida
Statute Section 768.28. Furthermore, Telasco has
timely complied with the pre-suit notice
requirement of Section 768.28(6)(a). See Second
Amd. Verified Compl. ^ 4-7. Telasco’s traditional
tort action is timely under §768.28(6)(a), Fla. Stat.
(2019); 157 Fla. Stat. Section §95.11(4)(g) (2019);158
and Florida’s Multiple Publication Rule
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 3 of 25

157 «

An action may not be instituted on a claim against the state
or one of its agencies or subdivisions unless the claimant presents the
claim in writing to the appropriate agency, and... to the Department of
Financial Services, within 3 years after such claim accrues ....” §
768.28(6)(a), Fla. Stat. (2019).
158

Florida Statutes Section 95.1 l(4)(g) (2019) places a two-year
limitation on defamation actions. Section 95.11 is applicable because
Plaintiffs claim is not distinguishable in any material respect from a
traditional common law libel per se claim.

347a
which states that an action for defamation accrues
whenever a defamatory statement is made, and
each repetition of the same defamatory matter by
the same defamer, whether to a new person or to
the same person, is a separate and distinct
publication, for which a separate cause of action
arises. Thus, each single defamatory statement
constitutes a new cause of action for statute of
limitation purposes. See Doe v. Am. Online. Inc..
783 So2d 1010, 1017 (Fla. 2001); Musto v. Bell
South Telecommunications. 748 So.2d 296 (Fla.
App. 1999); and Wagner. Nugent. Johnson. Roth.
Romano. Erikson & Kuvfer. P.A. u. Flanagan. 629
So.2d 113, 114 (Fla. 1993). See Second Amd.
Verified Compl. 1) 10.
B) Legal Standard for a 12(b)(6) Motion to
Dismiss
To survive a Rule 12(b)(6) motion to dismiss,
a plaintiff must plead sufficient facts to state a
claim that is "plausible on its face."
To meet
this "plausibility standard," a plaintiff must"plead
factual content that allows the court to draw the
reasonable inference that the defendant is liable for
the misconduct alleged." See Ashcroft u. Iqbal. 556
U.S. 662, 678 (2009). In considering the motion, the
court accepts all factual allegations of the complaint
as true and construes them in the light most
favorable to the plaintiff. See Pielage v. McConnell.
516 F.3d 1282, 1284 (11th Cir. 2008).

348a
Courts should limit their "consideration to the
well-pleaded factual allegations, documents central
to or referenced in the complaint, and matters
judicially noticed." See La Grasta v. First Union
Sec„ Inc.. 358 F.3d 840, 845 (11th Cir. 2004).
A complaint should not be dismissed for
failure to state a claim unless it appears "beyond
doubt that the plaintiff can prove no set of facts in
support of his claims which would entitle him to
relief." See Conley v. Gibson. 355 U.S. 41, 45-46
(1957) and Cortec Ind.. Inc, v. Westinshouse Credit
Coro.. 503 U.S. 960 (1992).
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 4 of 25
The Florida Bar’s Motion to Dismiss (D.E.
66) alleges that 1) It is afforded absolute immunity
from liability in the performance of its disciplinary
responsibilities; 2) Telasco’s claims for damages are
barred by the Eleventh Amendment to the United
States Constitution and the applicable statute of
limitations; 3) The Second Amended complaint
fails to state a claim upon which relief can be
granted; and 4) To the extent Telasco seeks review
or reversal of her disciplinary proceedings, her
claims are barred by the Rooker-Feldman doctrine.
Telasco has reviewed all the authorities cited
by The Bar and finds them to be uniformly

349a
distinguishable because the cases refer to actions
grounded in “constitutional tort.”
C) The Bar has not Presented anv Evidence to
Warrant Dismissal with Prejudice
“In most circumstances, the trial court’s
dismissal of a complaint for failure to state a cause
of action should be without prejudice to the
plaintiffs amendment to the complaint to cure the
deficiencies.” See K.R. Exch. Serv.. Inc, v. Fuerst.
Humphrey. Ittleman, PL. 48 So.3d 889, 895 (Fla.
3rd DCA 2010). Telasco’s Second Amended
complaint should not be dismissed with prejudice
since 1) she had not abused the privilege of
amending; 2) The Bar has not demonstrated that it
would be prejudice by this court’s granting an
amendment; and 3) it has not established that an
amendment would be futile. See Exposito v. Pub.
Health TYust of Miami-Dade Cntv.. 141 So.3d 663
(Fla. 3rd DCA 2014). In Retv v. Green. 546 So.2d
410, 417, 426 (Fla. 3rd DCA 1989), Rety proceeded
to trial on his sixth amended complaint. The court
held that the trial court properly allowed an
amendment to Rety’s defamation count to correct a
technical error therein because no prejudice to the
said defendant was shown below.

III. STATEMENT OF FACTS RELEVANT TO
MOTION

350a
Telasco’s causes of action are grounded on
The Florida Bar’s malicious, willful, and/or
negligent publishing of the Grievance Letter dated
March 23, 2018 which automatically
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 5 of 25
incorporated the Amended Referee’s Report dated
April 29, 2002 and Judgment of Disbarment for
theft dated July 11, 2002 to The New York Bar. See
Second Amd. Verified Compl. f 11.
Background: After five years working on 8
discrimination cases, the cases settled for $300,000.
See Second Amd. Verified Compl. H 56-67. Prior to
Telasco’s acceptance of the cases, Mr. Baptiste and
the other 7 clients had attempted to secure the
services of another attorney, Jonathan D. Wald (a
Caucasian attorney), who advised them that the
case was a hard case to prove since EEOC had
made a previous finding that there was no
discrimination by Sheraton ITT and most
importantly, he demanded $5,000.00 from each of
the 8 clients as a retainer which they did not have.
With Mr. Wald’s decision not to represent them, the
clients then sought Telasco’s representation. After
the case settled, Mr. Baptiste requested a higher
payout and demanded to exclude the two clients
who did not receive a money judgment at trial.
Telasco Refused. See Second Amd. Verified Compl.
1 74-76.

351a

Thereafter, Mr. Baptiste took the itemized
settlement statement he received from Telasco to
Mr. Wald, who then demanded that Telasco provide
him with a copy of the confidential settlement
agreement and access to her files, claiming a need
to review her costs and expenditures against the
itemized settlement statements she had given to
her 8 Haitian clients. Telasco refused his request.
Mr. Wald sent a letter to The Bar on November 24,
1999 demanding that a formal grievance be filed
against Telasco. Mr. Wald’s letter propelled the
investigation to disbar Telasco. See Second Amd.
Verified Compl. H 77-79, 168-170.
The Bar assigned its auditor, Mr. Carlos J.
Ruga, who had been working with The Bar for over
15 years and had conducted over 500 audits for The
Bar, to audit Telasco’s financial records by
reconciling her receipts, cashed checks, expenses,
and invoices with the costs and expenses outlined
in the settlement statement. On July 14, 2000, Mr.
Ruga issued his report
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 6 of 25
which stated that all of the costs and expenses
listed in the settlement statements had been
incurred and properly paid for. The Bar ignored
Mr. Ruga’s report and refused to give a copy of the
report to Telasco. The Bar’s case against Telasco

352a
continued for another 16 months (1 year and 4
months) after it received Mr. Ruga’s Report. See
Second Amd. Verified Compl. f 80-95.
On Friday, October 26, 2001, 28 months (2
years and 4 months) into the case, The Bar
prepared and presented Telasco with a boiler plate
Petition for Disciplinary Resignation and an
Affidavit for Telasco’s signature. Telasco was told
by her attorney at that time, Mr. William Ullman
and Mr. Randolph Brombacher, Bar counsel, that
all she needed to do was to sign the resignation
documents in order to resign and signing the
documents would end her troubles. The resignation
documents made no mention of Mr. Ruga’s report
or the professional Creole translator’s affidavit (See
Second Amd. Verified Compl. If 68), as they recite
the same charges the auditing report states were
without merit, that is, “Telasco failed to properly
disburse funds and allocate costs in the settlement
to her former clients.” See Second Amd. Verified
Compl. If 96-102. Paragraph 4 (b) of the petition for
disbarment reflects that for the almost 10 years in
practice at that time, Telasco had never been
disciplined, reprimanded, investigated, sued for
malpractice nor prosecuted for any unethical or
criminal behavior. See Second Amd. Verified
Compl. If 103.
Telasco informed Mr. Ullman that she would
not sign the resignation documents. Mr. Ullman
told her that her refusal to sign the resignation

353a
documents was like 'waving a red flag in front of a
raging bull.” The stress of the 2 years and 4
months long investigation had taken its toll on
Telasco’s mental, emotional, physical wellbeing and
had drained her finances. On Tuesday, October 30,
2001, two working days after The Bar presented
Telasco with the resignation documents, she
prepared her own resignation which included all of
the depositions
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 7 of 25
and pertinent documents she had generated in
representing herself against Mr. Wald’s claim and
hand-delivered them to The Referee, Judge Robert
N. Scola, and The Bar. See Second Amd. Verified
Compl. H 104-106.
During October 31 through November 5,
2001, South Florida was under hurricane Michelle
watch. See Hurricane info attached as Exhibit “A.”
On November 6, 2001, Telasco went to her bank,
purchased the cashier’s check from her trust
account and thereafter closed her operating and
trust accounts. Telasco hand-delivered the notice
of filing settlement funds, the cashier’s check
payable to The Florida Supreme Court in the
amount of $49,147.70, the sum owed to her former
clients which had never been collected, to Judge
Scola and The Bar. Judge Scola’s Bailiff signed the

354a
delivery receipt. See Second Amd. Verified Compl.
107.
The Bar deliberately confiscated the check
Telasco submitted for distribution to her 8 former
clients and proceeded to lead Telasco’s clients and
the court to believe that Telasco stole these same
settlement funds.
See Second Amd. Verified
Compl. H 168-170.
The Bar falsified and doctored an affidavit
which it claimed is a product of Mr. Ruga’s audit
and presented it to The Referee. This affidavit
claimed that a) Telasco violated Section 812.014 of
the Florida statutes, a second degree felony,
because she misappropriated $80,000.00 of her
clients’ settlement funds when The Bar had
actual possession and control of the same
funds; b) that Telasco’s conduct, characteristics,
and condition are incompatible with the proper
exercise of her legal profession when Telasco was
in good standing with the Bar, the courts and
her clients for the almost 10 years of practice;
c) Telasco is not trustworthy as an individual and
business associate; and d) Telasco is a clear and
present danger to the public as a licensed and
practicing attorney (“The Bar’s actions” or “its
actions”). See Second Amd. Verified Compl. ^ 162166.
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 8 of 25

355a

Based on The Bar’s actions and fraudulent
representations to the court, the Referee entered an
amended report on April 29, 2002 adopting and
legitimizing The Bar’s false claims and
recommended that Telasco be disbarred for theft
because 1) she stole $80,000.00 from her clients,
and 2) her conduct and character make her a clear
and present danger to the public as a licensed
practicing attorney. See Second Amd. Verified
Compl. H 179-199. This ex parte and by default
Theft Judgment has and continues to subject and
expose Telasco to hatred, distrust, ridicule,
contempt, disgrace and obloquy. See Second Amd.
Verified Compl. 11 136-140, 159, 243, 257.
A. Timeline - The Bar and the Settlement
Funds Telasco Submitted to it
On April 19, 2002, The Bar sought and
obtained an order to reissue the cashier’s check it
received from Telasco on November 6, 2001 to be
made payable to the Clerk of Court, as that check
was now-stale dated. See Second Amd. Verified
Compl. I) 201. On April 24, 2002, The Bar
deposited the reissued check using a different file it
created in the circuit court. See Second Amd.
Verified Compl. U 166(d). The Bar misnamed the
file The Florida Bar v. Petition for Inventory
Attorney so Telasco would never discover it if she
had searched the circuit court data and the case
would remain under The Florida Supreme Court’s

356a
radar since it reported to said court that Telasco
stole all of her clients’ funds and made no
distribution to her clients.
See Second Amd.
Verified Compl. K 202, 212-218. The Bar kept a
copy of Mr. Wald’s renewed petition to disburse
funds which he filed in this case using the proper
case name in Telasco’s in-house bar file. This
motion insinuates that there was a criminal case
pending against Telasco by the state attorney’s
office because The Bar did not know the source of
the funds Telasco submitted to it. See Second Amd.
Verified Compl. H 177(d). The docket of this case
was pulled
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 9 of 25
32 times as of September 2008 when Telasco
discovered it. See Second Amd. Verified Compl. f
207-218.
On April 29, 2002, 10 days after The Referee
entered the order to reissue the stale-dated check,
he filed his report recommending that Telasco be
disbarred for theft. See Second Amd. Verified
Compl. t 200-202.
The Bar deliberately manipulated the
dockets of each of the 5 cases it fabricated against
Telasco in bad faith, with the motive and with the
malicious purpose of giving the court, prospective
clients and potential business associates of Telasco

357a
the false impression that Telasco is a thief, she is
untrustworthy,
shameless,
unethical,
unscrupulous, unprincipled and should be shunned
and ostracized from all that is decent. See Second
Amd. Verified Compl. If 14, 206.
In 2018, Telasco studied for The New York
Bar exam and re-applied for admission to said Bar.
The New York Bar requested a grievance letter for
Telasco from The Florida Bar. The purpose of this
letter is to inform the requesting third party, The
New York Bar, of any character flaws and/or
grievance proceedings filed against Telasco, the
nature of said proceedings, and their outcome. See
Second Amd. Verified Compl. If 230. The Bar is
well aware of this procedure as it is customary for
all state bars, including The Florida Bar, to make
such a request from bar applicants. The Grievance
Letter with its accompanying documents is The
Florida Bar’s response to The New York Bar’s
inquiry about Telasco’s status. See Second Amd.
Verified Compl. ^ 247-248.
On or about March 27, 2018, Telasco
received the grievance letter from The Florida Bar
dated March 23, 2018. This grievance letter was
an exact match to the 2008 grievance letter The
Bar issued in response to The New York Bar’s
inquiry. The March 23, 2018 grievance letter was
issued 10 years after The Florida Supreme Court
and The Florida Bar became fully aware,

358a
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 10 of 25
via Telasco’s writ of certiorari filed with the United
States Supreme Court on February 20, 2009, that
its judgment of disbarment for theft against Telasco
was fraudulently acquired and is the product of
fabricated charges. See Second Amd. Verified
Compl. H 230-232, 255-257.
Detailed facts supported with undisputed
direct documentary evidence of The Bar’s
fraudulent actions, the gravamen of its judgment of
disbarment for theft against Telasco are delineated
with specificity in paragraphs 50-218 of the Second
Amended Verified Complaint.
As a direct and proximate result of The Bar’s
actions, Telasco suffered and continues to suffer
significant harm and damages which naturally,
proximately, and necessarily result from the
publication of the libelous letter (“damages”). See
Second Amd. Verified Compl. ^ 302-315.
IV. ARGUMENT
A) Pleading Requirement
In Brown v. McKinnon. 964 So.2d 173 (Fla.
3rd DCA 2007) the court held that Section
768.28(9)(a), Fla. Stat. (2005) makes clear that in
order for a plaintiff to succeed in piercing the

359a
statutory immunity defense, she must make a good
faith allegation in the complaint that the state
agency either “acted outside the scope of its
authority,” “in bad faith,” “malicious purpose” or
11a manner exhibiting wanton and willful disregard
of human rights, safety, or property." Telasco’s
Second Amended Complaint properly and
affirmatively alleges detailed facts supported by
undisputed direct evidence that The Bar acted
outside the scope of its duties and authority, in bad
faith, with malicious purpose and with reckless
disregard for the truth. See Second Amd. Verified
Compl. 1| 259-264, 273.
B) The Rooker-Feldman Doctrine is not
Applicable to Telasco’s Traditional Tort
Action
Under The Rooker-Feldman doctrine, a
“frustrated bar applicant” may bring one of two
constitutional tort challenges in federal court
against The Bar. The first is a challenge to a
state's
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 11 of 25
general rules and procedures governing admission
to the state's bar; and the second is a challenge to
a state court's decision that has resulted in the
unlawful denial of admission to a bar applicant.”
Booker v. Fidelity Trust Co.. 263 U.S. 413, 416

360a
(1923).
The gravamen of Telasco’s traditional
defamation action rests upon The Florida Bar’s
tortious actions of defaming her. She is seeking
compensation for the severe harm caused to her as
a direct and proximate result of The Bar’s tortious
actions. See Second Amd. Verified Compl. H 237317. Telasco is not seeking to have the judgment of
disbarment for Theft reversed or modified and she
is not seeking a declaratory and/or injunctive relief
to undo said judgment. The Doctrine is not
applicable to Telasco’s action.
C) The
11th Amendment to
the
U.S.
Constitution does not Bar Telasco’s Tort

Action
In Uberoi v . Supreme Court of Florida. 819
F.3rd 1311 (11th Cir. 2016) the court held that “The
Florida Supreme Court [The Florida Bar] is a
Department [Agency] of the State of Florida.”
The Florida Legislature has waived
sovereign immunity from traditional tort suits to
the extent set out in Section 768.28, Florida Statute
(2018). The statute authorizes recovery of tort
damages against Florida or any of its agencies or
subdivisions for "negligent or wrongful acts of any
[state agency] employee while acting within the
scope of his office [it’s authority]." Id. § 768.28(1).
The waiver is limited to circumstances in which the
state would be liable if it were a private person. Id.
§ 768.28(1), (2). Moreover, the statute provides

361a
that the state or its agencies may be held liable for
damages for traditional torts under state law "in
accordance with the general laws of this state" Id. §
768.28(1). See Rudloe v. Karl 899 So.2d 1161 (Fla.
1*DCA 2005).
In Trianon Park Condominium Ass'n, Inc, v.
City of Hialeah. 468 So.2d 912, 917 (Fla. 1985) the
court held that <lThe statute’s [768.28] sole purpose
was to waive that immunity which prevented
recovery for breaches of existing common law duties
of care. ...This effectively means
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 12 of 25
that the identical existing duties for private
persons apply to governmental entities.”
See
Gamble, 779 F.2d at 1514-1515.
In Paul o. Davis. 424 U.S. 693 (1976) the
court held that when defamation is committed by a
public body, it is not a constitutional tort because
the interest in reputation that the common law tort
of defamation protects is not a species of liberty or
property within the meaning of the due process
clauses of the Fifth and Fourteenth Amendments.
In Rudloe. Mr. Rudloe filed a complaint
alleging that Dr. Karl's account defamed him by
insinuating that he had stolen a "priceless
Neopilina specimen... from the lab [because the
rare specimen] ... later show[ed] up for sale in Mr.

362a
Rudloe's Gulf Specimen Company catalog." FSU
filed a motion to dismiss "on the basis of sovereign
immunity." The trial court granted FSU's motion to
dismiss. The District Court reversed the order
holding that “Sovereign immunity is no bar to Mr.
Rudloe’s negligent defamation claim.... We find no
merit in FSU's highly problematic assertion that it
enjoys blanket immunity for anything editors of its
alumni publications say, write or allow to be
published about FSU alumni....Like the supreme
court in City of Pinellas Park v. Brown, 604 So.2d
1222, 1226 (Fla. 1992), we cannot accept [FSU]
petitioners' argument in favor of sovereign
immunity in this case..." Id at_1165.
In Mueller v. Florida Bar. 390 So.2d 449,
451 (Fla. 4th DCA 1980) the court held that “In the
area of defamation, the rule in Florida is that
words spoken or written by public servants in
judicial ... activities are protected by absolute
privilege from liability for defamation. ... the
privilege extends only to words or acts within
the scope of the authority of the public
servant. ...We have previously distinguished
absolute privilege from the concept of sovereign
immunity." See Cobbs Auto Sales. Inc, v. Melvin
Coleman. 353 So.2d 922 (Fla. 4th DCA 1978).
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 13 of 25

363a
In Cobbsj the court held that, “The defense of
privilege is a separate and distinct concept from
sovereign immunity... The doctrine of sovereign
immunity was a rule laid down by the ruling
authority that he, because he was the ruler, could
do no wrong and therefore was immune from any
charges that he had done wrong. The legislature,
by enacting Section 768.28, decided this common
law doctrine should be removed from the law of
Florida....”
Base on the foregoing, The Bar is a state
agency subject to Section 768.28 and The 11th
Amendment to the U.S. Constitution is inapplicable
to Telasco’s claim.
D) It is Improper for The Bar to Raise the
Affirmative Defense of Absolute Immunity
in a Motion to Dismiss
In Randazzo v. Faver, 120 So.3d 164 (Fla. 1st
DCA 2013) The court was taxed with an order
granting a motion to dismiss. The court held “... we
find that it was improper to raise the affirmative
defense of absolute immunity in a motion to dismiss
because its applicability is not “clearly
apparent on the face of the complaint ...
Immunity is a fact intensive issue that may be
raised in a motion to dismiss only in “exceptional
cases in which the facts giving application to the
defense are clearly apparent on the face of the
complaintAlso See Schreidell v. Shoter, 500

364a
So.2d 228 (Fla. 3d DCA 1987); Riggs v. Cain, 406
So.2d 1202, 1203 (Fla. 4th DCA 1981).
In reversing the order granting the “Motion
to Dismiss on Witness [judicial] Immunity” the
court held that “it is not clear from the four corners
of Appellant’s complaint that the defense of
absolute immunity applies to the allegedly
defamatory statement ... Nor can we determine
from the complaint that Appellee's allegedly
defamatory statement was made in the course of an
ongoing judicial or quasi-judicial proceeding and
was related to the subject of inquiry...”
In Fariello v. Gavin. 873 So. 2d 1243 (Fla. 5th
DCA 2004) the court held that "... immunity is an
affirmative defense that should be pled by the
party asserting it, and which may thereafter be
considered after the facts are fleshed out by
summary judgment or trial. ...The
Case l:19-cv-22135-RS
Document 70
Entered on FLSD Docket 04/22/2020 Page 14
of 25
defense is ...generally raised affirmatively in an
answer or other responsive pleading, but may be
asserted in a motion to dismiss if its
applicability is demonstrated on the face of
the complaint or exhibits. ...if the alleged
defamatory words are indeed subject to an absolute
privilege, such privilege is not disclosed by the

s

365a
allegations of plaintiffs amended counterclaim and
therefore may not be asserted in a motion to
dismiss, but rather must be pleaded as a defense.”
In Nodar v. Galbreath. 462 So. 2d 803 (1984),
The Supreme Court held that in determining
whether there exists a privilege in a published
communication, the crucial question is whether the
communication published is "within the generally
accepted standards of decent conduct
Restatement (Second) of Torts § 595 (1976). Under
the common law of Florida, the mode, manner, or
purpose of the communication go to the question of
abuse or forfeiture of the privilege. See Kirvin v.
Clark. 396 So.2d 1203 (Fla. 1* DCA 1981).
The Bar’s claim of an absolute privilege and
sovereign immunity is not disclosed within the
confines of Telasco’s Second Amended Complaint
because Telasco alleges 1) that The Bar’s actions
against her were not made within the scope of its
duties as mandated by Fla. Stat. Ann. §768.28(9)(a)
(See Second Amd. Verified Compl. H 259-264); 2)
The Bar’s actions against Telasco do not fall
“withui the generally accepted standards of decent
conduct;" and 3) The Bar forfeited any immunity it
may have had. because of its criminal actions
against Telasco. See Second Amd. Verified Compl.
H 270-275. The Bar may not assert absolute
privilege or sovereign immunity in a motion to
dismiss.

366a
E) The Florida Bar’s Has Not Met its Burden
of Showing that it is Entitled to Absolute
Privilege or Sovereign Immunity
A government official [agency] "asserting
this defense [sovereign immunity] bears the initial
burden of showing that he [agency] was acting
within his discretionary authority [duties]." See
Moore v. Sheriff of Seminole City., No. 17-14779,
2018 WL 4182120, at *2 (11th Cir. 2018).
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 15 of 25
1) The Bar’s Actions were not Taken in
Furtherance of Official Bar Duties
In Cassell v. India. 964 So.2d 190, 194 (Fla.
4th DCA 2007) the court held that “...The term
"duties " extends to all matters which he [the agency]
is authorized to perform. ...The decisions have ...
always imposed as a limitation upon the immunity
that the official's [agency's] act must have been
within the scope of his [its] powers’, ... official [state
agency] powers, since they exist only for the public
good, never cover occasions where the public good is
not their aim, and hence that to exercise a power
dishonestly is necessarily to overstep its bounds.”
In DelMonico v. Travnor. 116 So.3d 1205
(Fla. 2013) The Florida Supreme Court held that
“We hold that Florida's absolute privilege ...was

367a
never intended to sweep so broadly as to provide
absolute immunity from liability to an attorney for
alleged defamatory statements... a qualified
privilege instead should apply ...so long as the
alleged defamatory statements bear some relation to
or connection with the subject of inquiry in the
underlying lawsuit. ...where the statements do
not bear some relation to or connection with
the subject of inquiry in the underlying
lawsuit, the defendant is not entitled to the
benefit of any privilege—either absolute or
qualified.... why should a person be absolutely
privileged to defame another in the course of a
judicial proceeding by making slanderous
statements wholly outside of the inquiry before the
court? ...The ends of justice can be effectually
accomplished by placing a limit upon ... counsel
who avails himself of his situation to gratify private
malice by ...making libelous statements, which have
no relation to, or connection with, the cause in hand
or the subject-matter of inquiry.
The person whose good name suffers has,
or ought to have, the right to vindicate his
reputation by an appeal to the courts, instead,
of taking the law into his own hands. ... The
person accused may have suffered great financial
loss by the slander published under the protection of
the law ....where the trial court determines that the
alleged defamatory statements, assuming they

368a
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 16 of 25
were made, are not connected with or related to the
subject of inquiry, then the defendant to a
defamation action would be afforded no privilege
at all,.” Delmonico at 1213.
In Fridovich v. Fridovich, 598 So.2d 65
(Fla. 1992), the court held that “There is no benefit
to society or the administration of justice in
protecting those who make intentionally false and
malicious defamatory statements to the police
[court]. ...We believe the law should provide a
remedy in situations such as this.”
The Florida Bar’s actions against Telasco
were not authorized, were not activated in
furtherance of its official purpose of pursuing
disbarment of unethical attorneys and were not an
integral part of the process of addressing
complaints against attorneys. The destruction of an
attorney in good standing at the behest of the
members of The Bar’s fraternity and social club is
not within the scope of The Bar’s authority as an
arm of the Florida Supreme Court in the matters of
the regulation of attorneys. See Thomas v. Tamva
Bay Downs. Inc. 761 So.2d 401, 404 (Fla. 2nd DCA
2000) and Zavadil at 597. The Bar acted beyond
the scope of its duties and the absolute
privilege it assumes to be available does not
attach.

369a

2) Integral to the Requirement for
Absolute and Sovereign Immunity is
Truth and Good Motives which are to
be Determined bv the Jury
In Axelrod v. Califano. 357 So.2d 1048, 1052
(Fla. 1st DCA 1978) the defendant’s publication
branded Axelrod a thief and forger. The court held
that the publication was actionable per se because
it falsely and maliciously charges Axelrod with the
commission of a crime. The court quoted Article I.
Section 4 of the Florida Constitution which states
that “Every person may speak, write, and publish
sentiments on all subjects but shall be responsible
for the abuse of that right...In all...civil actions for
defamation the truth may be given in evidence.
...under this Article. the truth of the publication is
a good defense if the matter charged as defamatory
is true and was
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 17 of 25
published with good motives. See Drennen v.
Westinshouse Elec. Corn.. 328 So.2d 52, 54-55 (Fla.
1st DCA 1976) and Ramos v. Miami Herald Media,
Co., 132 So.3d 1236 (Fla. 3rd DCA 2014).
The issues of truth and good motives are
normally to be resolved by the jury. Drennen at 55.
“...when the evidence is conflicting as to the
existence or nonexistence of privilege or there is

370a
sufficient evidence to indicate that the privilege
may have been exceeded or abused, there is a
mixed question of law and fact, and the fact issue is
to be determined by the jury. Axelrod at 1052.
3) The Bar Made a False Report
Criminal Behavior Against Telasco

of

In Int'l Sec. Memt. Grp.. Inc, v. Rolland. 271
So.3d 33, 48 (Fla. 3rd DCA 2018) the court quoting
Valladares v. Bank of Am. Corn.. 197 So.3d 1, 10
(Fla. 2016) held that: “[A] cause of action is
available to one injured as a result of a false report
of criminal behavior to law enforcement when the
report is made by a party which has knowledge or
by the exercise of reasonable diligence should have
knowledge that the accusations are false or acts in
a gross or flagrant manner in reckless disregard of
the rights of the party exposed,.”
In Claridy v. Golub. 632 Fed. Appx. 565
(11th Cir. 2015) the state attorney relied on the
falsified report of arrest in deciding to prosecute
Plaintiff and in defining the charges against him.
The court held a person who reports a crime acts
maliciously when he "knows the report is false or
recklessly disregards whether the report is false."
The court quoted Lloyd v. Hines, 474 So. 2d 376,
379 (Fla. 1st DCA 1985) which held that “an
officer's use of fraud or corrupt means to obtain a
warrant gives rise to individual liability under
Section
768.28(9)(a). Accordingly.
Defendant

371a
/officer1 is not entitled to iudement on the state law
claims based on immunity provided by Section
768.28(9)(a). ”
The court further indicated that in deciding
whether the defendant is entitled to immunity
under the plaintiffs version of the facts, the inquiry
is whether "certain given fads" demonstrate
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 18 of 25
that
defendant's
conduct
violates
'clearly
established law or rights at the time of the incident
of which a reasonable person would have known
(See Crenshaw v. Lister. 556 F.3d 1283, 1289 (11th
Cir. 2009) and Dalrymple v. Reno, 334 F.3d 991,
994 (11th Cir. 2003)) or “...whether the state of the
law at the time of an incident provided fair warning
to the defendant...” See Terrell v. Smith. 668 F.3d
1244, 1256 (11th Cir. 2012).
One of The Bar’s core functions is to protect
the public by prosecuting unethical attorneys. See
Second Amd. Verified Compl. 43. However, The
Bar used fraud and corrupt means to secure an exparte default judgment of disbarment for theft
against Telasco by falsely representing to the court
that she stole $80,000.00 from her clients and her
conduct and character make her a clear and present
danger to the public as a licensed practicing
attorney. The Bar’s conduct violated clearly

372a
established law. It is liable for defamation per se
and is not entitled to the immunity provided by §
768.28(9)(a).
F) Telasco’s Complaint Sufficiently Alleges all
of the Elements of her Causes of Action
Defamation is defined as "the unprivileged
publication of false statements which naturally and
proximately result in injury to another." See
Wolfson v. Kirk , 273 So. 2d 774, 776 (Fla. 4th DCA
1973) and Jews for Jesus. Inc, v. Edith Raw. 997
So.2d 1098, 1106 (Fla. 2008).
“[A] publication is libelous per se or
actionable per se, if, when considered alone
without innuendo: (1) it charges that a person has
committed an infamous crime; (2) it tends to subject
one to hatred, distrust, ridicule, contempt, or
disgrace; or (4) it tends to injure one in his trade or
profession." See Blake v. Giustibelli. 182 So.3d 881,
884 (Fla. 4th DCA 2016). In Kirvin v. Cark. 396
So.2d 1203 (Fla. 1st DCA 1981) the defendant
accused plaintiff of violating Section 836.05 of the
Florida statutes (1979) which is a felony of the
Defendant alleged that the
second degree,
defamatory words were absolutely privileged
because they were published in the course
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 19 of 25

373a
of a judicial proceedings. The court held that the
allegations that Plaintiff violated the Florida
Statute which amounted to the commission a felony
of the second degree is sufficient to state a cause of
action for defamation per se.
Defamation by Implication “arises, not
from what is stated, but from what is implied when
a defendant (1) juxtaposes a series of facts so as to
imply a defamatory connection between them, or
(2) creates a defamatory implication by omitting
facts,
...the
defamatory
language
must
affirmatively suggest that the author intends or
endorses the inference/’ See Jews for Jesus at 11061107. Telasco’s complaint sufficiently alleges all of
the elements of her causes of action against The
Bar. See Second Amd. Verified Compl. ^ 162-166.
1) Third Party Publication by The Florida
Bar
In Tyler v. Garris. 292 So. 2d 427, 429 (Fla.
4th DCA 1974) the court held that the only
requirement for publication is that "the defamatory
matter must have been communicated to some
third person in order for same to be actionable."
In Sirpal v. University of Miami. 684 F.
Supp.2d 1349, 1361 (S.D. Fla. 2010) Sirpal alleges
that Defendant Dr. Potter defamed him when he
falsely told a University of Florida official that
Sirpal stole protein samples from the University’s

374a
lab and had altered the image in the JBC article
(“predicament”). Defendants argue that “because
Sirpal fully disclosed all the facts of his
predicament to the University of Florida, the
element of third party publication is missing. The
court held that “Sirpal does not allege that Dr.
Potter committed defamation when Sirpal disclosed
his situation to the University of Florida, but that
Dr. Potter committed defamation when Dr. Potter
spoke with the University of Florida. Thus, ..., an
official at SirpaVs former university made a
statement —a publication—to an official at a
prospective university.” The court concluded that
the fact that “Sirpal may have fully disclosed the
facts
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 20 of 25
underlying his predicament before Dr. Potter spoke
with the University of Florida is irrelevant: each
repetition of a defamatory statement is a
publication”
The court held that Sirpal’s
defamation count states a claim and he met the
publication requirement.
In Duduv v. Samuels. 397 F.3d 493, 504, 510
(7th Cir. 2005) the court held that third party
publication requirement is satisfied when the
plaintiffs status is disseminated to his potential
employer by operation of law during the hiring
process.

375a

In Zavadil the court held that “maintaining
an accurate public listing of attorneys, including
whether or not they are in good standing and able
to practice, is an integral part of the [Florida] Bar's
duties, as is responding to inquiries regarding
an attorney's status” Id. at 597.
In Matthews v. Deland State Bank. 334 So.2d
164, 166 (Fla. 1st DCA 1976) the court held that a
disregard for the truth in reporting
especially
when coupled with the failure to correct the
inaccuracies, constitutes libel per se.
In the instant case, Telasco alleges that upon
application for membership to The New York State
Bar, as a condition to admission, Telasco had to
give authorization to Th.e New York Bar to conduct
a background investigation on her. This
investigation entails a. request for a grievance letter
from The Florida Bar inquiring into Telasco’s
status with said Bar. The purpose of this letter is to
inform the requesting third party, The New York
Bar, of any character flaws, grievance proceedings
filed against Telasco, the nature of said proceedings
and their outcome.
The grievance letter is
mandated by the rules and laws regulating
admission to all state bars to include The Florida
Bar.

I

376a
For the reasons discussed above Telasco has
met the publication requirement of her defamation
claim.
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 21 of 25
2) Falsity
The Bar has failed to address or deny
Telasco’s allegations and has not challenged the
authenticity of the direct documentary evidence
that are attached to her complaint in support of her
allegations. Moreover, The Bar has not produced
any documents to support its claim that Telasco is
a thief, one of the central issues of Telasco’s
defamation case. See Second Amd. Verified Compl.
1 162-166.
Damages
Telasco adequately alleges her damages. See
Second Amd. Verified Compl. H 48-49, 802-315. See
Jews for Jesus at 1109. In Duvuv. the court
recognized the damages that befall an individual
like Telasco when it held that “when a state actor
[The Florida Bar] casts doubt on an individual's
"good name, reputation, honor or integrity" ...it
makes it "virtually impossible for the [individual]
to find new employment in his chosen field." Id at
493.
3)

VI. CONCLUSION

i.

377a

For • the foregoing reasons,
Telasco
respectfully requests that this honorable Court
deny The Florida Bar’s motion to dismiss Telasco’s
Second Amended Verified Complaint with
Prejudice.
Dated: April 20, 2020 Respectfully submitted,
/S/
Anne Georges Telasco, Pro Se
Rochester, New York 14611
Phone: 585-201-2492
Email: agtelasco@aol.com
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 22 of 25
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was filed via CM/ECF on this
21st day of April 2020 and served upon the
following:
Barry Scott Richard, Esq.
Karusha Young Sharpe, Esq.
Greenberg Traurig PA,
101 East College Avenue,
Tallahassee, FL 32301
IS/
Anne Georges Telasco, Pro Se

376a
For the reasons discussed above Telasco has
met the publication requirement of her defamation
claim.
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 21 of 25
2) Falsity
The Bar has failed to address or deny
Telasco’s allegations and has not challenged the
authenticity of the direct documentary evidence
that are attached to her complaint in support of her
allegations. Moreover, The Bar has not produced
any documents to support its claim that Telasco is
a thief, one of the central issues of Telasco’s
defamation case. See Second Amd. Verified Compl.
U 162-166.
Damages
Telasco adequately alleges her damages. See
Second Amd. Verified Compl. ^ 48-49, 302-315. See
Jews for Jesus at 1109. In Duduv. the court
recognized the damages that befall an individual
like Telasco when it held that “when a state actor
[The Florida Bar] casts doubt on an individual's
"good name, reputation, honor or integrity" ...it
makes it "virtually impossible for the [individual]
to find new employment in his chosen field." Id at
493.
3)

VI. CONCLUSION

377a
For ■ the foregoing reasons,
Telasco
respectfully requests that this honorable Court
deny The Florida Bar’s motion to dismiss Telasco’s
Second Amended Verified Complaint with
Prejudice.
Dated: April 20, 2020 Respectfully submitted,
/SI
Anne Georges Telasco, Pro Se
Rochester, New York 14611
Phone: 585-201-2492
Email: agtelasco@aol.com
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 22 of 25
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was filed via CM/ECF on this
21st day of April 2020 and served upon the
following:
Barry Scott Richard, Esq.
Karusha Young Sharpe, Esq.
Greenberg Traurig PA,
101 East College Avenue,
Tallahassee, FL 32301
/S/
Anne Georges Telasco, Pro Se

378a
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 23 of 25
EXHIBIT A
https://en.wikipedia.org/wiki/List of Florida
_hurricanes_(2000%E2%80%93present
2001 Atlantic hurricane season
Subtropical Depression Alison
. Junel2,2001
moves through Alabama and Georgia, with its
outer rainbands producing up to 10.1 inches (357
mm) of rain at the Tallahassee Regional Airport.
The rainfall destroys 10 homes and damages 599
others.
With monetary damage totaling $20
million (2001 USD, $27.3 million 2017 USD). Eight
people died in the state, five of which due to rip
currents.
August 6, 2001 - After meandering for several
days in the eastern Gulf of Mexico. Tropical Storm
Barry makes landfall at Santa Rosa Beach.
producing heavy rainfall across much of Florida
which peaks at 11.7 inches (297 mm) in Stuart.
The storm kills two in the state and leaves $1.5
million in damage (2001 USD, $2.05 million 2017
USD).
.
September 14, 2001 - Tropical Storm Gabrielle
hits Venice, dropping moderate to heavy rainfall
including a peak total of 15.1 inches (384 mm) in

379a
Parrish. The combination of flooding from rainfall
and gusty winds causes $230 million in damage
(2001 USD) and one direct death, and high waves
from the storm indirectly kills a person in the
Florida Keys.
November 5, 2001 - Hurricane Michelle passes
to the south of the state, dropping up to 4.99 inches
(127 mm) of rainfall and causing $10.07 million in
damages (2001 USD). The hurricane spawns two
tornadoes, resulting in $16,000 of damage (2001
USD).

380a
Case l:19-cv-22135-RS Document 70 Entered
on FLSD Docket 04/22/2020 Page 24 of 25
CNN.com
Florida Keys under evacuation order
MIAMI, Florida (CNN)
South Florida
braced Saturday for Hurricane Michelle, as the
storm’s outer bands reached Cuba.
Monroe County Emergency Management officials
issued a mandatory evacuation of the Florida Keys
Saturday at 7 a.m. EST, for all visitors and non­
residents.
Boasting sustained winds of 130 mph, forecasters
said they expect the storm will continue to gain
strength, possibly becoming a Category 4 hurricane
later Saturday.
The eye of Michelle meandered in the Caribbean
Saturday morning, but the storm is expected to
resume moving northward later in the day, moving
over western Cuba late Saturday or early Sunday.
The Miami-based National Hurricane Center has
issued a hurricane watch for the Florida Keys from
Ocean Reef Westward to the dry Tortugas Islands.
The Cuban government has upgraded its own
hurricane watch to a warning for the provinces
from Pinar Del Rio Eastward to Ciego de Avila, as
well as the Isle of Youth.

381a
The hurricane is expected to bear down on Cuba
within 24 hours, which could get up to 20 inches of
rain.
A tropical storm watch is also in effect for the
island of Grand Cayman.
At 7 a.m. Est, the center of Michelle was about 205
miles (330 Kilometers) south-southwest of the
western tip of Cuba. Hurricane force winds extend
outward up to 30 miles (45 Kilometers) from the
center, and tropical storm force winds extend up to
145 miles (230 Kilometers).
In Havana, workers have been boarding up hotel
windows and residents have been stocking up on
water and canned food. On national television,
President Fidel Castro said on Friday there was no
panic in the country and that residents were
prepared to face any eventuality. He joked about
the hurricane, telling Cubans they had faced worse
than that.
Michelle is blamed for at least 10 deaths in Central
America. Heavy rain from the storm system has
forced thousands of people from their homes.
-CNN Havana Bureau Chief Lucia Newman
contributed to this report

382a
APPENDIX F
IN THE UNITED STATES DISTRICT COURT
FOR THE ELEVENTH CIRCUIT
Appellate Docket No.: 20-13272-EE
ANNE GEORGES TELASCO,
Plaintiff/Appellant,
v.
THE FLORIDA BAR,
Defendant/Appellee.
APPEAL FROM THE UNITED STATES
DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
INITIAL BRIEF OF APPELLANT
CIVIL APPEAL

BY:

ANNE GEORGES TELASCO
Pro Se Appellant
agtelasco@aol.com

383a
TABLE OF CONTENTS
[iii]
PAGE
ARGUMENT
I.

CONSTITUTIONAL RIGHTS AT
STAKE..........................................

11-30
11-12

A. The First Amendment
Fundamental Right to
Petition.......................

11-12

B. Right of Access to Court
Under the Petition Clause
is a Fundamental Element of
our Democracy....................... .

12-14

C. The Aim of Judicial Petitioning
is “Vindication” and
“Compensation” for Legally
Cognizable Winning
Claims........................................

15

D. The Constitution Demands
Government Accountability

15-16

E. The Strict Scrutiny Standard is
Applicable to Restrictions to
Court Access..............................

16-17

II. SOVEREIGN IMMUNITY

17

384a

[iv]
A. Sovereign Immunity is not
Applicable when a State Agency
Commenced the Legal
Proceedings...................................

17-18

B. Constructive Waiver of
Sovereign Immunity ...,

18-20

C. Fundamental Fairness and the
Petition Clause...........................

20-22

1. Judicial Access is the Only
Means to Resolve The Exparte
Judgment of Disbarment for
Theft - a Felony Conviction ....

22-24

2. The Judicial Power of The
Federal Courts...................

24

III. THE STIGMA PLUS DOCTRINE

24

A. Appellant’s Claim for Defamation
Per Se, General Defamation,
and Defamation by Implication
Against The Florida Bar Meet
the Two-Prong Test of the
“Stigma Plus” Doctrine.................

24-26

1. Liberty Interest Defined

26-27

385a
2. Property Interest Defined

27-28

IV. INVOCATION OF THE
EQUITABLE POWERS OF THE
COURT.........................................

28-30

V. RELIEF REQUESTED

30

VI. CONCLUSION

30

VII.

CERTIFICATE OF
COMPLIANCE ....

VIII. CERTIFICATE OF
SERVICE .............

»

31
32

V. CONCLUSION (page 30 of brief)
Granting Appellant’s request would work no
revolution in the law of government accountability
nor frustrate the purpose of sovereign immunity.
However, permitting The Florida Bar to bring an
action against Appellant and then retreat behind a
claim of Sovereign Immunity would be violative of
our constitutional structure and the working of our
system of accountability.
Dated: November 11, 2020
Respectfully submitted,

386a
/S/
Anne Georges Telasco, Pro Se Appellant
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
copy of the foregoing was filed via CM/ECF on this
11th day of November 2020 and served upon the
following: Mary Hope Keating, Esq., Barry Scott
Richard, Esq., Karusha Young Sharpe, Esq.
Greenberg Traurig PA, 101 East College Avenue,
Tallahassee, FL 32301.

Anne Georges Telasco
Pro Se Appellant
agtelasco@aol.com
Page 32

387a
APPENDIX G
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
Civil Action No.: 19-CV-22135-RS
ANNE GEORGES TELASCO,
Rochester, New York
Plaintiff,
v.
THE FLORIDA BAR,
an unincorporated association,
Suite M100, Rivergate Plaza
444 Brickell Avenue
Miami, Florida 33131-2404
Defendant.

PLAINTIFFS AMENDED FIRST REQUEST
FOR PRODUCTION OF DOCUMENTS
Pursuant to Fed. R. Civ. P. 34, the Plaintiff
requests Defendant to produce and permit
inspection and copying of the documents listed in
this request. The inspection and performance of
related acts shall be made at a site agreed upon by
the parties, within 30 days of service of this
request.

388a
III. DOCUMENTS DEMANDED

16. A complete copy of The Florida Bar File
2000-70,271 AND corresponding Florida Supreme
Court Case No.: SC01-1198 opened 12/09/1999 &
closed on 10/06/2002.
17. A complete copy of The Florida Bar File
2002-70,480 AND corresponding Florida Supreme
Court Case No.: SCOl-2893 opened 12/06/2001 &
closed on 10/08/2002.
18. A complete copy of The Florida Bar File
2002-70,505 AND corresponding Florida Supreme
Court Case No.: SCOl-2423 opened 11/7/2001 &
closed 07/01/2002.
19. A complete copy of The Florida Bar File
2002-70,726 AND corresponding Florida Supreme
Court Case No.: SC02-44 opened 1/8/2002 & closed
10/25/2002.
20. A complete copy of The Florida Bar Case
No.: 2002-11-CA-01 - The Florida Bar vs. Petition
for Inventory Attorney a/k/a The Florida Bar vs.
Anne Georges Telasco opened 1/2/2002 & closed
1/9/2004.
21. A complete copy of Anne Georges Telasco
Florida Bar file that is made available to the public
for inspection.
22. A complete copy of all invoices for trust
account identified in paragraph 12 of the Amended

389a
Report of Referee dated April 29, 2002 as account
number 7228155394 from Great Western Bank
a/k/a 834-068022-7.
23. A complete copy of the trust account
invoice dated February 28, 2001, reflecting a
balance of $0.00 identified in paragraph 16 of the
Amended Report of Referee dated April 29, 2002.
26. A copy of all documents which reflect
that Telasco misappropriated her former clients’
settlement fund.
Dated: October 29, 2019
Respectfully submitted,
Anne Georges Telasco, Pro Se
Rochester, New York 14611
Phone: 585-201-2492
Email: agtelasco@aol.com

390a
APPENDIX H
Case l:19-cv-22135-RS Document 46 Entered
on FLSD Docket 11/27/2019 Page 1 of 7
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
Civil Action No.: 19-CV-22135-RS
ANNE GEORGES TELASCO,
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.

DEFENDANT'S MOTION TO STAY
DISCOVERY AND PRETRIAL DEADLINES
AND INCORPORATED MEMORNDUM OF
LAW
Defendant, THE FLORIDA BAR, pursuant
to Fed. R. Civ. P.26(c) and (d) and the Court's
inherent powers, moves the Court for entry of an
Order temporarily staying discovery and all
pretrial deadlines imposed by the Court, the Local
Rules, and the Federal Rules of Civil Procedure
until the Court rules on pending dispositive and

391a
substantive motions. In support of this Motion
Defendant state as follows:
IV.
CONCLUSION.
Defendant's request for stay is reasonable, and
there is good cause to hold the pretrial deadline
and discovery until after the Court assesses the
legal arguments set forth by the parties in the
pending motions described above. Further, the
relief sought herein is necessary to handle the case
in the most economical fashion, yet with sufficient
time to comply with reset or extended
Case l:19-cv-22135-RS Document 46 Entered
on FLSD Docket 11/27/2019 Page 6 of 7
pretrial deadlines and complete discovery, if
necessary, consistent with the scheduling
obligations of counsel. Finally, the relief sought in
this Motion is not for delay, but so that justice may
be done.
WHEREFORE, Defendant requests that all
pretrial deadlines and discovery be stayed until
resolution of the pending dispositive and
substantive motions.
Respectfully submitted,
GREENBERG TRAURIG, P.A.
101 East College Avenue
Tallahassee, FL 32301
By: /s/ Karusha Y. Sharp

392a
APPENDIX I
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
Civil Action No.: 19-CV-22135-RS

i

ANNE GEORGES TELASCO
Rochester, New York
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.
PLAINTIFFS FIRST SET OF REQUESTS FOR
ADMISSIONS
Plaintiff, ANNE GEORGES TELASCO,
submits the following Requests for Admissions to
Defendant, THE FLORIDA BAR, pursuant to Rule
36(a)(1)(B) of the Federal Rules of Civil Procedure.
Letter from Bar Counsel Randolph
Brombacher Acknowledging Receipt of the
Settlement check dated April 24. 2002 FD.E. 53
at page 1511 Attached as Exhibit “E”

393a
First Set of Admissions, Request 37. Admit
that The Bar’s letter dated April 24, 2002 is a true
and authentic copy of the genuine original letter
from Bar’s Counsel, at the time, Rudolph M.
Brombacher to Jonathan D. Wald, Esq.
ANSWER:
First Set of Admissions, Request 38. Admit
that Rudolph M. Brombacher was The Bar’s
counsel and was authorized to write the letter
dated April 24, 2002 to Jonathan D. Wald.
ANSWER:
First Set of Admissions, Request 39. Admit
that The Bar’s letter dated April 24, 2002 states
that “...once can directly infer from the enclosed
order that Ms. Telasco remitted these funds to the
court which were due and owing to your [Mr. Wald]
clients as a result of her representation against
Sheraton.”
ANSWER:
First Set of Admissions, Request 40. Admit
that the letter dated April 24, 2002 to attorney
Wald was made at or near the time of the regularly
conducted activity to which it pertains.
ANSWER:
First Set of Admissions, Request 41. Admit
that the letter dated Api*il 24, 2002 to attorney
Wald was made by Rudolph M. Brombacher a
person with knowledge of the activity to which the

394a
letter pertains or was made from information
transmitted by a person with knowledge of the
activity to which the letter pertains.
ANSWER:
First Set of Admissions, Request 42. Admit
that the letter dated April 24, 2002 to attorney
Wald was prepared and kept by The Florida Bar in
the course of regularly conducted activity of its
business, organization, occupation or calling.
ANSWER:
First Set of Admissions, Request 43. Admit
that the letter dated April 24, 2002 to attorney
Wald was made in the regular practice of the
activity to which the letter pertains.
ANSWER:
First Set of Admissions, Request 44. Admit
that the letter dated April 24, 2002 to Attorney
Wald is self-authenticated within the meaning of
Federal Rule of Evidence 902(1)(B).
ANSWER:
First Set of Admissions, Request 45. Admit
that all foundational requirement for the admission
of the letter dated April 24, 2002 to attorney Wald
. have been satisfied.
ANSWER:
First Set of Admissions, Request 46. Admit
that The Bar fabricated documents and created

395a
false charges for theft against Telasco an attorney
in good standing in its ex parte pretextual
grievance procedure against Telasco.
ANSWER:
First Set of Admissions, Request 47. Admit
that The Bar fabricated documents and created
false charges against Telasco in its ex parte, by
default pretextual grievance procedure in order to
justify and to secure a judgment of disbarment for
theft against her.
ANSWER:
First Set of Admissions, Request 48. Admit
that The Bar misrepresented facts ex parte to the
court that Telasco, an attorney in good standing,
stole her clients’ settlement funds when all the
while The Bar had and was fully aware that it had
possession and complete control over the same fund
it claimed said Telasco stole.
ANSWER:
First Set of Admissions, Request 49. Admit that
The Bar fabricated evidence, doctored the affidavit
of its auditor and fraudulently misrepresented to
the court that Telasco committed a felony by
misappropriating her clients’ settlement funds
when The Bar had actual possession and control of
the same funds.
ANSWER:

396a
First Set of Admissions, Request 50. Admit that
The Bar fabricated evidence, doctored the affidavit
of its auditor and fraudulently misrepresented to
the court that Telasco’s conduct, characteristics,
and condition are incompatible with the proper
exercise of her legal profession when Telasco who
had been practicing law for almost 10 years had an
impeccable record as an attorney and individual.
ANSWER:
First Set of Admissions, Request 51. Admit that
The Bar fabricated evidence, doctored the affidavit
of its auditor and fraudulently misrepresented to
the court that Telasco is a clear and present
danger to the public as a licensed and practicing
attorney when Telasco was in good standing and
doing pro bono work for the Federal and State
courts and had received numerous accolades for her
pro bono work.
ANSWER:
First Set of Admissions, Request 52. Admit that
The Bar is a state agency and Telasco’s tort action
for defamation per se, general defamation and
defamation by implication against The Bar is
authorized by section 768.28 of the Florida
Statutes.
ANSWER:
First Set of Admissions, Request 53. Admit that
The Bar used fraud and corrupt means when it
fraudulently fabricated documentary evidence and

397a
presented said evidence to the court in order to
secure an ex parte by default a judgment of
disbarment for theft against Telasco.
ANSWER:
Settlement Check dated November 6. 2001
Telasco Submitted to The Florida Bar for
Distribution to her former clients FD.E. 53 at
page 1491 Attached as Exhibit “F”
First Set of Admissions, Request 54. Admit
that the Washington Mutual Bank Cashiers Check
Number 634428674 dated November 6, 2001 in the
amount of $49,147.70 cents [D.E. 53 at page 149] is
a true and authentic copy of the genuine and
original check Telasco submitted to The Bar.
ANSWER:
First Set of Admissions, Request 55. Admit
that the Washington Mutual Bank Cashiers Check
Number 634428674 dated November 6, 2001 in the
amount of $49,147.70 represented the settlement
funds which were due to Telasco’s clients.
ANSWER:
First Set of Admissions, Request 56. Admit
that the settlement check is self-authenticated
within the meaning of Federal Rule of Evidence
902(9).
ANSWER:
First Set of Admissions, Request 57. Admit
that the settlement check was kept by The Florida

398a
Bar in the course of regularly conducted activity of
its business, organization, occupation or calling.
ANSWER:
First Set of Admissions, Request 58. Admit
that all foundational requirement for the admission
of Washington Mutual Bank Cashiers Check
Number 634428674 dated November 6, 2001 in the
amount of $49,147.70 cents have been satisfied.
ANSWER:
Order on Motion to Reissue Washington
Mutual Bank Check Number 634428674 Dated
April 19, 2002 fD.E. 53 at page 2011 Attached
as Exhibit “G”
First Set of Admissions, Request 59. Admit
that the Order on Motion to Reissue Washington
Mutual Bank Official Check [D.E. 53 at page 201]
so that it may be made payable to the clerk of the
County and Circuit Court, Eleventh Circuit dated
April 19, 2002 is a true and authentic copy of the
genuine and original motion.
ANSWER:
First Set of Admissions, Request 60. Admit
that the Order on Motion to Reissue Washington
Mutual Bank Cashiers Check Number 634428674
dated November 6, 2001 in the amount of
$49,147.70 voided the November 6, 2001 cashiers
check Telasco submitted to The Bar and for The
Bank to reissue a second replacement check since

399a
the check that Telasco gave was now about 7
months old and stale dated.
ANSWER:
First Set of Admissions, Request 61. Admit
that the Order on Motion to Reissue Washington
Mutual Bank official Check dated April 19, 2002
was made at or near the time of the regularly
conducted activity to which it pertains.
ANSWER:
First Set of Admissions, Request 62. Admit
that the Order on Motion to Reissue Washington
Mutual Bank official Check dated April 19, 2002
was made by the Referee, Judge Scola, a person
with knowledge of the activity to which the order
pertains or was made from information transmitted
by a person with knowledge of the activity to which
the order pertains.
ANSWER:
First Set of Admissions, Request 63. Admit
that the Order on Motion to Reissue Washington
Mutual Bank official Check dated April 19, 2002
was prepared by the Referee, Judge Scola, and kept
by The Florida Bar in the course of regularly
conducted activity of its business, organization,
occupation or calling.
ANSWER:
First Set of Admissions, Request 64. Admit
that the Order dated April 19, 2002 is self-

400a
authenticated within the meaning of Federal Rule
of Evidence 902(1)(B).
ANSWER:
First Set of Admissions, Request 65. Admit
that the Order dated April 19, 2002 was made in
the regular practice of the activity to which the
order pertains.
ANSWER:
First Set of Admissions, Request 66. Admit
that all foundational requirement for the admission
of Order dated April 19, 2002 have been satisfied.
ANSWER:
Florida Bar Auditor. Mr. Carlos Ruga’s
Report dated July 14, 2000 FD.E. 53 at page
1161 Attached as Exhibit “I”
First Set of Admissions, Request 76. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 [D.E. 53 at page 116] is a true
and authentic copy of the genuine original report.
ANSWER:
First Set of Admissions, Request 77. Admit
that Carlos J. Ruga was The Bar’s Branch Auditor
and was authorized to audit and write the report
dated July 14, 2000.
ANSWER:
First Set of Admissions, Request 78. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report

401a
dated July 14, 2000 states that “based upon the
records reviewed and my meetings with
Respondent [Telasco] it appears that the costs
charged to the clients were incurred and paid for.”
ANSWER:
First Set of Admissions, Request 79. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 dispelled Mr. Wald’s claim that
Telasco expenses and costs were not incurred by
her.
ANSWER:
First Set of Admissions, Request 80. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 was made at or near the time
of the regularly conducted activity to which it
pertains.
ANSWER:
First Set of Admissions, Request 81. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 was made by Mr. Carlos J.
Ruga a person with knowledge of the activity to
which the letter pertains or was made from
information transmitted by a person with
knowledge of the activity to which the documents
pertain.
ANSWER:
First Set of Admissions, Request 82. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report

402a
dated July 14, 2000 was prepared by Mr. Carlos J.
Ruga and kept by The Florida Bar in the course of
regularly conducted activity of its business,
organization, occupation or calling.
ANSWER:
First Set of Admissions, Request 83. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 was made in the regular
practice of the activity to which the report pertains.
ANSWER:
First Set of Admissions, Request 84. Admit
that the Bar’s Auditor, Mr. Carlos J. Ruga’s Report
dated July 14, 2000 is self-authenticated within the
meaning of Federal Rule of Evidence 902(1)(B).
ANSWER:
First Set of Admissions, Request 85. Admit
that all foundational requirement for the admission
of Mr. Carlos J. Ruga’s Report dated July 14, 2000
have been satisfied.
ANSWER:

Affidavit of Carlos Ruga dated October 30,
2001 TD.E. 53 at page 1051 Attached as Exhibit
“K”

First Set of Admissions, Request 113. Admit
that The Bar’s auditor’s Affidavit dated October
30th, 2001 [D.E. 53 at page 105] is a true and
authentic copy of the genuine original affidavit.

403a
ANSWER:
First Set of Admissions, Request 114. Admit
that the Affidavit of Carlos Ruga dated October 30,
2001 is a true and authentic copy of the Affidavit
The Bar filed with The Referee and The Florida
Supreme Court.
ANSWER:
First Set of Admissions, Request 115. Admit
that The Bar’s auditor’s Affidavit dated October
30th, 2001 states that “Telasco gave a $31,552.30
credit to her 8 former clients so each client would
receive $10,000.00 from the settlement.”
ANSWER:
First Set of Admissions, Request 116. Admit
that The Bar’s auditor’s Affidavit dated October
30th, 2001 states that “On or about July 19, 1999,
respondent [Telasco] prepared a settlement
statement in which she was to receive $120,000.00
for attorney’s fees and deducted costs in the
amount of $131,552.30 leaving a balance of
$48,447.70 to be divided between the eight (8)
clients. Respondent [Telasco] credited $31,552.30
to the clients so each could receive $10,000.00.”
ANSWER:
First Set of Admissions, Request 117. Admit
that The Bar’s auditor’s Affidavit dated October
30th, 2001 numbering jumps from number 11 to
number 38.

404a
ANSWER:
First Set of Admissions, Request 118. Admit
that number 38 of The Bar’s auditor’s Affidavit
dated October 30th, 2001 states that Telasco is a
clear present danger to the public.
ANSWER:

Dated: March 19, 2020
Respectfully submitted,

Anne Georges Telasco, Pro Se
Rochester, New York 14611
Phone: 585-201-2492
Email: agtelasco@aol.com
CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct
original of the foregoing was sent via priority mail
United States Postal Service on this 19th day of
March 2020 to the following: Barry Scott Richard,
Esq., Karusha Young Sharpe, Esq., Greenberg
Traurig PA, 101 East College Avenue, Tallahassee,
FL 32301.

Anne Georges Telasco, Pro Se
Rochester, NY 14611

405a
APPENDIX J
Case l:19-cv-22135-RS Document 69 Entered
on FLSD Docket 04/07/2020 Page 1 of 5
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
Civil Action No.: 19-CV-22135-BB
ANNE GEORGES TELASCO,
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.
DEFENDANT’S MOTION TO STAY
DISCOVERY
Defendant, THE FLORIDA BAR
(“Defendant”), pursuant to Fed. R. Civ. P. 26(d) and
the Court’s inherent powers, moves the Court for
entry of an Order temporarily staying discovery
until the Court rules on Defendant’s pending
dispositive and substantive Motion to Dismiss
Second Amended Complaint (the “Motion”). In
support of thereof, Defendant states as follows:

406a
III.

CONCLUSION.

Defendant’s request for stay is reasonable,
and there is good cause to hold discovery until after
the Court assesses the legal arguments set forth by
the parties in Defendant’s Motion and Plaintiffs
(yet to be filed) response. Further, the relief sought
herein is necessary to handle the
^ To date, Plaintiffs discovery has been filed with
the Court and stricken [Docs. 63, 64, 65], but not
properly served upon Defendant.
Case l:19-cv-22135-RS Document 69 Entered
on FLSD Docket 04/07/2020 Page 5 of 5
case in the most economical fashion, yet with
sufficient time to complete discovery, if necessary,
consistent with the scheduling obligations of
counsel. Finally, the relief sought in this Motion is
not for delay, but so that justice may be done.
WHEREFORE, Defendant requests that
discovery be stayed until resolution of Defendant’s
pending dispositive and substantive Motion to
Dismiss.
Respectfully submitted,
GREENBERG TRAURIG, P.A.
101 East College Avenue
Tallahassee, FL 32301
By: /s/ Karusha Y. Sharpe

407a

APPENDIX K
Case l:19-cv-22135-RS Document 75 Entered
on FLSD Docket 05/08/2020 Page 1 of 4
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
FLORIDA
Civil Action No.: 19-CV-22135-BB
ANNE GEORGES TELASCO
Plaintiff,
v.
THE FLORIDA BAR,
Defendant.
DEFENDANTS REPLY TO ITS MOTION
TO STAY DISCOVERY
Defendant, THE FLORIDA BAR, hereby files
its reply in further support of its Motion to Stay
Discovery, [D.E. 69], and in response to Plaintiffs
opposition memorandum [D.E. 74].
Case l:19-cv-22135-RS Document 75 Entered
on FLSD Docket 05/08/2020 Page 2 of 4

(

408a
1

The undersigned was able to locate a version
of the discovery requests served by mail and
withdraws the assertion that service was improper.
Nevertheless
231 Requests for Admissions
regarding cases that are 18 years old is likely per
se burdensome. Moreover, Plaintiff is correct that
Defendant’s Motion to Stay is tantamount to a
request for protection from her requests, (footnote)
/Karusha Y. Sharpe
Karusha Y. Sharpe
Florida Bar No. 0540161
Barry Richard
Florida Bar No. 105599
Greenberg Traurig, P.A.
101 East College Avenue
Tallahassee, FL 32301

CERTIFICATE OF SERVICE
I HEREBY CERTIFY that a true and correct copy of
the foregoing was filed via the CM/ECF system which will
serve Plaintiff via email, as consented to, this 8th day of
May, 2020.
s/Karusha Y. Sharpe

